<html>
<title> - FIELD HEARING ON PROPOSED MODIFICATIONS OF FOLSOM DAM</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
         FIELD HEARING ON PROPOSED MODIFICATIONS OF FOLSOM DAM

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                  MAY 27, 1998, SACRAMENTO, CALIFORNIA

                               __________

                           Serial No. 105-93

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 49-739 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho
                  Robert Faber, Staff Director/Counsel
                   Joshua Johnson, Professional Staff
                      Steve Lanich, Minority Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 27, 1998........................................     1

Statement of Members:
    Fazio, Hon. Vic, a Representative in Congress from the State 
      of California..............................................     7
        Prepared statement of....................................    11
    Matsui, Hon. Robert T., a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     6

Statement of Witnesses:
    Barber, George, San Joaquin Supervisor.......................    70
        Prepared statement of....................................   113
    Costa, Ray, Soils Engineer, Sacramento.......................    42
        Prepared statement of....................................   101
    Countryman, Joe, Consultant, Murray, Burns, & Kienlen........    45
        Prepared statement of....................................   104
    Enson, Carl F., Director of Engineering and Technical 
      Services, South Pacific Division, Corps of Engineers, 
      accompanied by Colonel Dorothy F. Klasse, Sacramento 
      District Commander, Sacramento.............................    28
        Prepared statement of....................................    99
    Johnson, Muriel, Chairperson, SAFCA..........................    66
    Meral, Dr. Jerry, Executive Director, Planning and 
      Conservation League, American River Coalition..............    89
    Miklos, Hon. Steve, Mayor of Folsom..........................    64
    Montemayor, Hon. Mark, Councilmember, City of West Sacramento    69
        Prepared statement of....................................   113
    Patterson, Roger, Regional Director, Mid-Pacific Region, 
      Bureau of Reclamation......................................    25
        Prepared statement of....................................    98
    Pineda, Ricardo, Chief Engineer, California State Board of 
      Reclamation................................................    00
        Prepared statement of....................................   103
    Rabbon, Peter, Executive Director, California State Board of 
      Reclamation................................................    26
    Serna, Hon. Joe, Mayor of Sacramento.........................    61
        Prepared statement of....................................   111
    Steffani, Ed, General Manager, Stockton East Water District..    89
    Uhler, Lew, President, National Tax Limitation Committee.....    87
        Prepared statement of....................................   110

Additional material supplied:
    Sacramento Flooding, a Region at Risk, submitted by 
      Sacramento Area Flood Control Agency.......................   120
    The California Reclamation Board, prepared statement of......    98



            HEARING ON PROPOSED MODIFICATIONS OF FOLSOM DAM

                              ----------                              


                        WEDNESDAY, MAY 27, 1998

        House of Representatives, Subcommittee on Water and 
            Power, Committee on Resources, Sacramento, 
            California.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room 4202, State Capitol Building, Sacramento, California, Hon. 
John Doolittle (chairman of the subcommittee) presiding.
    Mr. Doolittle. I am pleased to have the Water and Power 
Subcommittee meet in Sacramento this morning to consider the 
proposed modification of Folsom Dam.
    Can we get some order here?
    I would like to say that the balcony is open for people who 
wish to sit up there.
    We are meeting to consider the proposed modifications to 
Folsom Dam and the related downstream levee modifications. Our 
Committee is responsible for the Bureau of Reclamation, which 
operates Folsom Dam.
    My No. 1 priority in the years I have represented 
Sacramento and surrounding areas is to find a solution for 
adequate flood protection.
    The purpose of today's hearing is to evaluate a proposal 
that would modify Folsom Dam to provide a new level of flood 
protection. Unfortunately, it not only promises a multipurpose 
mission for Folsom but fails to give the city of Sacramento the 
flood protection it needs and deserves. It does so at 
tremendous cost to the region, and Sacramento getting the 
protection it needs.
    Folsom Dam is operated as an integral part of the Central 
Valley project. Two of the primary purposes for which 
Sacramento dams are to supply water supplies and hydropower 
from the Folsom reservoir for the city of Roseville, suburb of 
Sacramento, the city of Folsom, and throughout the Central 
Valley to many of the state's agriculture districts.
    The cities Sacramento and Roseville also supply 
hydroelectric power from the Folsom power plant to the Western 
Area Administration.
    If we are going to compromise those functions, it should be 
for a plan that will give Sacramento adequate flood protection.
    H.R. 3698 was introduced, which would authorize the Corps a 
stepped release plan, as identified in the Corps' 1996 American 
River watershed project. Such a plan would make several 
modifications to Folsom Dam.
    The Corps estimates these modifications, along with the 
plant's proposed improvements to existing American River levees 
downstream Folsom Dam would increase Sacramento's flood 
protection from seventy-seven-year protection up to a level of 
a hundred-and-forty-five to a hundred-and-sixty-year 
protection.
    This level of protection is, however, far below the minimum 
two-hundred-fifty-year flood event predicted by the Corps or 
the five-hundred-year level of protection recommended by the 
inner agency floodplain management review committee, which most 
other comparable flood protection centers enjoy.
    As you know, my preference for that is to complete the 
construction of Auburn Dam, a project that would provide 
Sacramento in protection of four hundred years instead of a 
hundred-forty-five-year level being proposed.
    It is important for everyone to realize that Auburn is not 
under construction right now because of actions in Sacramento, 
not Washington, DC.
    Don't get me wrong, it is not the responsibility of the 
people of Sacramento. They have repeatedly stated their support 
for Auburn Dam.
    The failure to build Auburn lies in substantial part with 
elected officials who represent the people in Sacramento and 
so-called public interest groups which purport to represent 
people in Sacramento. Most of them appear to be interested in 
white water and environmental rehabilitation.
    The capital of the state of California could have Auburn 
built and could enjoy both flood protection as well as water 
supply and recreation if there were a clear voice from 
Sacramento demanding such a facility.
    I look forward to hearing from the witnesses and shedding 
light on the current proposal, and I would like to recognize my 
colleague from the Monterey Bay area, Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman. It is indeed a 
pleasure to be back here in this building we both served.
    We are in the capitol, which I recall in the museum 
downstairs has pictures of the legislature getting to work in 
rowboats. It is a city that does flood, and today's discussion 
is more about floods than it is about dams.
    It has certainly a place I love being back in. It is dear 
to me. I purchased my first home in Sacramento. I worked here 
in this building and served here as a member of the 
legislature.
    I was here as a young child when my father was elected to 
the state senate in 1955; not from Sacramento, but Yuba City, 
showing these 1955 newspapers that the Feather River broke, and 
we are living with floods.
    I now represent an area, the Salinas Valley and Pajaro 
Valley, which has been flooded. I am concerned about the issues 
we are going to hear today.
    I might say from where I come from I think the issue, Mr. 
Chairman, on the Auburn Dam was first authorized thirty-six 
years ago. It hasn't been built, never will be built. I think 
the issue is dead, dead, dead. So I think that this is not a 
discussion about dams, but a discussion about how we prepare 
for floods.
    I happen to believe that members of the Resource Committee 
also have an opportunity to preserve resources for various 
purposes and the big debate in Congress right now is management 
of those resources, management of our forests, whether they 
ought to be managed or sold, our timber sales, our mining 
activities.
    I mean, there is some way of looking at it where everything 
the Federal Government owns or invests should be sold at the 
highest price.
    Best recreational value, I think Members of Congress have 
as much duty to represent the white water interest as well as 
those interests that don't have white water.
    I look forward to this hearing. I am glad you brought the 
hearing to Sacramento, and I think you have a very strong 
witness list.
    Those of us that are here today are all Californians. We 
serve in Congress. We have a special interest in making sure 
that our system of river management flood control works well, 
and I appreciate the fact that you brought the Committee back 
to the state capitol for that purpose.
    Mr. Doolittle. Thank you. We would like to welcome our two 
colleagues, Mr. Matsui and Mr. Fazio, representatives of the 
area here concerned, and recognize them for their testimony. We 
will begin with the author of the bill I oppose, Mr. Matsui.

    STATEMENT OF HON. ROBERT T. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Matsui. Thank you very much, Mr. Chairman. I appreciate 
this opportunity very much. I would like to, first of all, 
commend you and your staff for holding these hearings today, 
and Mr. Farr for coming from Monterey and being with us this 
morning, and obviously Mr. Pombo, and Mr. Radanovich.
    Mr. Fazio is leaving at the end of this year. I have to 
tell you, I certainly am going to miss him very dearly. I 
appreciate the help and assistance he has given to our region 
and the state of California and the Nation over the past twenty 
years.
    Mr. Chairman, 1986, as you know, we had a potentially 
catastrophic--we were twenty-four hours away from a major 
catastrophic flood where the levees would have collapsed.
    At that time approximately a hundred and forty thousand 
cubic feet per second went down from the American River down 
into the Sacramento and beyond.
    For the last twelve years we have been trying to get 
adequate flood control for Sacramento County.
    Just to put this in perspective, if a child is born today, 
that child, if it has a normal life span of seventy-seven 
years, will suffer a catastrophic flood in Sacramento.
    What we are really talking about here is that there is a 
one-third chance every thirty years that we are going to have 
that catastrophic flood.
    There are right now of the nine regional hospitals in 
Northern California, which includes Placer, El Dorado, 
Stockton, Yolo County--use it has a theater--of the nine 
regional hospitals, seven are within the floodplain and in dire 
danger, if, in fact, we have a catastrophic flood; thirty 
nursing homes, some of which residents are from the up-lying 
northern counties.
    You have over a hundred and twenty public schools and 
private schools within the floodplain with all these young 
children that obviously would be in jeopardy.
    We have thirty-seven billion dollars of assets and over 
four hundred thousand people in the floodplains and over four 
hundred thousand people in the AR zone and six hundred thousand 
people in the floodplains itself.
    This is a matter not of politics. This is a matter not of 
technicalities. This is a matter of public safety, dire public 
safety.
    If we have a levee break in a huge flood, this would be 
could be equivalent to the 1906 earthquake. We all know the 
consequences of this. I don't think this is one region versus 
another region.
    If a flood hits Sacramento County and creates the kind of 
damage anticipated, it would hit the entire Sacramento region 
including San Francisco. This is not a matter to be taken 
lightly. This is a serious matter.
    Even in Stockton, Mr. Radanovich, I am happy he is here 
today, Sacramento was the lifeblood of the entire Northern 
California region and entire Central Valley.
    Now, what kind of protection do we need? You asked for the 
Auburn Dam. Mr. Farr said it would never be built. Two years 
ago Mr. Herger and you supported the Auburn Dam. We were very 
vigorous in our efforts to fight for the Auburn Dam.
    We lost on a twenty-eight to fourteen vote, and we worked 
that bill for probably 3 months, and I have to tell you, and 
you know this, and I never question my colleagues motives, but 
of the twenty-eight members that voted with us to move the bill 
out of Committee, I would say a third to half of them said this 
is a courtesy vote. When it gets to the floor of the House, 
they were going to vote against this bill.
    I have to also tell you this isn't people in Sacramento 
that oppose this legislation. The mayor supported it. SAFCA 
supported it, and the entire county board of supervisors 
supported it.
    What you have is opposition from the national environmental 
group, but you have opposition from the major taxpayer groups 
as well.
    So the issue really isn't whether we have the Auburn Dam or 
a level of flood protection that is adequate for Sacramento, it 
is whether you have an adequate level of flood protection or 
nothing. This is what we are talking about here.
    You talked about the planned transfer--I hope you give me a 
little more time since this is my legislation.
    I have done a CRS land transfer. If you move a railroad 
right-of-way, that takes anywhere from 3 to 5 years because 
surveying has to be done, the whole issue of evaluation has to 
be done.
    We have right now three hundred and eighty million dollars 
invested in the Auburn Dam site. Three hundred and eighty 
million dollars. Who is going to pay those costs----
    Mr. Doolittle. We have got to have the audience to restrain 
themselves.
    Mr. Matsui. Is Placer County going to pay for it? State of 
California? Is the Federal Government going to seek 
reimbursement?
    Surveying has to be done. We are talking probably about 
fifteen years, ten to fifteen years before that can be 
transferred, if you use a normal legislative process. You can't 
put this on an appropriations bill.
    What we are talking about here is nothing versus adequate 
flood control protection. Right now we don't have adequate 
flood control protection.
    What does my legislation do? It would basically deal with 
the modification of Folsom Dam, and in addition to that, as you 
know, it would strengthen and raise the levees, not just in 
Sacramento but for sixty-six miles. We want to provide adequate 
protection for the downstream interests as well.
    I know you are going to raise today the whole issue of the 
Folsom Dam Road and obviously whether or not there is going to 
be enough water while this construction is going on.
    My legislation allows a modification of the stepped release 
plan, which essentially would allow Mr. Countryman's plan, who 
you will be hearing from later this morning, to be part of our 
legislative process as long as the cost is about the same and 
the benefits are about the same.
    Mr. Countryman's plan will shorten time of construction and 
also mitigate some of the concerns that you have, legitimate 
concerns like whether or not Folsom Dam Road will be closed, 
and some of these other issues as well.
    What we are talking about here, Mr. Chairman, is an issue 
of whether or not we want to double the level of protection 
from seventy-seven years to a hundred and sixty years.
    Now, let me talk because you raised this issue a number of 
times, the whole issue of levees. Right now we have a hundred-
and-fifteen-thousand cubic feet per second that can go through 
the American River.
    Our bill would put it so it could go, in times of stress, 
up to a hundred-eighty-five-thousand cubic feet per second, but 
a hundred-forty-five-thousand cubic feet per second.
    Take a look at this chart that is prepared. This is a Corps 
of Engineers chart--in New Orleans we are talking about one-
point-two-five-million cubic feet per second.
    Mr. Herger went before Mr. Fazio's committee in 1993 and 
sought a level of protection in modifying his levee system.
    To get to and all the way down to the end here you have a 
hundred-fifteen-thousand cubic feet. We want to get to a 
maximum one eighty-five under my plan.
    And so we are not talking really about an issue of safety. 
It is really interesting because what I find is that you become 
an environmentalist. You really don't believe in the levee 
system, but all of Northern California, including the Central 
Valley, is built on levees.
    Maybe a hundred and fifty years ago we wouldn't have built 
the floodplain, but we have to do something about it. We can't 
let this situation go unmet.
    In conclusion, Mr. Chairman, I might just want to say in 
terms of downstream issue, the Corps will take care of that. 
The Corps has been building levees for two hundred years. The 
Corps will testify they can do this safely. They have to do 
more studies and more technical information has to be given. No 
reason to hold this up at this particular time.
    Let me just say the January 1997 flood that happened in 
Yuba City and hit the Feather River, if that flood were seventy 
miles south, that would have hit Sacramento at a hundred-
seventy-five-thousand cubic feet per second. That would have 
been the earthquake of 1906. Seventy miles would have created 
that position for all of Northern California. Instead of 
testifying today, we would still be digging ourselves out.
    We are talking about public safety. We are talking about 
concerns of the people of Northern California. Mr. Chairman, I 
just hope that you and your members of the Committee and the 
Congress as a whole, the House and Senate, will look upon this 
as an issue that is for all Northern California and not just 
for some regional issue. This is too serious to handle on a 
regional basis. Thank you.
    [The prepared statement of Mr. Matsui follows:]

 Statement of Hon. Robert T. Matsui, a Representative in Congress from 
                        the State of California

    Thank you for this opportunity to testify regarding 
Sacramento flood control.
    I think all of us here are well aware of the perilous 
situation Sacramento finds itself in as a result of 
insufficient flood protection. I cannot emphasize enough how 
inadequate our 77-year level of flood protection truly is. It 
means that Sacramento has greater than a 1 in 3 chance of 
flooding every 30 years. In real terms, a person born in 
Sacramento, who lives the normal life span of an average 
American, is statistically guaranteed to see a catastrophic 
flood event.
    In a study completed by the Army Corps of Engineers, 
Sacramento was found to have less flood protection than any 
other metropolitan area. Omaha, Tacoma, Kansas City, and St. 
Louis all have at least 500 year protection--yet we are left 
with protection of only 77-years. To make matters worse, 
beginning in July the annual flood insurance rates that my 
constituents pay for a $100,000 premium will increase 
approximately $280 per year to almost $600.
    What we all need to understand is that a flood would 
devastate not only the Sacramento flood plain, but the entire 
region. If Sacramento flooded, more than half-a-million people 
and $37 billion in property would be at risk. In a catastrophic 
flood, this very building would be under water. Clearly, a 
flood would shatter not only Sacramento, but as the center of 
economic activity in Northern California, the surrounding 
counties and the entire State of California.
    Given the facts, how can we not work toward a realistic 
solution that would provide the most flood protection possible 
now? The centerpiece of the plan I support would authorize 
modifications to Folsom Dam and raise and strengthen levees 
along the American River. This would double our level of 
protection from 77 to 160 years. I recognize that 160 year 
protection is not enough and want to secure at least 200 year 
protection for our community--but I will not stand by hoping 
that the inevitable floods will not come while we wait for 
Auburn Dam to be built. I, along with Congressmen Fazio, 
Doolittle and Pombo, fought for Auburn Dam in 1996 and it 
failed before it even left Subcommittee by a vote of 35 to 28. 
It wasn't even close. Auburn Dam suffered a similar fate in 
1992 when it was defeated nearly two to one on the floor of the 
House of Representatives. I still believe Auburn Dam is the 
only flood control solution to solve our problems, but the 
political and budgetary considerations that defeated Auburn Dam 
in previous years still exist today. I will not abandon my 
constituents and leave them with dangerously low levels of 
flood protection while we wait 20, 30, 40 years or more until a 
means of building Auburn Dam is found. Everybody knows the 
Congress is not going to consider Auburn Dam this year or for 
many years to come. I cannot--and will not--stand by and wait 
while my constituents flood.
    There are those who falsely argue that raising levees will 
somehow put Sacramento at greater risk. If you look at the 
chart, you will note that the proposed levee design of 180,000 
cfs is nowhere near the levee design capacity of other major 
metropolitan areas. This proposal, like any other flood control 
plan, has undergone the required studies and technical analysis 
needed before the Corps will allow a project to be authorized. 
That is why the feasibility of this project is without question 
and also why this project has the strong support of those 
officials responsible for making this decision including--
President Clinton, Senator Feinstein, Senator Boxer, Mayor Joe 
Serna, the Sacramento City Council and the Sacramento Area 
Flood Control Agency.
    I also want to clear up any misunderstandings concerning 
the objective flood water releases of this proposal. Under this 
proposal, the maximum objective release under flood conditions 
would increase from the current level of 115,000 cfs to no more 
than 145,000 cfs. A release of 180,000 cfs is used only in case 
of emergency--when evacuation procedures are merited--and it is 
important to recognize that our current emergency release is 
160,000 cfs.
    It appears that opponents of this plan believe that if the 
levees are not strengthened, the water will not come. Make no 
mistake, once Folsom Reservoir is full, Dam operators will send 
high flows down the river regardless of the designed levee 
capacity. During the record storm of 1986, Folsom Dam operators 
were forced to release 130,000 cfs flows, despite the fact that 
such releases exceeded the designed capacity of 115,000 cfs. 
Clearly, it would be foolish not to raise levees given the 
opportunity.
    I would like to close with a very sobering thought. In 
1997, winter storms ravaged Northern California communities. 
Two weeks ago, the Army Corps of Engineers reported that if the 
worst portion of the storm, located just 70 miles north of 
Sacramento, had hit Sacramento, not only would our current 
flood control system have failed, but modifications to Folsom 
Dam only would have failed as well. The Corps also noted that 
American River flows would have reached 175,000 cfs.
    The flood waters will come. The choice is simple, we can 
either implement a plan to control floods we know are likely or 
we can ignore this opportunity to secure 160 year protection. I 
will not compromise on public safety and challenge anyone who 
would ask for less.

    Mr. Doolittle. Thank you. I recognize that--let me just--
ladies and gentlemen, we have a lengthy hearing today, and in 
order to complete the business, we are going to have to 
minimize--in fact, the demonstrations are just inappropriate 
from either side. I would ask that they not occur.
    I would like to tell you that anybody who wishes to submit 
testimony to the Committee, we would be eager to have it, and 
if you will contact our clerk or one of the Committee staff, we 
will receive your testimony and include it in the record.
    This hearing, I think, will be very informational, but 
there are far too many people to accommodate all of those who 
wanted to testify. We did the best we could under the 
circumstances.
    I would now like to recognize the gentleman from our 
neighboring congressional district, Mr. Fazio, for his 
testimony.

STATEMENT OF HON. VIC FAZIO, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Fazio. Thank you, John. Let me express the appreciation 
of all of us to you and your Subcommittee to provide 
opportunities for a variety of points of view to be expressed.
    I hope this won't be a hearing that turns into competing 
applause meters because frankly, I will stipulate to the 
passion and commitment that both you and Congressman Matsui 
feel about your contrasting positions. It is held, and very 
sincerely held, and I think the audience is probably equally 
divided and equally committed.
    What we need in this community is a lot more light and a 
lot less heat, frankly.
    What I am hoping this hearing will do, once everybody gets 
their frustrations out, is start the process of getting 
consensus.
    I think we have all learned on almost any issue that 
affects a region, if you are not together, you don't get 
anything. You don't get it in Sacramento, and you certainly 
don't get it in Washington.
    It strikes me that in 1986 you and I, John, and a number of 
other members sat right in this room. We sat on these tiered 
podiums listening to the Corps of Engineers as they described 
what happened in the 1986 flood.
    You were a state senator then. There were a number of 
representatives of the legislature and the Congress, and we had 
what was the first hearing devoted to determining what we would 
do as a result of the clear threat that that winter rain 
produced to the region.
    The Corps of Engineers went to work and produced a number 
of proposals, one of which was brought to the Congress in the 
early nineties. I think you remember well the frustration Bob 
and I felt at that time.
    We had what was derided as a flow-through dam, which was 
deemed inadequate for purposes of people in the Placer and El 
Dorado Counties' perspective, but it did provide flood 
protection for Sacramento, and it would have maximized water in 
Folsom Dam, so we could have provided it more for the region 
and for the state.
    That alliance of opposition that you involved yourself in, 
along with environmental groups, provided an inadequate number 
of votes for us to pass that proposal, but at the same time, 
out of those 1986 hearings did come forward a very positive 
approach to levee reconstruction on the Sacramento River. While 
we tend to focus on what we haven't gotten done, I think we can 
all take pride on the work that was done to shore up those 
levees. While we haven't finished it, I think we are well on 
our way of doing it. I think that is one of the successes we 
obtained because we worked together on something that was less 
controversial than how we dam the American River south of 
Folsom Dam.
    But that continues to be the unaccomplished task, the 
things that bring us together this morning.
    I think everyone on the Committee knows that it has been my 
history in Congress to be involved in water issues. I have 
served for nineteen years on the Appropriations Subcommittee 
that deals with the issues of the Bureau and the Corps and 
flooding and water supply and everything else that some people 
like to deride as wasteful pork barrel spending.
    Of course, unless it is in your district when it takes on 
the term ``infrastructure'' and we are all for it.
    I have supported the LACDA project in Los Angeles, the city 
of Stockton's efforts. I have worked with Wally Herger in Yuba 
and Sutter Counties, even the permanent pumps in Placer County 
in your district, Mr. Chairman, because I thought it was 
important for us to work together for anything that would 
benefit any part of our state that could emerge from consensus.
    And that is why when Bob Matsui urged me to support him and 
you in the position you took in the last Congress to build the 
Auburn Dam, at least a version of it, it was similar to that 
authorized years ago through the efforts of Ms. Johnson, I 
agreed to do it because I felt that consensus was required.
    We were unsuccessful. We did not get the votes in 
committee, and I think it is fair to say that some we did get 
in Committee would not have been there on the floor, as Bob 
said. Some of us weathered severe criticism for that.
    I find it ironic in my impending retirement I agree with 
you on many things, except Auburn Dam, and I discovered 
subsequently in conversations with these people, half of them 
opposed Auburn and half of them supported Auburn.
    They all concluded they didn't agree with me but I have 
worked to try to find common ground to try to find a way to 
give Sacramento more flood protection because we all agree we 
need it.
    What we discovered after the floods of 1986 made it very 
clear we simply don't have anywhere near the kind of protection 
we need.
    But also I think there will be legitimate needs in your 
region for additional water supply. There has to be some way to 
bring about a further commitment to the people of Placer, and 
to some degree, El Dorado and other parts of Sacramento County 
that have counted on water supply.
    But I think we all have reached a conclusion that maybe the 
Federal Government is not going to take responsibility, as it 
did in all those communities, for the level of protection we 
deserve and need in this area. I regret that fact, but I find 
it hard to refute.
    We don't have an ethic in Congress today that allows you to 
build projects on faith and then worry about how they get paid 
for later. That was the ethic in this country well into the 
seventies.
    Ronald Reagan was frankly proud of the fact that, on behalf 
of many taxpayer organizations, we did away with building 
projects, many by the Bureau, in advance of knowing how we 
would pay for them through water supply hookups and irrigation 
districts coming together.
    New Melones was struggling, until very recently, to find a 
home for all the water it provided. So more and more our 
projects are based on flood protection, and yet I find many of 
our colleagues would rather turn their back on our community 
than fight alongside us.
    They have their flood protection projects. They would 
rather assume the risks on behalf of Federal taxpayers or FEMA 
because they don't want to stand up to the taxpayer groups and 
environmental groups that decided the Auburn Dam was first 
going to be built.
    I don't think there is any way in our history during the 
time any of us are going to serve that that project can be 
provided for at the Federal level.
    And as I remember B.T. Collins' efforts here with a 
Republican legislature and Republican Governor. I am willing to 
let that issue be resolved at the state level when a Federal 
Government won't take responsibility.
    As I struggle with the Cal-Fed process, I know you just had 
hearings of that in Washington, and in my conversations with 
Lester Snow and other statewide water agencies, we will hear 
from some of them this morning, when they talk about water 
supply and they move away from underground storage and aquifer.
    But if any surface supply is to be part of this statewide 
agreement on water, I hear little, if any, reference to Auburn, 
but intellectually I can't disagree that perhaps the state is 
the cockpit where any action should occur.
    It seems to me as we think about what the Federal 
responsibility ought to be, we ought to find consensus once 
again, the way we attempted to in the last Congress. And that 
is why I support what Bob Matsui is proposing. That is why I 
think what Bob is saying is let's get the best we can get. 
Let's reop Folsom.
    And I am willing to be flexible, as I believe you are, on 
how that is done, how that is designed, but also let's 
strengthen and shore up the levees on the lower American to 
guarantee the people living adjacent to it get the protection 
they need. That is the best we can do in our lifetime. It may 
be all the Federal Government ever does.
    We will work together on the common elements we agreed on 
in the last Congress--we will try to get the additional 
funding. The President's funding doesn't do it--I think we need 
to go beyond that. We need to find a way to resolve those 
issues that make this more complex.
    And I will be very straightforward about my concerns about 
Yolo County. I think there are problems with the higher flows 
down the American River bypass. All of that has to be included 
in whatever fix is authorized. We can't export Sacramento's 
problems to Yolo County. We all know that.
    We are facing a tremendous bill statewide for flood 
protection. In Richard's district tremendous investment has to 
be made on levees. In my area to the north that I share with 
Wally Herger, additional investments have to be made. George's 
as well.
    We are not in a position to have funds spent on things we 
can't all agree on, whether it be in a statewide bond act or in 
an enactment in Congress. There has to have the broadest 
support from our entire delegation.
    We have to concentrate on those things we can agree on 
because we will be fortunate to get them, let alone the things 
we remain divided on.
    I would conclude simply by saying to you, Mr. Chairman, we 
worked together in the past, and we didn't succeed. We now 
ought to work together again and succeed, however modestly, in 
giving the Sacramento region for our lifetime, for our tenure 
in public service, the best flood protection we can, leaving 
for others, future generations, the continuing debate about 
values and priorities, which I think are legitimate and 
important to hold.
    We can argue about white water versus flood protection and 
storage for Delta water quality, for Los Angeles or for whoever 
can make the best case. We can argue about it at a state level 
and find out if it is part of the package that goes before the 
voters.
    But now, at the Federal level, let's do what we can do to 
move the ball a little bit further down the road to a hundred-
and-sixty-year protection, not two hundred, not the four 
hundred we could have had in 1992 when we would have built the 
fourth largest dam in the country, but something better than 
when we came.
    I know this is not easy for anybody to compromise on. It 
wasn't easy when we supported Auburn, and I know it has not 
easy for you, but that is what leadership is about, and I hope 
that we can all step up to the challenge and work, once again, 
to provide that kind of leadership for the community, 
explaining to our constituents why we must do it and agreeing 
together on compromises that they expect us to make. Like it or 
not that is our job. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fazio follows:]

  Statement of Hon. Vic Fazio, a Representative in Congress from the 
                          State of California

    I appreciate the opportunity to testify. Flood protection 
is a topic of enormous importance to the people of Sacramento 
and its surrounding counties.
    For many years, I have worked with elected officials 
throughout the Sacramento area on the problems that confront 
us, and we have developed strategies that assist the people of 
this area in improving the quality of life.
    But on one of the most important issues--flood protection 
for Sacramento--we have come up short and have made little 
progress in nearly a decade.
    I certainly have the credentials to comment on this issue 
and the controversy surrounding it for many reasons, chief 
among them that since I'm retiring I don't have to worry about 
the political consequences of what I say.
    But perhaps more importantly, I think I have the 
credentials of support for flood control. As a member of the 
Energy and Water Development Subcommittee of the Appropriations 
Committee for some 18 years, I have taken a back seat to no one 
in support of California flood control projects. In fact, some 
have accused me of never having met a dam or a levee I didn't 
like.
    That's because I've always recognized the importance of 
these projects not to just the local economies here in 
California and around the country, but to the well-being of the 
national economy. I believe that keeping our cities safe from 
natural disasters, as well as ensuring that our ports and 
waterways are maintained and operating optimally, is well worth 
the investment.
    It's often been a fight with those who portray investments 
in infrastructure as wasteful spending or pork. And it's a 
fight we are continuing to wage each year with fewer and fewer 
supporters who recognize the value of these projects.
    Here in California, my support for projects has come 
without regard for partisanship. I've supported the Santa Ana 
project in Orange County, the LACDA project in Los Angeles 
County, the City of Stockton's project, flood control projects 
benefiting Yuba County in Wally Herger's district and placement 
of permanent pumps in Placer County in the chairman's own 
district. I've not just supported these projects passively, but 
I have pushed actively for funding that would expedite work on 
them.
    So my credentials are solid.
    One of the common factors of those successful projects was 
the ability of disparate local groups and local officials with 
different views to work through issues and adopt a common 
strategy.
    That's a methodology I've tried to support locally. I've 
supported the strategies developed by our local officials, and 
I worked vigorously in the House in both 1992 and 1996 to 
authorize Auburn Dam. The simple fact is, we were defeated.
    I would remind the chairman that he opposed our effort in 
1992 on the floor of the House when we fought for a flood 
control dam based on studies developed after the disastrous 
floods of 1986. In hindsight, 1992 was the best chance we had 
to procure the Federal funding we needed. The cost-share on 
Auburn Dam at that time would have had the Federal Government 
paying for 75 percent of the costs.
    In 1996, I weathered severe criticism from 
environmentalists and others to support a multi-purpose Auburn 
Dam in conjunction with our local strategy, but we were 
defeated in the Transportation and Infrastructure Committee.
    Perhaps the Chairman knows something I don't about a change 
in heart by all the Members of that committee who voted against 
us in 1996. No matter how much we may wish it, that simple fact 
we can't win--won't go away.
    What I do know is that seven years after our initial 
efforts to bring significant flood protection to the City of 
Sacramento, we are not only no further along, in fact, we 
appear to be recreating the same errors we made in the past by 
refusing to reach consensus and pursue a common strategy.
    I contrast that with the effort we have made on the 
Sacramento River where the 5-phase project that was indicated 
by the same 1986 flooding is nearing completion. That project 
has not moved as quickly as I would have liked at times, but by 
working from year to year, first on the studies and then on the 
construction increments, we have moved forward and are within 
sight of that project's completion.
    I can't say we are wholly without progress on the American 
River. Nearly $10 million was provided last year to move 
forward on the ``common elements'' component of that project.
    But the bottom line is: we can't get our act together. And 
until we do, we merely create problems for ourselves in a time 
of tightening budgets and a changing Washington mentality about 
the Federal responsibility to states for expensive projects.
    I've served on my subcommittee for 18 years now, and we've 
met the needs of communities throughout the United States while 
facing the realities of budgets in both Republican and 
Democratic Administrations, and in both Democratic-controlled 
and Republican-controlled Congresses.
    We cannot ignore such budget realities. At my subcommittee 
this year, we face more than $1 billion in requests above the 
level we funded just last year. All of these projects are 
authorized by law. Now, Bob Matsui and I are asking that the 
Transportation and lnfrastructure Committee include the flood 
control project endorsed by SAFCA and the City Council in a new 
Water Resources Development Act.
    At best, our project will then compete against the demand 
from projects and the needs of communities across the country 
embodied in the new authorization. To lose this authorization 
this year will only delay further the needed improvements that 
won't be completed for a decade even under ideal circumstances. 
By then, I suspect even the chairman will have announced 
retirement. But if he is successful in opposition, his legacy 
will leave the City of Sacramento without adequate flood 
protection.
    I know that some arguments may be made today about the 
damage of increased flows, and there may be other technical 
arguments raised about the operation of Folsom Dam. First, I 
believe those arguments are without merit: they are 
contradicted in large part by the professionals from the Corps 
of Engineers, and they are contradicted by the provisions of 
the Matsui bill requiring that this project be consistent with 
the Sacramento River Flood Control Project.
    But second and more important is whether our intention is 
to work the process to resolve these issues and others that 
will surely arise over the life of this project, or whether we 
are just using them to create additional obstacles.
    Certainly, we do not want changes in the American River 
levee system to undermine what we've accomplished in West 
Sacramento, or to encroach on the effectiveness and function of 
the Yolo Bypass. But I sit here as the Representative of the 
people of those areas, and I would not support a project that 
does harm to my constituents.
    The officials from West Sacramento and Yolo County know 
that too, and they are committed to working through the process 
to meet their needs while providing flood protection to their 
neighbors in Sacramento.
    In closing, I know that I will not be in office as these 
events play out. Others will have to step up in the years ahead 
to lead the movement to reach consensus in order to determine 
our solutions and to acquire the funding in an increasingly 
hostile environment.
    During my career, I have done my best to be a conciliator 
and to find middle ground. And I've been willing to take my 
share of slings and arrows as a result. I believe that's what 
leadership is all about.
    We need leadership to help solve the flood threat to the 
City of Sacramento. We need leadership to keep our region and 
our nation strong and prosperous and to keep our citizens safe 
from the threat of natural disasters. Only leadership will get 
the job done.

    Mr. Doolittle. Thank you. Bob, let me ask you: Your 
proposal encompasses a couple of approaches to Folsom. I am not 
clear which one you are advancing.
    Can you shed some light on whether we are talking about the 
Corps proposal or the Countryman proposal?
    Mr. Matsui. As you know, Mr. Chairman, our proposal is a 
stepped release proposal. That is where the SIR has been 
completed on, but our proposal does allow for Mr. Countryman's 
proposal as well.
    As I mentioned the four criteria: As long as the cost is 
the same, benefits comparable, the certainty about if the 
project can be completed at the same or sooner time that is in 
our legislation, so I believe the Countryman legislation or the 
Countryman proposal will be the one the Corps will market on, 
certainly if we all work together in terms of mitigation of 
Folsom Dam Road and the water issue in Placer County.
    All these things need to be brought in the discussion, but 
certainly we want to mitigate damage to any other region of the 
Northern California area as much as possible, and I believe Mr. 
Countryman's proposal is the most logical one to do that.
    Mr. Doolittle. Well, the reason I ask about that is it has 
an effect on the level of flood protection we get, and sounds 
like I hear you sympathetic to the Countryman proposal.
    But the Countryman proposal, as I understand it, provides a 
level of protection that is a hundred and forty-five years, not 
the hundred and sixty that would be the full Corps proposal 
with auxiliary spillways; is that your understanding?
    Mr. Matsui. Instead of building new outlets in the 
auxiliary spillway, a level of protection, whether that is a 
hundred forty-five or a hundred and fifty years, I couldn't 
tell you at this time because we need to do more work on that. 
There will be a reduction in the level of protection.
    It certainly will be much more than the seventy-seven, or 
if you just do the modifications alone without the levees, 
which would be about a hundred-and-five-year protection.
    Mr. Doolittle. So I think what we are really talking about, 
though, is not the hundred-and-sixty-year protection, which I 
believe is inadequate, but the hundred-and-forty-five year or 
whatever studies determined the level of protection to be.
    Since the studies haven't been done, it is just an estimate 
at this point, you would acknowledge the problem with 
downstream communities, and I think you made it clear you don't 
believe we ought to solve Sacramento's problems at the expense 
of Yolo County and downstream communities; right?
    Mr. Fazio. I have worked very hard to get west Sacramento 
four-hundred-year protection. They are in a bathtub.
    I am concerned with people north of the city and the area 
protecting the city who could have flooding as water backs up 
the Sacramento.
    We don't know whether the flows down the river would be 
potential problems. Those are rural levees. I think all of us, 
particularly this group, know that rural levees are harder to 
maintain and rebuild and increase, given the assessed valuation 
behind them. It is one of the issues we struggled with, the 
levee fix we enacted in the eighties.
    We have to keep in mind whatever protection needs to be 
provided for the river levees and the bypass, what additional 
water is delivered down the levee, that has to be factored into 
whatever legislation we can all agree to.
    Mr. Doolittle. I think, as you indicated in your answer, I 
am glad you acknowledge the impact even on the up-stream 
communities, but the fact of the matter is that impact really 
is unclear at this point both upstream and downstream what it 
might be.
    Do you agree with that?
    Mr. Fazio. We need to understand the full impact. We can 
all assume with our rudimentary knowledge of this problem that 
has to be studied, determined, and some sort of fix needs to be 
proposed and funded as part of the package. We are going to be 
spending 4, 5, 6 years preparing to do this. I think that is 
ample time to assure the Yolo County that we will factor their 
concerns in.
    Mr. Doolittle. Thank you. I recognize Mr. Farr for his 
questions.
    Mr. Farr. Thank you, Mr. Chairman. I just have a question 
for Mr. Matsui.
    In your bill where you authorize a study of the stepped 
release program and the new river outlets below, enlarging the 
existing river outlets, do you also include the--as I 
understand it would require thirteen miles of American River 
levee raising and about five point eight miles of levee erosion 
protection, and in that bill also includes the new levees and 
flood walls----
    Mr. Matsui. All that is in the----
    Mr. Farr. [continuing] modification to the bridges, 
including the pump and drainage facilities for the cities would 
need.
    The study includes the entire package of all the things 
that would have to be done to reach--and then with that you 
reach the hundred, and is it--I am a little bit confused. You 
reach the hundred and eighty thousand cubic feet per second 
level.
    Mr. Matsui. Under our proposal we can do all that you have 
stated, including Mr. Countryman's proposal that Mr. Doolittle 
agreed to as an option.
    Other than the stepped release plan, in addition--the Corps 
will be doing additional work and studies and analysis of the 
downstream effect on about sixty-six miles of levees, obviously 
the Yolo Bypass, and throughout the entire Northern California 
region, and so this will allow all of that to occur.
    Mr. Farr. I am going to be very interested in understanding 
why anybody would be opposed to this. Every other place in 
California we are dealing with flood problems. We are dealing 
with levees. Santa Cruz or the Pajaro River in Watsonville.
    I mean, even in the coastal communities that are not part 
of the Central Valley Water Project are trying to deal with 
flood protection. It all deals were levee improvements, and 
yours is a study and an authorization that once the study is 
completed, pending appropriations to do the necessary work----
    Mr. Matsui. Exactly. It would complete the entire project, 
pending the study obviously, but you are absolutely right.
    As I said in my opening remarks, the entire region 
basically is supported by levee systems. Obviously you want 
dams and levees. New Orleans there are dams and levees. In St. 
Louis there are dams and levees.
    It is a combination of both, you want the highest level of 
protection you can get, what is politically and what is 
possible.
    And as I said, I think Mr. Fazio stated as well, that we 
did support the Auburn Dam 2 years ago and we made a vigorous 
effort for it. We were not successful in that effort. Now we 
need to get the highest level of protection that is practical.
    Mr. Fazio. Sam, if I could quibble for a moment, there are 
a lot of communities that are looking for meander belts down in 
the San Joaquin and areas where the kind of adequate levees 
that we would need are unaffordable in this area with the 
assessed valuation as high as it is, with the urbanization as 
high to the levees as possible.
    We have no alternative but to do levees. That is the only 
solution we can come to, although increasingly we will be 
turning away from them in some rural areas.
    Mr. Farr. Mr. Chairman, I think what is overlooked in 
Sacramento, and people that don't live here don't understand 
it, but this city is really the key critical point, not only in 
north/south traffic.
    I mean, everything that goes north essentially goes right 
through here, historically it always was. That is why the city 
is here. It is probably the most vital transition point in 
California.
    There is no other region that is so dependent on flow of 
traffic and people, that is so dependent also on the elements 
of big rivers running through it, both the Sacramento and the 
American.
    I really support your legislation, and I hope we can get 
testimony today to prove that it is essential.
    Mr. Doolittle. Mr. Pombo is recognized for his questions.
    Mr. Pombo. Thank you, Mr. Chairman. As we move ahead in 
trying to develop some kind of increased flood protection for 
this region, I look at the both of you and you guys have both 
spent over twenty years trying to build alliances and work to 
find the best solution that you can.
    And when I look at what is in front of us at this point, I 
think you both have to admit that there is no consensus that 
this is the way to proceed, that there is further work that 
needs to be done.
    And in getting there from where we are right now, I don't 
think any one of us wants to adopt legislation that is 
shortsighted in terms of let's take care of this one specific 
problem at the expense of everyone else and you both have 
talked about that in your testimony here this morning.
    In my district I have concerns about the impact of this 
particular plan on the rest of my district. I have people who 
live along the American River who have deep concerns about what 
this would mean. I have people that are out in the Delta that 
are looking at the Cal-Fed plan that you are both very well 
aware of and combining this particular proposal with the Cal-
Fed plan, they don't know what it means to them.
    They don't know if that means their ability to continue to 
farm and produce out in the Delta is going to continue. They 
don't know if all of a sudden they become a lower priority 
because of this.
    And I guess the point I would like to make to both of you 
is that we all know the only way this is going to proceed and 
the only way we are going to get this is if we develop a flood 
control plan that everybody can sign off on and everybody, on a 
much larger scale than just Sacramento, but everybody in a much 
larger scale can look at and say this takes care of our flood 
control problems that we have. This takes care of surface water 
problems that we have, and a stepped plan that says this is 
where we are going to start. This is the goal. This is where we 
are going to end up, and we are not going to do anything 
between here and our goal that is going to stop us from getting 
there.
    There is a lot of concerns about this, and I think, as we 
look at this, we really do need to sit down and come to some 
kind of consensus. That is just not there right now. I think we 
have a long ways to go before we get there, Bob.
    Mr. Matsui. Thank you. Richard, let me say this: I think 
the consensus would be very, very helpful. Certainly I would 
love to see it go back to the consensus.
    The problem is if the consensus requires the Auburn Dam, 
which I support, Mr. Fazio supports, you support, Mr. Doolittle 
supports. Our colleagues will not support the Auburn Dam.
    And if there is all of that, somebody has to explain to me 
how do we double our level of protection, which is--I don't 
believe is adequate, but it will get us by a hundred forty, a 
hundred sixty years.
    If somebody can come up with--if John or you or anybody 
else would introduce a bill for the Auburn Dam today, I will 
support it. But we obviously know it is not going to happen, 
and as a result of that, tell me how we get a consensus if we 
take the Auburn Dam out of it.
    The SAFCA, the Corps of Engineers, the Reclamation Board, 
city of West Sacramento, Reclamation District one thousand nine 
hundred sixty-eight, city and county of Sacramento, they signed 
off on a statement that said the Corps represented the lower 
American River project and determine the impact each plan will 
have on the Yolo Bypass, both upstream and downstream of the 
lower American River.
    If this shows that the levee, by the proposed alternative 
mitigation plan to restore the level of protection, the 
hydraulic will include, but may not, levees' construction of 
additional bypass capabilities by widening, setting back 
levees, or an accommodation of the above. We want to take 
into----
    Mr. Pombo. Bob, what you just described is what everybody 
is afraid of. When you talk about mitigation downstreams, you 
are not talking about fixing their levees because the money is 
not there to support that.
    So what you are talking about is saying ``Well, if those 
levees blow out down there, we just--we are going to buy them 
out some day,'' or we will like what they are doing with the 
Cal-Fed process. We will retire those lands out of production, 
and that becomes the mitigation for it.
    Mr. Matsui. That is not true, Richard. We have a hundred 
and thirty-two million dollars in our bill, maybe more that 
will take care of the levee work. That means not only here but 
sixty-six miles beyond that. This is not only a study but also 
the construction and improving the levees all the way down 
where the water will flow from the American River down and out. 
We are talking about making sure we take care of those 
downstream communities.
    The Corps will not build a project that will leave that 
open. That is why that money is in there and in the 
authorization.
    Mr. Fazio. Richard, if I can comment?
    Your comment about the need for consensus is well taken, 
but it is also indicative of the thinking of your district. For 
example, I think it would be hard for you, reading some of the 
things you have already said, to accept any of the cross Delta 
facilities, alternative facilities coming out of the Cal-Fed. 
You fear the loss of farmland and have a number of concerns.
    When we went to people statewide in the eighties and asked 
them whether they would support an Auburn Dam as originally au-

thorized, the people south of you in Los Angeles and Southern 
California were particularly discouraging.
    Their view was ``Well, there is no conveyance. How do we 
get the water? Why would we want to support a project that is 
not going to allow us to take our share of the water?''
    And so you know, what we need here is to come to reality 
about what it is going to take to get out-of-area support, even 
in the state, for a project of this size.
    Auburn doesn't yield on an annual basis anywhere near as 
much as some of the other proposals that are in themselves 
controversial for surface water development, if any, it is 
going to be over whether it should be put on the ballot this 
fall.
    It will probably be one that yields farm or water, and at 
the same time is politically far less controversial, one would 
hope. We are in a box. That would be possible.
    For example, for Los Angeles to get excited about whatever 
increment of Auburn water would be available to them may be 
unacceptable to you. That is why we need a statewide fix.
    Mr. Pombo. You are absolutely right. We need a statewide 
fix, and I am afraid if we proceed in a manner that is designed 
to take care of one specific problem, not only will we not 
reach consensus among the Sacramento delegation, but our 
chances of getting support outside of this region diminish 
greatly.
    George is here, and George and I have our fights over water 
all the time because of where his district is versus where mine 
is, and I know my district is a little bit different because I 
have all the elements in California within my district but 
unless you develop a statewide plan that takes care of consumer 
flood control, that takes care of water availability, you are 
not going to be able to proceed with any of this.
    You are talking about spending several hundred thousand 
dollars on this one particular fix. Unless we look at this from 
a statewide basis, we are never going anywhere with this.
    Mr. Fazio. Let me argue: We can look at this from a 
statewide basis, from the statewide cost of flood insurance. We 
ought to do the best we can, and then let the state resolve the 
various issues about what it wants to do with its money.
    I think that is the responsible thing to do, and as I have 
already indicated, I think we have a pretty good understanding 
of what the state will or will not want to do vis-a-vis Auburn.
    But I can't intellectually argue that we should prevent it 
from being put on the table. That land shouldn't be an 
impediment from the state taking whatever action it wants to 
take. Let's not punt on protecting Sacramento to the extent we 
can where we have responsibility at the Federal level.
    That doesn't preclude some day down the road doing 
something else that might relate to water supply for the region 
or the state, but let's not leave the people of Sacramento 
hanging out there year after year wondering whether they are 
going to get inundated because we can't agree on what sort of 
water supply solution the state needs.
    I think that would be unfair. Let's take an incremental 
step here and now.
    Mr. Pombo. I don't think anybody is proposing that we punt 
at this point. The argument or the debate is what the best way 
to proceed is. It is--no one has come forward yet and said that 
we should punt.
    Mr. Fazio. If we can't reach agreement and we go back 
squabbling how we do levee fixes south of the American, we 
might be accused of punting because the Congress is not going 
to respond for another 2 years.
    Mr. Doolittle. Mr. Radanovich is recognized.
    Mr. Radanovich. Boy, I thought we had problems in Fresno. 
Thank you very much for the opportunity to come up and speak 
and testify or at least participate in this hearing.
    I do have a couple of questions and perhaps some 
observation as somewhat of an outsider, although water in 
California is tied intricately to the state.
    I represent the area of the picture up there of Yosemite 
and into the San Francisco Bay, but I got a new appreciation of 
the problems you are going through here in the Sacramento 
Valley and in this area in trying to solve the problem that is 
going to basically protect the lives of four or five hundred 
thousand people in the area.
    I have got some numbers here, and I am not so much a--I 
have been a supporter of the development of Auburn Dam for the 
sake of John Doolittle, who is my colleague, and other members 
of the delegation, but I think I have come to a new awareness 
how important it is as the final solution to the flooding 
problems in this basin.
    I am not sure of--although I very much in appreciation of 
your efforts, Bob, and your efforts, Vic, to do something. We 
have a problem out there that needs a solution.
    If my numbers are correct, though, I understand that Auburn 
Dam is projected to cost something in the area of eight hundred 
eighty-eight million dollars.
    With your stepped release program, correct me if I am 
wrong, Bob, is a total of five hundred twenty-eight million for 
the cost of the bill.
    Auburn Dam gets you a hundred-sixty-years protection at 
about 95 percent certainty. The stepped release plan gets you a 
140 to a 160 percent certainty, and the cost of doing that is 
five hundred twenty-eight million.
    What you get from the stepped release program, in addition 
to a little less certainty is unknown regional consequences or 
the price of fixing those levees you mentioned to the tune of 
three hundred million dollars on top of five hundred and 
twenty-eight as a means of protecting downstream users like 
Richard Pombo and Vic's area in West Sacramento in appreciation 
of the problems you are all going through or try to solve the 
problem.
    Unfortunately it looks like building a dam is the best 
solution.
    Is there any way the legislation you are offering can be at 
least dovetailed into what might be the event solution of 
building a dam?
    Mr. Matsui. Thank you, George. We attempted to look at 
that--John, Richard, Vic, and myself--and we all attempted to 
see if we can come up with something to move forward. We did 
that with the common elements that were passed in 1996, 
obviously only fifty-eight million dollars, but it was to 
preserve the option to build Auburn at the same time, do enough 
work on our levee system to get us over a hundred-year 
protection.
    Since new hydrology systems have been done with that fifty-
eight million dollars, we are now down to a hundred, then 
seventy-seven years. We can't seem to catch up.
    We have attempted several times to get a consensus. The 
problem with the premises of your question--and I appreciate 
the fact that you are here and you are looking at this issue--
is the fact that we have tried Auburn on the floor of the 
House, which we lost in a two to one, and most recently in 
1996, and we lost twenty-eight to thirty-five.
    Now, I agree with you that the highest level of protection 
to both reliability is a dam, the dam in Auburn, and I agree 
with you that a levee system does not anywhere near reach the 
level of protection that a dam would reach.
    Right now we have a reliability of 20 percent. We would 
double that with a 60 percent reliability if we have a hundred 
eighty thousand cubic feet per second going through the 
American River.
    We are trying to improve a very, very dangerous and bad 
situation for six hundred thousand people. If I were at least 
given some reasonable assurance we can build Auburn in the next 
5, 10, 7 years, I would say ``Well, maybe the community should 
wait and do something that is temporary.''
    But you know, as I said, we did a CRS study, a lot of work 
on this. We don't see Auburn Dam. You are not going to get it 
at the Federal level. You try to at the state of California.
    As I said, it is going to take years in order to figure out 
who is going to pay what cost and who is going to pay 
maintenance cost, who is going to pay for it statewide, bond 
issue, local community folks, two-thirds vote on a property 
tax. That is pretty tough for an entire region.
    Somebody has to give me assurance that Auburn Dam will be 
built. I agree with what John is saying, ultimately we are 
going to need a structure in Auburn to provide protection for 
Sacramento and the downstream communities as well.
    The problem is it is not going to happen, as Vic said, in 
our lifetime, and we can't wait.
    Mr. Radanovich. Thank you. And just closing up my comments 
is you are looking at a, you know, a plan, bottom line to 
protect about a half million people in this area.
    Those that object to the Auburn Dam or people recording 
this issue need to understand that this plan is only getting 
you 60 percent and you are going to end up spending just as 
much money you would on the Auburn Dam or any dam.
    Mr. Matsui. George, if I can comment on that?
    In my opening comments, right now we can get a hundred 
fifteen thousand cubic feet per second in a normal situation. 
On my bill we can get up to a hundred forty-five thousand cubic 
feet per second, a 100 percent reliability on that.
    We are talking worst case scenario, then it is at a 65 
percent reliability. That is under the worse scenario under our 
bill.
    And so when you and I say 60 percent, we are not talking 
under the normal situation where it is a hundred and twenty, 
hundred-thirty, hundred-thirty year occurrence.
    We are talking only if you get the worst case, hundred 
eighty-five thousand cubic feet per second going down that 
river it becomes a 60 percent reliability issue.
    Mr. Radanovich. Isn't the goal to send that up to two 
hundred fifty years?
    Mr. Matsui. New Orleans one point twenty-five million cubic 
feet per second. I can assure you it doesn't have more than a 
50, 60 percent reliability, maybe less than that. All dams, it 
is based on the probabilities you get. The higher level of flow 
you get as you reach the threshold you get less percentage of 
protection.
    Sixty percent is a number you use. What we are really 
talking about is a hundred forty-five cubic feet per second, 
which is a normal situation under emergency.
    Mr. Radanovich. But when you are protecting for floods, you 
use flood history totals, like with the hundred-fifty-year 
floods. Most of what the bureau or regulators recommend is 
anywhere between two-hundred to two-hundred-fifty-year floods 
out to be the goal with some degree of certainty.
    Mr. Matsui. That is what Herger, Fazio, Pombo wanted to do 
with the Auburn Dam. We don't see that in the foreseeable 
future. Right now we have a 30 percent under the current 
situation. Getting up to 60 percent would double that.
    Mr. Radanovich. I think what also needs to occur within 
this community is an acceptance that a dam in the future is a 
reality if you want to solve this problem.
    Mr. Fazio. Getting a hundred year protection is our 
immediate need. We are going to be seeing the Federal remapping 
process statewide. It is going to drive insurance rates for 
everyone.
    Maybe that will at some point help get the two-thirds vote 
requirement that is so difficult for us to attain in the short 
run to get over a hundred year protection, as Bob's bill will 
do, which is imperative for us.
    We are about to see on the 1st of July our current 
protection run out and flood insurance rates jump up. I would 
say one more thing to you, and Richard, I appreciate you being 
here today as Bob does.
    This year our Subcommittee was asked to provide a billion 
dollars more than the President's budget for water projects 
across the country. We are all aware of the reality that that 
is simply impossible to provide. We have had two El Nino years 
in a row. We have created a demand. We have to be practical 
with what we can accomplish for your districts, as well as 
ours.
    I am hoping Sam Farr will succeed me on the Appropriations 
Committee. If we really get lucky we will find him on this 
Subcommittee so we can keep working for California on a 
bipartisan basis.
    But we can't ask for things that are beyond anybody's 
ability to obtain, not only in the authorizing process but more 
importantly in the appropriating process or we are going to end 
up with way less than the hundred-year figure statewide and 
nationally.
    I am hoping we will be practical, realistic, and once again 
cooperative in the way we go about attacking this problem with 
the scarce resources we have.
    Mr. Radanovich. The numbers--in appreciation for all you 
are doing here, you all have a tough job, but we are spending 
about eight hundred million dollars to not solve or at least 
get closer to solving the problem when spending the same money 
to build the dam--it is just worthy of mentioning.
    Mr. Fazio. I wish it were as obvious to our colleagues.
    Mr. Doolittle. Let me ask both of you: Do you accept the 
figures of the Corps that the standard project flood protection 
for the American River floodplain is two-hundred-fifty-year 
event?
    Mr. Matsui. That I couldn't tell you, but I can tell you 
that is a concern. That is why I think we should have had the 
Auburn Dam because I would say that it is quite possible that a 
two-hundred-fifty-year event could occur in Northern 
California.
    Mr. Doolittle. That is what the Corps actually----
    Mr. Matsui. I am not disputing that.
    Mr. Doolittle. Do you dispute that, Vic?
    Mr. Fazio. I can't say I dispute it. It is an evolving 
situation. As we know, the last decade has produced a lot of 
data that contradicts what, certainly, the people who built 
Folsom Dam thought they were accomplishing.
    I think we ought not to err on the side of being cautious. 
I think we all understand to be cautious.
    Mr. Farr. Mr. Chairman, do you yield on that?
    Mr. Doolittle. I yield.
    Mr. Farr. You have to ask that question for the whole 
state. There is not many places in California that have that 
standard of two hundred fifty years.
    Mr. Doolittle. Let me reclaim my time on that.
    That is, in fact, what the Corps study said, that the 
largest storm that could reasonably be predicted to dower is a 
two-hundred-fifty-year event. We are for Auburn, but it is not 
going to be built in my lifetime, which Sacramento floods, 
which it will eventually do, could be this year, could be next 
year, could be the year after.
    If we have another warm storm off there that melts the snow 
pack, when that happens and the city does flood, and let me say 
I agree, you cannot paint too negative a picture of what will 
happen to our region certainly, but it will have an impact on 
the entire state when it floods.
    That is why, frankly, those of us that right there in the 
floodplain are concerned because we will be severely impacted 
because Sacramento, in addition to being a state capitol which 
is a flood region, and you will bring down on our heads an 
artificial depression like the Great Depression, only it will 
be in Sacramento.
    The rest of the country will be doing great, but we will 
have dire consequences when the city floods, which will happen 
eventually if we do not protect against the standard flood.
    Then, in your opinion, will we have an Auburn Dam?
    Mr. Matsui. I would hope, John, it wouldn't get to that 
point. Certainly let me say it wouldn't be Sacramento city or 
the county. It would be the entire region.
    Mr. Doolittle. I meant that it is not just the city and 
county.
    Mr. Matsui. That we get the level of protection that would 
get us by a hundred and forty-five, hundred fifty, hundred 
sixty year level of protection for Sacramento County, and 
obviously the entire floodplain area.
    Mr. Doolittle. I want you to tell me what happens when it 
floods.
    Mr. Matsui. And then we hope that beyond that that over the 
next twenty or so years that we can start working and continue 
to work, as we have been working, on making sure that 
eventually we get a dam up in Auburn because we need this level 
of protection.
    As this Northern California community grows, this is an 
incremental step that needs to be taken back in Washington, DC 
right now on getting the Auburn Dam. Maybe over time we will. 
It will take time.
    In the meantime, we can't let this region be open to a 
major catastrophic event.
    Mr. Doolittle. Let's say next year it is going to flood and 
we know that somehow now.
    When it does flood, at that point do you believe Auburn Dam 
will be built?
    Mr. Matsui. John, I think at that point we will be in such 
dire straights it will take us twenty years to get us out of 
where we are. People won't be thinking about Auburn Dam. They 
are going to be thinking how they are going to get by week to 
week, day to day, year to year.
    If this thing hits, it will be something we haven't seen 
before equivalent to the 1906 earthquake. We are not going to 
be thinking of floods. We are not going to be thinking of dams. 
We are going to be thinking of food.
    Mr. Doolittle. I am trying to get a yes or no.
    Mr. Fazio. In 1992 we had four-hundred-year protection, and 
we would have yielded a lot more water out of Folsom almost to 
the brim because we had the backup protection of the facility.
    We were prepared to build in Auburn. You didn't support it 
because you had another valid, from your perspective, priority, 
which you wanted to have a reservoir in Auburn. We have all had 
to make compromises. We have all had to live with the reality 
of that.
    You didn't choose to compromise then, and we could have 
been through this potentially without any concern for flood 
protection and two-hundred-year less level in Sacramento.
    What we are saying is ``Please, help us find a consensus,'' 
and we will then, I think, at least have done the best we can 
do given the circumstances at the turn of the millennium.
    Mr. Doolittle. Since you have brought this ancient history 
up twice now, let me just say that I am not the one who failed 
to compromise. You were the one who refused.
    You gave us a national recreation area. You gave us a dry 
dam, and I went to you and Bob both before that vote, indeed 
the morning of that vote, and said ``Please, let's work 
together.''
    I have always believed in the flood control, but you didn't 
concede to my request, so I want to set the record straight on 
that.
    Mr. Fazio. We can continue on this. I offered a number of 
amendments in the Rules Committee that were helpful to you, but 
you already made up your mind; you wanted an up or down vote on 
your Auburn Dam, which we gave you in the last Congress. I 
understand why you didn't want to compromise any further. Then 
I understand you wanted to get ultimately the vote you thought 
you deserved.
    We are back where we started from. That is why I am saying 
let's find common ground and finish, for this generation of 
elected officials, the jobs we have been given.
    Mr. Doolittle. When the city floods, do you believe we will 
then get an Auburn Dam?
    Let me pose the same question to you that I did to Bob.
    Mr. Fazio. I don't think it is going to be something any of 
us are going to be judged by, but I think we will be judged if 
we get a flood in a few years that exceeds the hundred-year 
level that we could have mitigated against and chose not to.
    Mr. Doolittle. Mr. Farr?
    Mr. Farr. Let me give you experience from my district. We 
are on the opposite side, not talking so much of Carmel Valley, 
Monterey, peninsula water. We don't have any--our question is: 
What do you do when you have a drought? The issue at that time 
was ``Let's build a dam.''
    The regions rejected the dam, and even though they have the 
most severe water rationing in the state of California and 
probably the highest priced water in California, just the 
opposite.
    Just because there is a disaster, whether it be a drought 
or flood, doesn't mean the taxpayers want to go and build on a 
river in California. Since the New Melones, that is not the way 
the world is going. It is now looking at offsite storage.
    The problem I think we have here, and I really appreciate 
both of my colleagues pointing out to those who are newer to 
Congress, that Congress has been there, done that, and when you 
first authorized the dam thirty-six years ago after the 1975 
earthquake, everything was abandoned on the site. No work has 
been done on the dam for the last twenty-three years.
    Congress refused to approve the dam in 1992 and again in 
1996. I don't think the dam is an option, and I appreciate the 
concern of the Chair, but if you can't have the dam, what do 
you do?
    Politics is the art of compromise. This is now discussing 
flood protection, levee protection. I assume you retrofitting 
of Folsom, and I presume that what this hearing gets down to is 
essentially the money to be committed for levee repair.
    Is that kind of where we are? Are you opposed to the Folsom 
retrofits?
    Mr. Doolittle. Direct your questions to our witnesses.
    Mr. Matsui. I tell you why, John, to--Sam, but to respond 
somewhat to John, the reason the Folsom reop is not an option, 
we can get a hundred-ten-year Countryman plan that you suggest. 
Maybe reached just a hundred years. The problem with the 
hydrology studies being done, we have had recent floods, heavy 
rainfall.
    Over the last 10 years there is been two, since 1986, two 
hydrology studies that keep dropping our level of protection.
    I am afraid if you do the reop of Folsom, we have heavy 
rainfalls with years in construction. All of a sudden we are 
going to be doing the same thing all over again. We can't 
afford to do this time and time again.
    What we have to do, our job, is get to a hundred fifty 
years, hundred sixty years, hundred forty-five, whatever that 
number is, and then work on a higher level of protection.
    You have a lot of interest. You have levees you need to 
have built. You have obvious water issues, recreation issues. 
Instead we spend all our time fighting, getting Sacramento 
County a level of protection that makes us feel like we have go 
to sleep at night right now for seventy-seven years. It is too 
dangerous.
    Mr. Doolittle. Will you yield?
    If we know the threat is a two hundred fifty year, whether 
we provide a hundred year protection and a hundred fifty year 
and by you both saying you are not going to ever see the dam 
which provides that level in our lifetime, you are both 
admitting we are going to flood, aren't you?
    Mr. Matsui. John, if I can answer?
    Like I said, the January 1997 flood put a hundred--would 
have put a hundred seventy-five thousand cubic feet per second 
through the American River. That would have been adequate under 
the bill I have.
    Under your proposal, or no proposal, we would have had that 
catastrophic flood. Not only is there a two-hundred-fifty-year 
occurrence, hundred-ten-year occurrence as well. We need to 
protect from seventy-seven years all the way up to----
    Mr. Doolittle. Assuming the levees held. But as you alluded 
to, there is a 40 percent chance the levees will fail under the 
circumstance even with the five hundred twenty million dollars 
we put into them.
    Mr. Matsui. If you hit the highest level of protection, if 
you get, let's say, the Countryman plan gives a hundred-forty-
five. You get to that level, yes, you may be at a sixty year, 
anything less than that the----
    Mr. Doolittle. The five largest storms of record--Folsom 
Dam was a two-hundred-fifty-year event dam when it was 
authorized, and before construction had even started, they 
dropped that figure down because the five largest storms of 
history happened before.
    And 1997 you mentioned, but next year it could be even 
worse. Well, our point is not to sit here and debate with each 
other, but these issues are important.
    If there are no further questions, we will thank both of 
you.
    And let me just ask: Is there objection to our colleagues 
joining us up here on the dais?
    Hearing none, then I will extend the invitation to both of 
you to come up here and join us in the questions that will be 
directed to other witnesses.
    [Pause in proceeding.]
    Mr. Doolittle. With that, let me invite our first panel of 
witnesses now, an hour and a half into the agenda, to come 
forward.
    We have as our witnesses Roger Patterson, Pete Rabbon, and 
Carl Enson. Let me ask the three of you if you will please rise 
and raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury the responses made and the statements given will be the 
truth, the whole truth, and nothing but the truth?
    Let the record reflect that each answered in the 
affirmative. Thank you, gentlemen--ladies and gentlemen, and we 
thank you for being here.
    And Colonel Klasse, I understand you will be accompanying 
Mr. Enson, and we are appreciative of you being here as well.
    We haven't been very good about the 5-minute rule, and 
these red lights. I guess we will try and be better of that in 
interest to not being here until 6 o'clock at night. We can 
always go to a second round of questions.
    Our first witness is Mr. Roger Patterson, the regional 
director of Mid-Pacific Region of the Bureau of Reclamation.

 STATEMENT OF ROGER PATTERSON, REGIONAL DIRECTOR, MID-PACIFIC 
                 REGION, BUREAU OF RECLAMATION

    Mr. Patterson. Mr. Matsui, Mr. Fazio, thank you for the 
invitation to attend the hearing today. I have with me Tom 
Akin, who is hiding in the front row of the audience. He's the 
area manager out in Folsom, if you need to call on him.
    The Bureau of Reclamation believes that flood protection 
for the Sacramento area, and efforts to protect Folsom Dam in 
an emergency are extremely important. In response to that 
concern, Reclamation entered into an interim reoperation 
agreement with SAFCA in an effort to provide hundred-year flood 
protection until a final decision could be made on flood 
control for the city and county of Sacramento.
    Our recent hydrologic analysis to date has shown, based on 
the 1997 flood, that that level of protection cannot be 
provided by reoperation alone.
    It is primarily for this reason that the administration in 
the Water Resources Development Act of 1998 sent to Congress 
last month a provision to address flood control concerns in 
Sacramento. Section 3 of that legislation would authorize 
modifications to Folsom Dam.
    The Bureau of Reclamation believes there are engineering 
and logistical issues created with the stepped release plan 
developed by the Corps of Engineers.
    We would continue to work very closely with the Corps of 
Engineers and local flood control to determine the flood 
capabilities of various proposals. For example, we believe that 
a design that would incorporate new or enlarged outlets, 
discussed earlier by Mr. Countryman, may be a more workable 
conclusion.
    Constructing emergency repairs at Folsom gate number 3 
sheds some light on the potential. Totally sealing and 
waterproofing that area for construction proved to be very 
difficult.
    If modifications to Folsom Dam are approved, we would make 
every attempt to proceed with minimal disruptions. We realize 
the importance of working closely with state and local 
officials to minimize the disruption of commuter traffic and 
businesses in the local area. Closures of Folsom Dam should and 
would be kept to a minimum.
    These considerations, notwithstanding, it is clear to us 
from flood operations in 1997 that modifications to Folsom Dam 
are necessary. The limited ability to make adequate releases 
from the res-

ervoir in advance of an upcoming storm is a concern of 
Reclamation and a concern we feel should be addressed.
    That will conclude my testimony, Mr. Chairman. I would be 
happy to answer questions at the appropriate time.
    [The prepared statement of Mr. Patterson may be found at 
end of hearing.]
    Mr. Doolittle. Thank you. Next witness is Peter Rabbon, 
executive director of the California State Board of 
Reclamation.

STATEMENT OF PETER RABBON, EXECUTIVE DIRECTOR, CALIFORNIA STATE 
                      BOARD OF RECLAMATION

    Mr. Rabbon. Thank you, Mr. Chairman and members.
    The purpose for me today is to hopefully have you better 
understand the State Reclamation Board, and in the process--
before I get into that, I would like to thank in your help and 
support for the Reclamation Board in providing many flood 
control projects throughout the Central Valley all for 
improvement of the public here.
    The Reclamation Board is a seven-person Governor-appointed 
board. We were established in 1911, and our responsibility is 
flood control in the Central Valley.
    Some of the authorities we have to go along with that that 
I want to speak to for the American River project is our 
authority to act as a nonFederal sponsor to federally sponsored 
projects.
    In that role we share with the Corps of Engineers and the 
local agencies the cost sharing that--cost sharing is 
generally, using the new rules: 65 percent Federal, 25 percent 
state, 10 percent local.
    We also have authority over plans of flood control 
including modifications to Federal projects such as what we are 
discussing today, if there is a nonFederal participant.
    Let me briefly cover the Reclamation Board's decisionmaking 
authority in two arenas: One is nonFederal sponsor for 
federally sponsored projects and two, when we are not the 
nonFederal sponsor for federally sponsored flood control 
project. The Corps of Engineers traditionally, before they move 
forward with recommending authorization of any flood control 
project, have, per their policy, requested a nonFederal or 
letter of intent, and that is the role the Reclamation Board 
generally provides.
    Additionally, if the Reclamation Board submits their letter 
of intent to act as a nonFederal sponsor, we will also seek 
state project authorization and state funding. We also are 
placed to act as lead agency for the California Environmental 
Quality Act.
    Let me now cover the board's decisionmaking authority if we 
are not the nonFederal sponsor. First, the Federal Government 
would have to find for the American River project--I will refer 
to that one as an example--a legally eligible entity that meets 
all the criteria required of the Federal Government to be a 
local sponsor or a nonFederal sponsor.
    Based on the knowledge I have right now, I am not aware of 
any other entity that could sponsor the Stepped Release Plan 
today except the state of California, the Reclamation Board.
    Putting that aside, the legal entity would act as 
nonFederal sponsor. We believe the Federal project would still 
have to come be-

fore the Reclamation Board for approval by the Board because of 
our permit authority, and we believe that that is the case.
    We understand the Federal supremacy; however, the project 
will have nonFederal dollars involved with it, very similar to 
the CEQA process, that--essentially will go through the CEQA 
process through California.
    So regardless of who acts as nonFederal sponsor, the 
Reclamation sponsor will have a major decisionmaking role in 
what project is placed here for the protection of the greater 
Sacramento area.
    The Reclamation Board has stated its position for providing 
the Sacramento area improved flood protection. We did that on 
March 20th, when we passed our resolution 98-04. We again 
stated our position on April 20th in a letter to congressional 
representatives, and then clarified that position again on May 
22nd.
    The board's position is basically we are seeking, as a 
goal, a minimum of two-hundred-year level of dependable 
protection for the Sacramento area. We do support modifying 
Folsom Dam; however, we have serious concerns about raising 
levees for the sole purpose of passing additional water through 
the levees system in an urban area. For that reason we are 
supporting studying the levees at this point.
    We do have technical concerns on the idea of raising 
levees, and I would like to go through those briefly. We would 
like to know that the Stepped Release Plan is dependable, as we 
currently understand, it would require a waiver in order for 
that plan to receive FEMA certification by the Corps.
    The storms of 1997 and 1998 have shown us that you can 
experience levee failures at or near design stages.
    Engineering concerns: The Stepped Release Plan must be 
thoroughly developed to the technical level that is normally 
done for the Corps and the state to consider authorization. The 
work that has currently been done on the Stepped Release Plan 
is not to that level.
    Mitigation issues, environmental and hydraulic: Again, 
there are substantial work that needs to be done to clarify 
what the engineering and environmental impacts are, but more 
importantly to establish what the environmental and hydraulic 
mitigation will be.
    The project scope and estimated cost, we believe, will have 
to be completely reevaluated after they have addressed the 
dependability, the engineering, and the mitigation issues.
    I would like to reiterate we are, at this point, prepared 
to submit our letter of intent to act as a nonFederal sponsor 
for modifying Folsom. At this point we do not support cost 
sharing of the levee raising portion.
    We would like to point out that there is common ground in 
terms of issues that have been discussed; that is, modifying 
Folsom.
    I would be happy to answer any questions that you have.
    [The information referred to may be found at end of 
hearing.]
    Mr. Doolittle. Thank you. Our next witness is Mr. Carl F. 
Enson, Director of Engineering and Technical Services, South 
Pacific Division, Corps of Engineers.
    Mr. Enson is accompanied by Colonel Dorothy F. Klasse, 
Sacramento District Commander Sacramento.
    Mr. Enson?

    STATEMENT OF CARL F. ENSON, DIRECTOR OF ENGINEERING AND 
TECHNICAL SERVICES, SOUTH PACIFIC DIVISION, CORPS OF ENGINEERS, 
 ACCOMPANIED BY COLONEL DOROTHY F. KLASSE, SACRAMENTO DISTRICT 
                     COMMANDER, SACRAMENTO

    Mr. Enson. Mr. Chairman, members, and Congressman Matsui 
and Congressman Fazio. Thank you for inviting us here this 
morning. I am representing Dr. John Zirschky, the accounting 
secretary of Army of Civil Works, and we are here to respond to 
the issues that you have raised in your letter of invitation to 
us.
    I also have with us Mr. Bob Childs, the project manager for 
the American River projects. He sits with us in the audience, 
should there be any detailed questions to be directed to him.
    The following comments are intended to respond to each of 
the five issues and concerns identified in your letter of 
invitation.
    The first issue is traffic on the dam road. Alternative 
flood control plans for American River, including the stepped 
release plan, were formulated and evaluated in the Supplemental 
Information Report, commonly referred to as SIR. It was 
produced by the Corps of Engineers in 1996.
    The stepped release plan as identified in that report 
includes lowering the spillway to allow a greater amount of 
flood storage space behind Folsom Dam.
    Although the SIR reported no major impacts to traffic 
through the closure of Folsom Dam Road during construction, we 
learned that lesson during the repair of the gates out at 
Folsom Dam in the last year or so.
    An alternative is to increase the number of low level 
outlets through the dam. This outlets option is slightly less 
effective than spillway lowering, but would result in only 
occasional closure during the construction.
    The Corps is working closely with the Bureau of Reclamation 
on this and other dam modifications issue. This issue would be 
addressed during the design of any Folsom Dam modifications.
    The second issue is the impact of the proposal on local 
water supply. The stepped release plan would not adversely 
affect water supply. The Folsom Dam is currently operated using 
a variable maximum flood control space between four hundred 
thousand and six hundred seventy thousand acre feet.
    The flood control space is set depending on flood control 
storage space available at five other reservoirs upstream. 
Folsom Reservoir had a fixed value of four hundred thousand 
acre feet.
    The current operation reduces the space available for water 
supply compared with the original operation. The current 
operation was the result of an agreement between SAFCA and the 
Bureau of Reclamation to increase flood control storage space 
available to Folsom Dam. Continuation of this operation was 
authorized in the Water Resources Development Act of 1996.
    The stepped release plan is based on continuation of this 
operation for variable flood control storage in Folsom Dam.
    The third issue is reliability of the safety concerns 
caused by releasing a hundred eighty thousand cfs from Folsom 
Dam.
    The stepped release plan includes modification to the flood 
control outlet facilities at Folsom Dam, increased use of 
surcharge storage space in Folsom Reservoir, and increasing the 
objective release to the lower American River from a hundred 
fifteen thousand cfs to a maximum of a hundred and eighty 
thousand cfs.
    The higher objective release requires significant 
modifications to the existing levee and channel system along 
the lower American River and Sacramento and Yolo Bypasses. The 
plan would result in a decrease in the likelihood of flooding 
from about one in seventy-seven to about one in one hundred 
sixty in any given year.
    Based on information known to the Corps today, we believe 
the existing system can be modified to reliably pass a system 
of a hundred eighty thousand cfs. Additional studies are 
required to design specific project features. We will have to 
consider factors such as hydrology, river stage, estimated 
levee stability, and operation of facilities.
    The fourth issue is effects of proposal on downstream and 
upstream communities. The stepped release plan includes the 
objective release for flood control from Folsom Dam to a 
maximum of one hundred eighty thousand cfs.
    A fundamental conclusion regarding this plan in the 1996 
SIR was that without increasing the flow capacity at the 
Sacramento Weir and Bypass and modifying some of the levees 
along the Yolo Bypass, the increased flows existing--I am 
sorry--exiting the American River would reduce the level of 
flood protection along the lower Sacramento and elsewhere.
    Accordingly, to mitigate this impact, the stepped release 
plan included widening the Sacramento Weir and Bypass by a 
thousand feet and constructing improvements to about fifty-two 
miles of existing levees along the Yolo Bypass and downstream 
sloughs.
    It is the intent of these modifications to not increase the 
water surface elevations during design events upstream along 
the American River or Sacramento River.
    Whether or not these features will ultimately be defined as 
all those necessary to fully mitigate for any increased river 
stages and/or flows will need to be determined in more detailed 
evaluations conducted prior to the project construction. It is 
our intent to fully mitigate for any effect the stepped release 
plan would have on downstream areas.
    The last issue is the environmental consequences of the 
proposal. The levee work as described in the 1996 SIR would 
have impacts including the expected loss of about forty acres 
of riparian vegetation and oak woodland along the lower 
American River and approximately a hundred twenty acres of 
riparian and oak woodland cover and wetlands would be lost due 
to construction in the Sacramento and Yolo Bypass areas 
downstream of the American River. Those losses would be 
mitigated as a project activity at sites in the project area.
    As with the other elements of this plan, environmental 
impacts and potential mitigation features would need to be 
reevaluated as part of any future studies.
    The Folsom Dam modifications primary impacts during the 
construction period would be to air quality, local traffic 
patterns, and noise levels. Dam operation with the 
modifications would result in occasional changes to flows in 
the lower American River and changes to the reservoir's water 
surface elevations. These changes would have little effect on 
the environmental resources.
    Mr. Chairman, that concludes my testimony. I can assure you 
that the Corps of Engineers will work with our Federal, state, 
and local partners and affected parties to address the issues 
raised and undertake expedited efforts to assure reliable flood 
protection along the American River and in the Sacramento area. 
Thank you very much.
    [The prepared statement of Mr. Enson may be found at end of 
hearing.]
    Mr. Doolittle. Thank you, Mr. Enson. It has been 
represented that in the event of a hundred-and-sixty year flood 
event in Sacramento that there would be a 40 percent chance of 
levee failure; is that correct?
    Mr. Enson. Sir, I don't believe that I can explain risk and 
uncertainty as well as Congressman Matsui did, but the answer 
to your question is we have placed a 60 percent probability on 
the one hundred eighty thousand cfs discharge having a return 
interval of a hundred and sixty years.
    Mr. Doolittle. And therefore, does that mean that there is 
a 40 percent chance of failure?
    Mr. Enson. No, sir. It means there is a 40 percent chance 
that the hundred eighty cfs will not have a return. It is a 
complexed relationship here that----
    Mr. Doolittle. Let me just stop you for a minute. In a 
letter I received this morning from Colonel Klasse, it says, 
quote, ``Using information under the Corps today in applying 
our risk and uncertainty, the stepped release plan has about a 
60 percent probability of passing the hundred-sixty year 
event.''
    Now, that seems to be different than what you are telling 
me.
    Mr. Enson. Certainly it didn't. That is exactly what I am 
saying is that we can--we have a level of confidence that the 
hundred and eighty thousand cfs discharge, which is the release 
that we are looking at with a stepped release plan, we can, 
with confidence, build a levee system that will contain that 
discharge.
    When we try to apply a frequency to the hundred and eighty 
thousand cfs is where you get great difficulty in predicting 
the reliability of that being the right discharge.
    And just as we have seen since 1997, we originally thought 
we had a hundred-year frequency protection with the existing 
system. Well, after we had those floods, we added those floods 
to our frequency curve, and those floods changed the existing 
level of protection down to a seventy-seven year protection.
    That is essentially what we are talking about, the degree 
of difficulty in predicting what a discharge frequency is for 
any specific discharge.
    Mr. Doolittle. Mr. Rabbon, you alluded to this.
    What is your understanding of that figure?
    Mr. Rabbon. Let me try to respond to that primarily because 
of the Reclamation letter that is up here behind me.
    And the letter says we understand there is only 60 percent 
reliability for passing the increased flows. It is our 
understanding that there is a 60 percent reliability for 
passing a hundred-and-sixty year storm.
    Mr. Enson. That is correct.
    Mr. Doolittle. Passing meaning the water gets through 
without something breaking and causing a flood; is that what 
that means?
    Mr. Rabbon. That is my understanding.
    Mr. Doolittle. That was the plain reading then. I was 
getting some unusual explanation that didn't make sense.
    Do I now have the correct understanding that there is a 60 
percent chance that the flows get through the levees without a 
flood occurring?
    Mr. Enson. Sir, I am at great difficulty to explain this. 
Because of its complexity for me to explain for someone to 
understand, but the hundred and eighty thousand cfs discharge, 
the objective release we are planning for, we have high 
confidence that we can design a system that will pass that 
flow.
    Mr. Doolittle. But you said ``high confidence.'' You said 
there is a 60 percent chance.
    Is that high?
    Mr. Enson. That the frequency related to that hundred 
eighty thousand cfs is, in fact, a hundred sixty year event.
    Mr. Doolittle. That extra language--maybe we should direct 
this to Colonel Klasse.
    Colonel Klasse, if you are going to testify, will you raise 
your right hand. We will go through this.
    Do you solemnly swear or affirm under the penalty of 
perjury the responses made and the statements given will be the 
truth, the whole truth, and nothing but the truth?
    Colonel Klasse. Yes, sir, I do.
    Mr. Doolittle. Colonel Klasse, you wrote this in your 
letter?
    Colonel Klasse. Yes, sir. I have the letter in front of me. 
I will read the sentence and see if I can't clarify.
    Mr. Doolittle. Thank you.
    Colonel Klasse. ``Using our risk and uncertainty 
procedures, the stepped release plan has about a 60 percent 
probability of passing the one hundred and sixty year event.''
    So if we are talking about the one hundred and sixty year 
event, we are saying that we have a 60 percent probability of 
passing the one hundred and eighty thousand cfs.
    Mr. Doolittle. And if I may, then, to just further confirm 
my understanding, that would mean there is a 40 percent 
possibility or probability--40 percent probability that you may 
not pass the hundred and sixty year event.
    And my question is: In the event that--let me use another 
term. In the situation where we don't pass the event, does that 
then mean that there is a flood? That the levee has broken? 
That somewhere in the system something has broken and there is, 
therefore, a flood?
    Mr. Enson. Sir, you are absolutely right. The 160 percent 
frequency has a probability of--has a 60 percent probability of 
having a hundred and eighty thousand cfs discharge associated 
with it.
    Mr. Doolittle. Excuse me, but that gobbledegook is not in 
this letter. I can understand what is in this letter.
    Is what you are telling me right, or what is in this letter 
right?
    Mr. Enson. Sir, if you would like me to have Mr. Childs 
explain it in detail----
    Mr. Doolittle. We can assume Mr. Rabbon understands it, as 
I have understood it. And I think we are entitled right now to 
understand what you mean rather than come up here and start 
throwing in words that aren't in this letter.
    Does the Corps stand by this letter?
    Mr. Enson. Yes, sir. The letter is accurate.
    Mr. Doolittle. The letter says, ``The stepped release plan 
has a''--I will put a period after that because the next thing 
is related to a lesser event.
    Mr. Enson. That is correct, sir.
    Mr. Doolittle. Well, the plain meaning of that is, to me, 
that there is a 60 percent chance the levees hold. There is a 
40 percent chance they fail.
    Do you disagree with that characterization?
    Mr. Enson. For the hundred and sixty year event.
    Mr. Doolittle. Why did we just spend twenty minutes 
haggling over what is the plain meaning of this letter?
    Mr. Enson. We are talking about two different things. When 
we are talking about the level of protection, we are talking 
about a discharge and a frequency.
    Mr. Doolittle. What we are talking about is in the hundred 
and sixty year event, there is a 40 percent chance the levees 
break and we flood Sacramento or someplace.
    Mr. Enson. That is correct.
    Mr. Doolittle. That is correct. Thank you. All right.
    Mr. Enson, you flew out here, didn't you, to come to this 
hearing?
    Mr. Enson. Sir. I am from San Francisco.
    Mr. Doolittle. You drove then. Would you fly on a plane 
that had a 40 percent chance of crashing?
    Mr. Enson. No, sir.
    Mr. Doolittle. I wouldn't either.
    Mr. Patterson, are you happy with the Corps of Engineers 
doing work on your dam?
    Mr. Patterson. We work pretty well with the Corps.
    Mr. Doolittle. Work well enough that you would stand by and 
let them fix the dam?
    Mr. Patterson. We would work out a joint plan like we did 
when the gate failed. Both Corps and we had our designers do 
the redesign on the gate. We administered the construction 
contract. We had people from Corps of Engineers out from time 
to time looking at how it was working. So I mean, that we can 
work through, if we use this to authorize a modification. The 
Bureau and the Corps will be able to figure out how to do that.
    Mr. Doolittle. Thank you. Mr. Farr.
    Mr. Farr. My question really goes to Mr. Rabbon. Thank you, 
Mr. Chairman.
    In your testimony you indicated that the Reclamation Board 
reviews the Federal projects and you can deny a permit.
    Have you ever denied a permit of the Corps of Engineers and 
recommendations to repair levees?
    Mr. Rabbon. We have not denied a permit. Every activity 
where this type of instance has come up, we have been able to 
work jointly together.
    Mr. Farr. And you indicated you are now--the Board is now 
studying the levees.
    And how much are you studying the same levees that is being 
proposed in the stepped program?
    Mr. Rabbon. I may have misspoke. We are not studying the 
levees. We are recommending that the Corps study the levees.
    Mr. Farr. That is not what you said. You said you are 
studying the levees right now. I wrote that down when you 
spoke.
    Mr. Rabbon. Then I misspoke, excuse me.
    Mr. Farr. The Board is not pursuing a study, as your 
testimony indicates, to obtain a goal and to further study the 
levee raising. You are not pursuing that at all. That is your 
position, but you are not pursuing it.
    Mr. Rabbon. That is incorrect. Let me clarify because I was 
focusing just on the Stepped Release Plan.
    We currently are not studying raising and strengthening the 
levees for the stepped release plan. We are the local cost-
sharing partner with the Corps in the repairs in the common 
elements for the American River, so we are funding that. We are 
working with the Corps.
    Mr. Farr. That is ongoing levee repair, not levee 
improvements on new levees or raising levees, just making sure 
the levees that are there are adequate.
    Mr. Rabbon. Making sure that the levees are adequate to 
pass the design flows. We are included in Central Valley 
studies with the Corps of Engineers, which we are cost sharing.
    Mr. Farr. At what level is that? The two-hundred-fifty year 
level?
    Mr. Rabbon. We are looking at how to make the flood control 
system work better.
    Mr. Farr. What standard?
    Mr. Rabbon. There is no standard because it varies if you 
are up in Northern California or down in the Central Valley 
urban areas.
    Mr. Farr. You indicated the concerns existed about the 
stepped release plan, that it has to be dependable.
    How can you be dependable if you don't have a standard?
    Mr. Rabbon. For the Stepped Release Plan and the greater 
Sacramento area we do have standards. That is a minimum two-
hundred year for highly urban areas.
    Mr. Farr. You indicated you were opposed to cost sharing 
purposes if the Auburn Dam isn't built.
    And if the only feasible compromise is the stepped release 
plan, would you then support it?
    Mr. Rabbon. If we can see how the stepped release plan is 
part and package of a long-term goal of two hundred years, that 
would be brought before the Reclamation Board.
    Mr. Farr. Anything less than two hundred years the 
Reclamation Board wouldn't support?
    Mr. Rabbon. That is not correct.
    Mr. Farr. What is correct?
    Mr. Rabbon. We support modifying Folsom Dam, which is in 
our incremental plan for flood protection for the area.
    Mr. Farr. Which of the proposals of that do you support? 
What's the other one called, the Joe Countryman proposal or the 
other one?
    Mr. Rabbon. We have not taken a position on which one to 
support because again, we need to see the studies, and we 
concur, though, with, I think, all the agencies in terms of 
modifying Folsom and that that does fit in a long-term plan.
    Mr. Farr. You are a state agency, California Reclamation 
Board?
    Mr. Rabbon. Yes.
    Mr. Farr. Funded by the state.
    What's your agency budget?
    Mr. Rabbon. Approximately three hundred thousand, however, 
a majority of the services are performed by the Department of 
Water Resources.
    Mr. Farr. So with a very limited budget, what role are you 
going to play in this?
    Mr. Rabbon. The limited budget is to staff the seven board 
members, myself, our chief engineer, and as I said, we receive 
our services from the Department of Water Resources, and we 
expend probably over ten million a year in terms of various 
projects, and we will use the same resources we have used to 
fund all the projects we have cooperated with.
    Mr. Farr. So you will not be nonFederal sponsor for the 
Stepped Realease Plan?
    Mr. Rabbon. Because of lack of information, that is 
correct.
    Mr. Farr. You don't have the money to get that information?
    Mr. Rabbon. We have the money to cost share in studies.
    Mr. Farr. But you don't put the money into studying the 
plan?
    Mr. Rabbon. I don't think that question was asked of me.
    Mr. Farr. Will you?
    Mr. Rabbon. We can budget for that.
    Mr. Farr. Thank you.
    Mr. Pombo. Mr. Rabbon, so I can understand what you are 
testifying to at this point, you support the Folsom 
modifications because you see that as an incremental plan 
moving to the two-hundred year protection?
    Mr. Rabbon. Correct.
    Mr. Pombo. Are there any other steps that you see that 
would lead you to that incremental two-hundred year protection 
at this point?
    Mr. Rabbon. At this point that is why we are asking to 
study the levees to see if that truly is the next logical 
incremental step.
    Mr. Pombo. Are there any other proposals that have been 
brought forth that you are aware of at this point?
    Mr. Rabbon. The Reclamation Board has supported, as the 
best technical solution, the Auburn Dam in the past.
    Mr. Pombo. As the best technical solution.
    What about in terms of cost and overall cost?
    Mr. Rabbon. Economically it would also be the best 
solution.
    Mr. Pombo. So it is the board's opinion at this point that 
it is economically the best solution?
    Mr. Rabbon. That is what they have stated in their past 
positions.
    Mr. Pombo. Thank you. Colonel Klasse, last year we had the 
misfortune dealing with the floods in most of my district, and 
one of the problems that we had was a levee system that was 
incapable of handling the amount of water that came through.
    One of the concerns my constituents have is a plan, such as 
been proposed, that the levee system downstream from Sacramento 
would not be able to hold that, would not be able to withstand 
that.
    Could you comment on that?
    Colonel Klasse. I believe that Mr. Enson, in his opening 
statement, mentioned the fact that we do feel confident that we 
would be able to design for the one hundred eighty thousand cfs 
downstream.
    Mr. Pombo. I find that interesting. Maybe Mr. Enson would 
comment on that.
    In terms of money, what are we realizing downstream to 
handle the hundred and eighty thousand cfs?
    Mr. Enson. Yes, sir. The estimates that we put together in 
the SIR dated 1996, in 1995 dollars, was approximately three 
hundred and eighteen million dollars for the levee portion of 
the stepped release plan.
    Those estimates were made for a specific purpose. This was 
to link out all the alternatives in the same level of detail, 
but the three hundred eighteen million was our estimate in 
1996.
    Mr. Pombo. That is to take it all the way out?
    Mr. Enson. That is for everything we needed to do, to 
strengthen up and prepare those levees so we can get a hundred 
eighty thousand cfs through it.
    It also included the cost of mitigation, the hydraulic 
mitigation downstream on the Sacramento River where we needed 
to widen the weir by a thousand feet.
    And then it was also so--we don't want to cause any 
hydraulic damage down there because of these releases on the 
Sacramento River, then we put a larger volume of river in the 
Yolo Bypass. That is why we have to beef up those levees along 
the bypass. It includes all those features.
    Mr. Pombo. It involves the mitigation that you talk about 
in your testimony as well?
    Mr. Enson. Yes, sir. In terms of the report we did in 1996, 
as I mentioned in my statement, and the administration has 
included in their proposed bill. All of that needs to be 
investigated. The questions that the state has asked are all 
legitimate questions that need to be addressed. Our next step 
is to address those questions before moving forward for 
construction of the dam or the levees.
    Colonel Klasse. Congressman, I maybe should clarify the 
three hundred eighteen million that Mr. Enson is talking about 
does not include the environmental restoration features. I 
think you asked that as to the latter part of the question. 
That portion is ten point one. It is for recreation and 
environmental restoration features, which is above the three 
eighteen, sir.
    Mr. Pombo. Ten point one million?
    Colonel Klasse. That is correct, sir. I realize you said 
you still have to study this, but my previous experience in 
terms of environmental mitigation is that it will be many times 
the ten point one million before you are done with that.
    Mr. Pombo. And I know that these are all preliminary 
numbers, and when do we expect to have some certainty on in 
terms of numbers?
    I know you are saying preliminary numbers. Any time in the 
near future are you going to be able to come to us and say this 
is what it is going to cost?
    Mr. Enson. Sir, I think that the next step is for the 
regional representatives to decide which plan they would like 
us to move forward on and make that expression to us so we can 
begin those studies, but right now we are not concentrating on 
any one of these alternatives in preparing more data.
    Mr. Pombo. Thank you. Mr. Chairman.
    Mr. Doolittle. Mr. Radanovich.
    Mr. Radanovich. No questions.
    Mr. Doolittle. Mr. Matsui.
    Mr. Matsui. I would like to ask Mr. Enson and Colonel 
Klasse, if you want to discuss this together, the issue of 
reliability if, in fact, that is the reliability of a hundred 
and eighty thousand cfs going through the American River under 
the stepped release or under Mr. Countryman's plan.
    The stepped release plan, that is the only one that has the 
SIR attached it to.
    Can you answer that in terms of reliability?
    Mr. Enson. Sir, we don't have a number on reliability on 
passing that. All I can say is we have a high degree of 
confidence we can design a system that will pass the hundred 
eighty thousand cfs.
    Mr. Matsui. The 60 percent has nothing to do with the 
hundred and eighty thousand cfs going through the American 
River?
    Mr. Enson. That is correct, sir.
    Mr. Matsui. The issue that has to do with the 60 percent is 
the issue of whether or not it can sustain a hundred year 
occurrence; is that correct?
    Mr. Enson. The hundred and sixty year.
    Mr. Matsui. Sorry. Hundred-sixty-year occurrence.
    Mr. Enson. Absolutely.
    Mr. Matsui. The reason you can only predict a hundred sixty 
year is different hydrology or different rainfalls that might 
occur that may change the hydrology; is that correct?
    Mr. Enson. Essentially correct, but the frequency curve is 
a complex statical analysis that leads you to have 
probabilities low when you get up to the high ranges.
    Mr. Matsui. In other words, it isn't your ability to build 
the dam. It is the issue that makes this thing somewhat 
uncertain in terms of reliability, the things beyond your 
control, Mother Nature essentially.
    Mr. Enson. Thank you, sir. That is what I was trying to 
say.
    Mr. Matsui. I spent a lot of evenings trying to understand 
this thing. You clarified it for me much better than the book 
did. I want to thank you very much.
    Essentially it doesn't have anything to do with the issue 
of reliability the fact that a hundred eighty thousand cfs will 
go through the stepped release plan. We are talking about a 
variable of Mother Nature, which may change the reliability 
whether it is a hundred sixty year occurrence or something 
else?
    Mr. Enson. Yes, sir.
    Mr. Matsui. Thank you. I hope we all will discuss this in 
terms of that. I want to thank both of you, by the way, for 
your testimony today, and particularly you, Mr. Enson, for 
being here today and showing up from San Francisco.
    Mr. Rabbon, I am going to spend a minute on this so the 
letter that Mr. Delgado wrote the president of the Reclamation 
Board, you are basing this on no studies, then, at least from 
what I heard from Mr. Farr here?
    Mr. Rabbon. Basing the fact. There are no studies.
    Mr. Matsui. The fact you are not willing to give your seal 
of approval?
    Mr. Rabbon. It is based on a lack of information and our 
concern on what we have seen very recently in 1997 and 1998.
    Mr. Matsui. If I may, then, we authorized this this year. 
Now, let's say that we don't start the appropriations process 
on the levee work for 5 years because you want to do the reop 
first, modification of Folsom first.
    Studies will be done over the next 60 months, then you get 
the studies, then you reevaluate it; is that my understanding?
    Mr. Rabbon. It could work this way.
    Mr. Matsui. This is the normal appropriations process, a 
normal process, which many pieces of items go through.
    Mr. Rabbon. It is not the normal process I have seen in 
terms of how the Reclamation Board has worked with the Corps of 
Engineers here for authorizing projects.
    Mr. Matsui. Let me ask you this: Do you think the Corps 
would build an unsafe project?
    Mr. Rabbon. I believe the Corps will build a project to the 
best of their ability.
    Mr. Matsui. Right. OK. And let me just--he does say in the 
last sentence of the second--any decision on the levees must be 
based on updated information and consider the results of 
additional studies.
    So you are basically confirmed, at least in your mind, Mr. 
Farr and myself, maybe not in your opening statement but you 
confirmed your opening statement, so thank you very much.
    Mr. Doolittle. Mr. Fazio is recognized.
    Mr. Fazio. Mr. Enson, could you kind of give us, with 
Colonel Klasse's involvement, a sense of what the region that 
you are responsible for looks like in terms of similar flood 
threats, similar kind of levee vulnerability?
    How many levees in the jurisdiction that this Corps office 
is responsible for meet the two-hundred-and-fifty year standard 
or hundred-year standard?
    Where are we in the total mix of what's out there, not just 
in this state but the region?
    Mr. Enson. Sir, I would say these levees, especially on the 
Sacramento River, are ones that have the highest flow going 
through them.
    For most regions, when we get down to the Los Angeles 
system, we are talking down there of a hundred and forty-five 
thousand cfs. Our design discharge at the mouth of the river, 
the lower end of the river. Santa Ana, it is about a hundred 
and seventy thousand cfs at the mouth of that river. We are 
stuck with flows that are higher in this area for the levee 
system that you have.
    As far as the levees we have under our purview here in the 
Federal system, as you well know, we have about eleven hundred 
miles of system and about another five to six thousand miles of 
system that are not in the levee system. That is our purview.
    Mr. Fazio. What about the American River? You talked about 
the Sacramento. We are really focusing here on the American.
    How do you compare, if we were to reach some sort of 
ultimate agreement hereafter, all studies that I know to be 
done, the technical fixes that seem attainable, the protection 
that you can guarantee us, how does that rank with others 
around the region?
    Mr. Enson. I don't see it any different, sir. I don't see 
it significantly different than any other area we normally work 
in. We have constraints here, which we have in most areas, the 
development right up to the backside of those levees, the 
recreational corridor inside those levees that need to be 
compensated.
    Mr. Fazio. Thank you.
    Mr. Doolittle. Mr. Enson, are you aware of Corps levees 
which have failed?
    Mr. Enson. Yes, sir.
    Mr. Doolittle. Could you tell us about those you are aware 
of?
    Mr. Enson. Well, just to kind of give you the experience 
that we have had right here in the region during the 1997 
event, again, eleven hundred miles of levee, and I believe we 
had about thirty-six levees that were breached in areas along 
that eleven hundred miles.
    And out of those thirty-six breaches, thirty-four of those 
were from flows that exceeded the design capacity of those 
levees. Two of them were slightly below the design level or 
just at the design level, so we have had some experience.
    At Paradise Cut we have had some problems with levees where 
we made some repairs. We still have residual problems 
associated with it.
    I want to make it clear: When we are talking about levee 
systems, we are talking about risks. There is no question about 
that. We have to be cognizant of those risks, but there is an 
inherent risk. There are things we don't know about levee 
systems. No matter where they are, all of those things need to 
be studied and investigated.
    The bottom line, in my mind, when we talk about upgrading 
levees, in the general sense, even though we are increasing the 
risk, as the state believes we are, in raising and 
strengthening these levees because we are pushing more water 
through them, usually the net increase in that risk is small 
compared to the increase in the benefits associated with that 
strengthening and raising.
    That is to say the flood protection we get from increasing 
the strength or heights of those levees is usually justified 
from a technical, as well as a risk.
    Mr. Doolittle. When a levee is breached, usually there is a 
wide swath?
    Mr. Enson. Sir, I can't speak to the Paradise Cut. I will 
ask Colonel Klasse----
    Colonel Klasse. That can be true, yes, sir.
    Mr. Doolittle. Do you have any idea in the instance of 
Paradise Cut what the swath was?
    I heard levees break, wiping out two, three hundred feet 
sometimes.
    Colonel Klasse. I don't know what that one was, sir. 
Paradise Cut, how much was cut or how much it breached on both 
sides, the east side and the west side so----
    Mr. Doolittle. That was one of the--both cases that was 
under the design capacity; right?
    Colonel Klasse. One was at the design capacity. One was 
below the design capacity.
    Mr. Doolittle. I don't mean to infer the Corps doesn't do 
the best they can do. This is somewhat uncertain. Mid Valley, 
Reclamation district fifteen hundred, the Corps redesigned a 
levee for them.
    Do you know what I am talking about here?
    Colonel Klasse. We have got work going on in Mid Valley, 
yes, sir.
    Mr. Doolittle. It is my understanding that the Corps did a 
wall like they are going to be doing on the common elements we 
have all supported and that certify the levee is safe, and 
despite all of that, the levee still boils; is that your 
understanding?
    Colonel Klasse. I am not sure if Mid Valley is the one you 
are talking about. Let me just----
    [Pause in proceeding.]
    Colonel Klasse. I believe the one you are talking about is 
the Sutter Bypass, that is correct. That is where we had the 
major breach.
    And going back to your first question which dealt with how 
much scour there was, we closed the breach, dropped in big 
rocks, did not recognize, or at least at the time that it had 
scoured away the clay layer, so when we put in the slurry wall, 
we did not lock it into a clay layer. We did not identify that 
at the time. It is part of the, you know, I guess, of the 
process.
    Mr. Doolittle. You learned from additional experience, as 
we all do?
    Colonel Klasse. Yes, sir.
    Mr. Doolittle. Let me ask you, Mr. Rabbon, you said, I 
think, the state does not support the increased objective 
releases, was that an accurate quote?
    Mr. Rabbon. I think what I had said is that is the 
Reclamations Board's position.
    Mr. Doolittle. So when--and these levee enlargements that 
are going around that Mr. Fazio alluded to earlier, if his 
statement is correct, those are not designed to increase the 
objective releases or the state is not a partner in it?
    Mr. Rabbon. I am not sure. If you can be more--on the levee 
enlargements, let me respond.
    We are not participating in any levee strengthening or 
raising projects, that I am aware of, where the purpose is to 
allow increased higher objective releases.
    Mr. Doolittle. Is such an instance unusual where levees are 
being built up for the purpose of increasing the objective 
releases? In your experience is that an unusual?
    Mr. Rabbon. For our experience in this area, yes.
    Mr. Doolittle. Is it unique in your experience in this 
area?
    Mr. Rabbon. I would hate to rely on myself to say it is 
unique.
    Mr. Doolittle. To the best of your knowledge, that is all I 
am asking.
    Mr. Rabbon. For the American River it is unique.
    Mr. Doolittle. You talked about what's going on, the way 
flood control projects are normally handled.
    Could you comment on how they are normally handled? Maybe 
contrast it with what the difference is here.
    Mr. Rabbon. I am referring to what I believe to be the 
normal Federal process in terms of authorizing Federal projects 
and the normal Corps process, and we have worked with the Corps 
of Engineers on numerous feasibility studies and numerous 
projects that have gone to construction.
    The normal process is we cost share with the Corps of 
Engineers and at the end of the feasibility study, a letter is 
requested from a potential nonFederal sponsor, a letter of 
intent, and the Reclamation Board has, on numerous occasions, 
provided a letter of intent to attach into the feasibility 
report which the Corps sends, then, through their approval 
process.
    And they eventually send a Chief of Engineers report to 
Congress with a recommendation, and normally in that 
recommendation is--the normal process is that they would 
recommend in the Chief's report the recommended plan that the 
Corps of Engineers has studied in their feasibility report, 
which is the plan that they have done the most work on because 
it was going to be the recommended plan, and so what the chief 
engineers would say ``This is a plan we support and do have a 
local nonFederal sponsor.''
    The difference that I am seeing here is that, then, the 
authorization process starts, so the difference here is that it 
would be authorized first and then studied, where normally it 
is studied, then authorized.
    Mr. Doolittle. OK. Thank you.
    Mr. Enson, you talked about the impact of the Folsom road 
closures.
    Mr. Enson. Yes, sir.
    Mr. Doolittle. Based on what you know of the impact upon 
Folsom, is it your belief, then, that we are really probably 
talking about the Countryman plan as opposed to the full 
original Corps plan that talked about lowering the spillways?
    Mr. Enson. Sir, I don't know that I can specifically say 
one plan would be what we are talking about. At this point in 
time we really haven't spent very much time looking at the 
Countryman plan.
    Mr. Doolittle. Because you are going to have to do studies 
on that?
    Mr. Enson. That is right.
    Mr. Doolittle. What do your figures show, how many months 
or years? What is the impact? How much is that road going to be 
closed over the dam if they should lower the spillways?
    Mr. Enson. Sir, I do not have with me figures I would 
address that question. I do know that the concern was 
significant enough to us that we have had discussions certainly 
with the state and with the Bureau.
    As I said in my opening statement, we learned a lot from 
when the gates were being repaired. It would be an extensive 
problem if we tried to lower the spillway.
    Mr. Doolittle. Maybe I could ask Mr. Patterson if he has 
any additional information on the impact of the road?
    Mr. Patterson. I am not sure that I do, but the stepped 
release plan would require the road to be closed a significant 
part of the time. I would say the majority of the time.
    Mr. Doolittle. And the time required to lower the spillways 
is approximately how long, do you think?
    Mr. Patterson. Mr. Enson is probably in a better position. 
To lower the five main bays was about one per year. It was 
about 5 years.
    Mr. Doolittle. So the road would be closed for a majority 
of the 5-year period if that plan would be to go forward?
    I am not putting words in your mouth. Based on your 
belief--I understand this is based on rescission, and I might 
ask you if you would please, for the Committee to supplement 
your testimony with that information.
    Doesn't the Corps, Mr. Enson, normally require that the 
elements be separable?
    For example, here we have two elements, the modification of 
Folsom Dam and the raising of the levees downstream.
    Normally those would be separable elements, wouldn't they?
    Mr. Enson. That is correct, sir, they'd be evaluated 
separately.
    Mr. Doolittle. But in this case they are not?
    Mr. Enson. That is correct.
    Mr. Doolittle. Can you tell us why?
    Mr. Enson. I believe that the administration wants to have 
something they can move forward here in Sacramento, and the 
acting assistant secretary of the Army, Dr. John Zirschky, has 
considered it is one complete project, not as separable units.
    So for purposes of economic analysis and cost sharing, we 
would cost share--the Federal Government would cost share on 
the entire portion, not the share that is economically 
justified.
    Mr. Doolittle. In your experience, is the treatment of this 
different than would normally be the case?
    And I think you have answered it. That is yes, isn't it?
    Mr. Enson. It is unusual.
    Mr. Doolittle. In your own personal experience, is this the 
only such instance that you are aware of?
    Mr. Enson. I can't cite other ones at this point in time.
    Mr. Fazio. John, will you yield on this?
    Mr. Doolittle. Go ahead.
    Mr. Fazio. Having worked on this thing for 19 years, it is 
not the only--in fact, it is frequent that we have elements of 
our projects that are uneconomic and we fold them into the 
total project, which is still more than positive in terms of a 
cost benefit ratio.
    This is particularly important for those of us that have 
rural communities that do not have enough evaluation to do the 
projects incrementally, so we roped them all in together. We 
estimated the total project because it is still a positive, and 
at the same time we get some of the elements done. It is 
something we need to do fre-

quently in order to make some of our California projects pass 
muster.
    Mr. Doolittle. OK. Mr. Pombo? Mr. Radanovich? Mr. Matsui? 
Mr. Fazio? OK.
    Ladies and gentlemen, thank you very much. We appreciate 
your forthright responses. I am sure we will have additional 
questions we will want to tender in writing. We will hold the 
record open to get your responses, and we thank you for 
appearing, and we will excuse you now.
    Invite panel No. 2 to come forward.
    [Pause in proceeding.]
    Mr. Doolittle. Mr. Countryman, will you please rise with 
the others and raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury the responses made and the statements given will be the 
truth, the whole truth, and nothing but the truth?
    Let the record reflect each answered in the affirmative.
    We appreciate you very much each of you coming. I know this 
proved to be a longer hearing. We get some very good facts 
about this.
    Our first witness will be Mr. Ray Costa, who is a soils 
engineer with the state of California. Mr. Costa?

       STATEMENT OF RAY COSTA, SOILS ENGINEER, SACRAMENTO

    Mr. Costa. Thank you, Mr. Chairman and Committee members. 
My name is Ray Costa. I am actually not working for the state 
of California. I represent a private engineering consulting 
firm called Kleinfelder.
    Mr. Doolittle. Thank you for that clarification. I 
apologize.
    Mr. Costa. My firm has worked in the Sacramento Valley for 
35 years, which I have been associated. Kleinfelder has work on 
dozens of levee projects, well over two hundred miles of levees 
throughout the system. We are currently providing levee 
evaluation services for the U.S. Army Corps of Engineers and 
Sacramento Area Flood Control Agency.
    I am here to discuss release of hundred and eighty thousand 
cfs from Folsom Dam. As you know, flood control solutions 
generally involve three needs: This is storage, diversion, and/
or conveyance.
    Many times the conveyance capacity of the rivers has 
increased by the constructions of levees below the river banks. 
Many flood control engineers believe increased storage is the 
most efficient way to increase flood protection in Sacramento.
    However, recent attempts to obtain conveyance along the 
American River, Sacramento River, the Sacramento Bypass and the 
Yolo Bypass have not been successful. This increase of 
conveyance is a hundred eighty thousand cfs discharge from 
Folsom Dam.
    The role of geotechnical engineers, which I am, is to 
provide you, the decisionmakers, an accurate assessment of the 
risk associated with a particular option. After a decision is 
made, it is the geotechnical engineer's role to design a system 
that will be safe and reliable.
    The impact of increased discharge into the American River 
will have two main effects. First, the water in the river will 
be deeper. Second, it will be faster.
    This translates, first of all, the deeper water reduces the 
safe height. In other words, the freeboard, the measure of 
distance between the water and the top of the levee, presents a 
greater pressure against the levee and faster flow causes 
increased erosion.
    These conditions are not unique to the Sacramento River 
flood control system. They are conditions that exist throughout 
the system, and geotechnical engineers have been able to 
protect the levees in the past from these kinds of conditions.
    Conventional needs are for increased stage or water depths. 
Levees can be raised. For every one foot of levee height 
increased, the levee is increased in width by five feet.
    For the greater water pressure, the levees can be 
buttressed along the landslide slope. This current program of 
installation of a slurry wall will greatly increase the 
stability of levees over the American River for erosion 
protection.
    Rock slope protection can be applied to vulnerable 
locations, such as bins along the river.
    In summary, the possible effects of levee integrity on the 
lower American River can be mitigated using conventional and 
proven engineering design and construction techniques.
    It is my opinion that the relative safety and reliability 
of the levee system can be maintained during a discharge event 
of a hundred and eighty cfs. Thank you very much.
    [The prepared statement of Mr. Costa may be found at end of 
hearing.]
    Mr. Doolittle. Next witness is Ricardo Pineda, Chief 
Engineer, State Board of Reclamation. Mr. Pineda?

 STATEMENT OF RICARDO PINEDA, CHIEF ENGINEER, CALIFORNIA STATE 
                      BOARD OF RECLAMATION

    Mr. Pineda. Good morning, Chairman Doolittle, members, 
Congressman Matsui, and Congressman Fazio. My name is Ricardo 
Pineda, and I am the chief engineer for the board project and 
activities done in cooperation with the U.S. Army Corps of 
Engineers, along with technical services provided by the 
Department of Water Resources.
    I am here today to provide my professional views on the 
stepped release plan. My comments on the stepped release plan 
focus on four primary areas: One, reliability of the project to 
pass the design discharge; two, hydraulic impacts; three, 
environmental impacts; four, cost of the project.
    I have been involved with flood control planning on the 
American River since 1989, and prior to that I was a flood 
forecaster with the Department of Water Resources, and at times 
making flow forecast for the American River system.
    On the first issue of reliability, the stepped release plan 
will be designed to pass a controlled release from Folsom Dam 
of up to one hundred eighty thousand cfs. This discharge is 
fifty thousand cfs greater than the maximum flow ever released 
from Folsom Dam.
    To safely pass this flow, levees along the lower American 
River will need to be raised and new levees and floodwalls will 
need to be built. The new and existing levees will need to be 
protected against erosion by the placement of rock on the 
waterside levee slope.
    Existing riverbank protection may need to be modified to 
account for the higher flow velocities associated with the 
increased objective release. The one hundred eighty thousand 
cfs objective release will strain the downstream levee system 
and require it to work flawlessly in order to safely convey 
these flows through narrow parts of the levee system. There 
cannot be a single weak link throughout the complete length of 
the levee system.
    In order to provide Sacramento with the protection that it 
needs, damage to Federal and state levees caused by the floods 
of 1997 and 1998 highlight the need to take a very cautious 
approach relative to increased dependence on levees for flood 
control.
    Stepped release will need to be carefully planned, 
analyzed, and designed to ensure that there will be no failure, 
expected or unexpected.
    The Reclamation Board, in four different resolutions, has 
stated its intent to support at a minimum, a two-hundred-year 
level of flood protection. The safest and most reliable way to 
provide protection is through additional flood control storage 
upstream of Folsom Dam.
    The Corps' reliability analysis shows that the flood 
control storage upstream of Folsom Dam is the only option to 
provide a minimum two-hundred-year level of flood protection 
with high reliability.
    On the issue of hydraulic impacts, the stepped release plan 
increases the objective release from Folsom Dam from the 
current one hundred fifteen thousand cfs to a stepped one 
hundred forty-five thousand to one hundred eighty thousand 
cubic feet per second level.
    To account for the additional flows, the downstream 
Sacramento River and Yolo Bypass flood control system must be 
modified to safely convey the increased discharge from the 
American River to the Yolo Bypass.
    To accomplish this transfer without adverse impacts to the 
system, the 1996 report estimated that the Sacramento Weir 
would need to be widened about a thousand feet, a new 
Sacramento Weir north levee would be constructed, approximately 
twenty-six miles of Yolo Bypass levees would be raised, and 
thirty-eight miles of Yolo Bypass levees need to be 
strengthened along tributaries.
    The widened Sacramento Bypass would encompass and abandoned 
landfill located in Yolo County. Dependent upon modeling 
assumptions and criteria for determining the need for hydraulic 
mitigation, additional downstream levee improvements may be 
necessary.
    The Reclamation Board plays a vital role as the caretaker 
of the Sacramento River Flood Control Project. Levee 
maintenance reclamation districts, both large and small, depend 
on the board to ensure that the system is operated safely, 
maintained properly, and that modifications to project 
facilities that decrease the possibility for flood damages in 
one community does not increase the risk of flooding in 
another.
    The board takes this role very seriously and will need to 
fully evaluate project impacts and proposed mitigation before 
taking any action to recommend approval of a levee based 
American River flood control project.
    The issue of environmental impacts, according to the 1996 
report which I participated in, preparing the stepped release 
plan requires thirteen point five miles of American levee 
raising, about six miles of levee erosion protection, new 
levees and floodwalls, modifications to two bridges on the 
American River and one bridge across the Yolo Bypass, extensive 
modifications to city and county pump and drainage facilities, 
and extensive levee work along the Sacramento Bypass and Yolo 
Bypass.
    While environmental restoration is proposed for the lower 
American River, a detailed accounting of environmental impacts 
associated with this project, especially along the lower 
American River, has not been fully documented or publicized 
relative to a project of this magnitude or scope.
    For the Reclamation Board to act as lead agency under the 
California Environmental Quality Act, additional environmental 
analyses and problem outreach will be necessary.
    Preparation of the report--and prior to that on the Auburn 
Dam, since that was more than likely the plan that was going to 
be selected. Like I said, we did have a lot of workshops and 
hearings. A lot of our focus was on the dam proposal.
    On the cost of the project, the 1996 Chief of Engineers 
report estimated the cost of the downstream levee improvements 
at approximately $313 million. Based upon the board's 
experience in 1997 and 1998 floods, I firmly believe that levee 
improvements, in addition to those discussed in the 1996 
report, would be necessary if considering a levee based plan 
for the American River.
    In addition, depending upon the criteria used for computing 
hydraulic impacts and a policy for hydraulic mitigation, we may 
be underestimating the amount of work associated with impacts 
to the downstream system. Current court cases indicate this to 
be true.
    Dependent upon final amount of structural levee, bridge, 
and pump/drainage facility work necessary for the profit to 
safely convey one hundred eighty thousand cfs, the project cost 
may increase significantly above that which is estimated in the 
Chief's report.
    That concludes my testimony, and I would be happy to answer 
any questions you have.
    [The prepared statement of Mr. Pineda may be found at end 
of hearing.]
    Mr. Doolittle. Our next witness is Joe Countryman, 
Consultant with Murray, Burns, and Kienlen.

   STATEMENT OF JOE COUNTRYMAN, CONSULTANT, MURRAY, BURNS, & 
                            KIENLEN

    Mr. Countryman. I am Joe Countryman. I am a resident of the 
American River floodplain, so I have more than an engineering 
interest in what we do here today. I would say things are 
representative.
    I have worked on a project in Congressman Farr's district 
that have 30 years of Corps levees that are protecting 
Watsonville. And Congressman Pombo, I have worked in his 
district in the San Joaquin that is bringing a hundred-year 
level of protection through Stockton.
    Sometimes we can't always get all the protection we want, 
and we get what we can get, and to some extent that is what we 
are talking about here today.
    I have provided extensive information on the issues that 
you ask--I can never get it within the 5 minutes we have here. 
I see you have probably some questions with me with the boards 
that I have behind me, so I will probably be able to answer 
some of those.
    At this time a couple points I do want to make. The hundred 
eighty thousand cfs, it is called stepped release because it 
has a graduated response to the flood.
    For an extreme flood, yes, you release a hundred eighty 
thousand. For a less extreme flood, you release a hundred forty 
thousand. We have not had a flood occur from 1860 until today 
with a release to a hundred eighty cfs, so we have a hundred 
thirty years of record.
    The maximum release in the lower American River would be a 
hundred forty-five thousand, not a hundred and eighty thousand.
    And recalling the 1986 flood, we released a hundred thirty-
four thousand cfs down the American River. We are not making 
here a huge change in the existing condition that we have here.
    Now, I did prepare a chart, and I think you have copies of 
it. If you have chart one where I show for a hundred fifty year 
flood what the flows would be under various conditions.
    Under the existing condition at Folsom Dam, if we don't do 
anything, if we sit on our hands and don't do anything, we will 
have an outflow of three hundred and fifty thousand cfs down 
the American River.
    Now, I think my good friend Ricardo and Mr. Costa would 
agree that there is no levee that is going to withstand flows 
at three hundred fifty thousand cfs. As a matter of fact, the 
Sacramento levees will be destroyed, and there is a good chance 
the Yolo Bypass levees will be heavily impacted by flows of 
that magnitude.
    If we just fix the dam, we can lower that flow to about two 
hundred twenty, two hundred thirty thousand cfs down the 
American River. Again, the existing levees will be overtopped 
with a flow of that magnitude with heavy impact to the 
Sacramento Valley. The reliability is zero for passing that.
    If we do the stepped release, if we buy into the fact it 
can be maintained from a hundred and fifteen to a hundred and 
forty-five thousand cfs, and for an extreme event bigger than 
any event that is occurred before 1860, go to a hundred eighty 
thousand cfs, we can control that flow into the lower American 
River, and our geotechnical engineers--the Corps geotechnical 
engineer agree they can safely pass that.
    Now, the question was asked: What's the chance of failure 
with a hundred and eighty thousand cfs? The Corps was asked 
that question.
    I know there is always some risk but, in their risk and 
uncertainty analysis that they did as part of this project, 
they assigned zero probability for failure for a flow of a 
hundred eighty thousand cfs. When they were evaluating what 
level of protection should be provided, they applied zero in 
that study. The SPF, Congressman, you requested is the standard 
project flood, the two-hundred-fifty year flood.
    That is an interesting question because in 1996 it was the 
two-hundred-fifty year flood, but following the 1997 storm on 
the American River and the Corps redrawing its frequency curve, 
the standard project flood is no longer a two-hundred year 
flood.
    As a matter of fact, the stepped release plan that is 
before you today will pass over 90 percent--safely pass over 90 
percent of the standard project flood, so at one time, yes, it 
was a two-hundred-fifty year flood. That was before the Corps 
released their frequency curve.
    Downstream effects, I have a chart here--I can put it up if 
you'd like to see it--that shows all the work that will be done 
in the Yolo Bypass.
    Mr. Doolittle. Go ahead and put that up. That would be 
useful.
    [Discussion off the record.]
    Mr. Countryman. If I can stand up?
    The Fremont Weir is at the top of the system, and Rio Vista 
is at the bottom of the system, Congressman, but this chart 
shows where we are raising levees, where we are strengthening 
levees in the Yolo Bypass, and where we are widening the 
Sacramento Weir.
    In Yuba City, Congressman Herger's district, there is 
currently a project on the books that we are trying to move 
forward jointly as a region to strengthen those Feather River 
levees. In 1997, if the Feather River levee had not failed at 
below Marysville, a significantly larger amount of water would 
have arrived at Sacramento and gone down the Yolo Bypass.
    Sacramento is not opposed to fixing the levees in 
Marysville because there may be an increase in flow down, but 
that project is not talking about strengthening or raising 
levees in the Yolo Bypass. So I think, in fact, it is the only 
project being kind to the neighbors.
    My conclusion is I support Auburn Dam. I have always 
supported Auburn Dam. I continue to support Auburn Dam. I think 
it provides the most reliable flood protection and water supply 
that we can have in this area. I also now believe that it will 
not be a Federal project.
    We went before Congress twice. I testified twice in 
Congress for a Federal project, Auburn Dam. We lost, and we 
lost badly. If it is going to be built, it is going to be built 
as a state project.
    We have four hundred thousand people that desperately need 
flood control in Sacramento. We have to get on with it. We need 
the flood protection now.
    When Auburn is built, and it will be built some day because 
the water requirements will increase or flooding of the water, 
it will provide Sacramento even a greater level of flood 
protection on top of what we are now proposing.
    [The prepared statement of Mr. Countryman may be found at 
end of hearing.]
    Mr. Doolittle. Mr. Countryman, let me ask you: What do you 
believe is the standard project flood after the rescission?
    Mr. Countryman. Well, I give you the Corps' answer to that. 
The standard project has no frequency, that is because if you 
take the peak flow, it may have one frequency, if you take a 1-
day volume, but I am sure that it is less than the two hundred 
year with the new current Corps frequency here.
    Mr. Doolittle. Well, I will have to ask the Corps in a 
written question, I guess. I am intrigued to hear that they 
keep revising down our level of flood protection.
    Mr. Countryman. You have noticed.
    Mr. Doolittle. As that goes down, how do the standard 
project flood estimates keep going down?
    Mr. Countryman. Because they are not tied to frequency. It 
is a natural storm event with a certain flow, and a certain 
shake, and if the frequency curves change, you just have to 
read off the frequency curve at a new location. The flood 
itself doesn't change.
    Mr. Doolittle. But these are, at best, estimates of what's 
going to happen based on what has happened; right?
    Mr. Countryman. That is correct.
    Mr. Doolittle. What has happened in recorded history in 
this state doesn't go back all that far, does it?
    Mr. Countryman. Recorded with a hundred year historical, 
about a hundred forty, hundred fifty years.
    Mr. Doolittle. It is true the five largest storms on record 
have happened since the memorialization of Folsom?
    Mr. Countryman. By the way, I didn't mention in chart 
three, that I handed out as part of my presentation, the 1997 
flood was the largest flood on record since 1860, if we have 
any records at all. As far as I know, it is the largest one we 
have any knowledge of.
    I am showing on this chart three a comparison of the 1997 
flood as compared to the size of flood that could be protected 
against if you just repair Folsom, which is the red curve, or 
if you do the dam and levee plan, which is the blue, or if we 
build Auburn.
    I will note if we are able to do the stepped release or dam 
and levee plan, it will control the plan 70 percent larger than 
the 1997 flood, which is the largest flood. Seventy percent 
larger. We are not talking incremental. We are talking about 
flood. Seventy percent larger than the largest flood on record. 
To me, that is a significant improvement in the level of 
protection.
    Mr. Doolittle. But is it your belief that remains, 
nevertheless, less than the standard project flood?
    Mr. Countryman. Yes, it is.
    Mr. Doolittle. Let me direct your attention to one of those 
charts back there. Let's start with the one right behind you 
there, Folsom Lake impacts.
    I believe--I can't make this--``The stepped release plan 
would permanently cause intermittent lowering of Folsom to 
provide additional flood protection for Sacramento. Many 
California interests have temporarily accepted a lowering of 
Folsom as part of the SAFCA reoperation plan until a permanent 
flood plan is implemented. These same interests will strongly 
oppose permanent reoperation of Folsom Lake for flood 
control.''
    Mr. Countryman. I am hoping I am wrong, that they will 
strongly oppose, since I have written that the Countryman plan 
to reduce those impacts, and I think we have come a long, long 
way.
    One of the things we did by adding new outlets instead of 
lowering the spillway by about 25 percent, it should really 
reduce the impacts at Folsom Dam itself.
    The second thing I am currently doing, SAFCA has had me 
make contact with the Corps, the Bureau of Reclamation, and the 
state flood center to determine can we use the newest 
technology on forecast, any kind of forecast, satellite 
technology, anything. It is based on the way we did it when I 
started the Corps thirty years ago.
    I believe--I strongly believe that if we use the latest 
technology, we can reduce maybe as much as 20 percent the 
reoperation requirement at Folsom based on using that forecast 
and try to absolutely minimize the recreation and water impacts 
as Folsom.
    Mr. Doolittle. You referred to an earlier exchange between 
Mr. Enson and Colonel Klasse, but as I get it straightened out 
with them, in the hundred-sixty-year flood even there is a 40 
percent chance of failure.
    Are you disputing that?
    Mr. Countryman. I am not disputing it, but I am saying that 
is based on their values that assumed a zero percent chance of 
failure with a hundred eighty thousand cfs.
    Mr. Doolittle. So you, therefore, concur with Colonel 
Klasse and Mr. Enson, if you are not disputing it?
    Mr. Countryman. I don't like the R and U analysis. I will 
say I will accept the Corps' R and U analysis.
    Mr. Doolittle. You concur with 40 percent chance of 
failure?
    Mr. Countryman. I concur with my conclusion there is zero 
percent for a flow of a hundred and----
    Mr. Doolittle. Do you concur with their conclusion, if you 
accept their premises?
    Mr. Countryman. Honestly, I don't. It is a technical issue. 
Error bounds around the frequency curve. I am not challenging 
their integrity. I wouldn't do the analysis the way they did 
it.
    Mr. Doolittle. Let me ask you this: In using their analysis 
there was a 14 percent chance that the levees would fail in a 
hundred year event, using their same 14 percent failure for a 
hundred year, and 40 percent failure for one hundred sixty year 
event.
    What I want to ask you is what the Corps experts have 
determined, I guess, is this: This plan is safe, so safe that 
even after we spend half a billion dollars to build it, 
Sacramento will still have a 13 percent chance of flooding from 
a hundred year event, because that was their testimony.
    I accept the fact that these are sort of mathematical 
calculations that are not a 100 percent factual because they 
can't be. They are theoretical projections; right?
    Mr. Countryman. That is correct.
    Mr. Doolittle. Let me ask this: It is my understanding, 
using the Corps' risk and uncertainty analysis, until it has a 
90 percent chance of passing a hundred year storm--is that your 
understanding?
    Mr. Countryman. May I elaborate on that?
    Mr. Doolittle. Sure.
    Mr. Countryman. Let me give an example of the project. In 
Congressman's Pombo's district it was built for a hundred year 
level of protection, maybe a 50 percent chance of passing that 
flood, and under their new criteria they wouldn't be able to 
certify that.
    But they are actually certifying the project for us using 
the old FEMA criteria of three foot of freeboard on a hundred 
year flow, and they are able to certify the flow on that basis.
    If they use that same basis on the American River, they 
would be able to certify that too. It is the switchover to this 
R and U methodology; that is----
    Mr. Doolittle. I understand that, but they, in fact, have 
concluded that is a better way to do it.
    Mr. Countryman. I think Congressman Pombo would agree with 
that.
    Mr. Doolittle. But the point is the experts advise us under 
their--you can certainly challenge that. It is not cast in 
stone, but their best analysis is that this is the new approach 
that should be used; is that right?
    Mr. Countryman. Unfortunately.
    Mr. Doolittle. But Sacramento's won't get a waiver to do 
away with that?
    Mr. Countryman. Thank goodness.
    Mr. Doolittle. Do you know how it got such a waiver?
    Mr. Countryman. I would assume because we were in the 
process. The court just recently adopted this R and U procedure 
very recently. We have been in this process since 1990. I 
assume we have been grandfathered in because of that.
    Mr. Doolittle. Well, you have been fairly critical by your 
statements of this stepped release plan in the past, Mr. 
Countryman. Today you seem to be more enthused about it.
    Has something changed to cause this change of heart?
    Mr. Countryman. Yes. When I was convinced and hopeful that 
we were going to build an Auburn Dam, I could see all the 
weaknesses and all the warts of the stepped release plan.
    Now that I don't believe any longer that the Federal 
Government is going to step forward and construct an Auburn 
Dam, the stepped release plan looks pretty darn good, 
especially next to doing nothing, which is catastrophic.
    Mr. Doolittle. Why did you think doing nothing is----
    Mr. Countryman. I am open to any step, but I am saying if 
we don't build the dam, and that is where we are, the stepped 
release plan looks good. If there are other steps that make a 
lot of sense that we can move, but the stepped release plan 
looks good compared to where we are.
    Mr. Doolittle. Well, let me ask the question to you that I 
asked to my colleagues early: When this community floods, do 
you believe at that point the dam will then be built?
    Mr. Countryman. It may, but it sure will be a sad day.
    Mr. Doolittle. No question it will be a sad day.
    May I? Mr. Radanovich, can I have some of your time? I have 
used up half of it already, maybe most of it. Thank you.
    You have testified to Congress that although the stepped 
release plan theoretically meets the minimum of state 
requirement, it does not reach to Folsom Lake increased 
downstream system reliability of greatest concern. The stepped 
release plan will not provide adequate protection in future 
flood magnitudes.
    Which part of that, if any, do you disagree with? Setting 
aside the improvement of Folsom Lake due to the way you come up 
with, which I commend you for doing, the outlet works?
    Mr. Countryman. I agree with everything I said there 
relative to comparing this plan with Auburn Dam, and that is 
what I was testifying to before Congress. I was basically 
testifying in support of Auburn Dam, which is a better plan for 
flood control, but the stepped release plan is cost effective.
    It has a BC ratio greater than one. It can be made reliable 
if we to the downstream fixes, which we need to make sure that 
San Joaquin County and upstream--also our upstream neighbors be 
kept whole. It can be done reliably, and compared to where we 
are now, we would be in a much better situation regionally.
    Mr. Doolittle. Do you believe this stepped release plan 
provides us with increased flood protection, adequate flood 
protection?
    Mr. Countryman. Well, I don't think it is the final flood 
protection, but I think it is adequate.
    Mr. Doolittle. Even though it is less than the largest 
foreseeable flood that we can have?
    Mr. Countryman. Well, there is--what's foreseeable, let me 
ask you?
    Mr. Doolittle. I am using what the Corps says is 
foreseeable. They have all their wonderful calculations that 
are so difficult for mortals to understand.
    Mr. Countryman. I suppose if we were like the Dutch, we 
would have two-thousand-year level of protection. I don't see 
that has being affordable.
    Mr. Doolittle. What does the Galloway report recommend?
    Mr. Countryman. Galloway report stuck with the standard 
flood. This plan will control over 90 percent of the standard 
project.
    Mr. Doolittle. But this is not a standard project.
    Mr. Countryman. Not quite.
    Mr. Doolittle. When it isn't quite that, water runs over 
something.
    Mr. Countryman. I am with you. Maybe we will.
    Mr. Doolittle. I mean, when the damage is done, a hundred 
people or more drown. We have seven billion in damage. Those 
are the numbers. Maybe ninety people drown. Again, it is a 
theoretical projection.
    Then all of a sudden will we be looking from this ever 
happening again?
    Mr. Countryman. Yes. But I will tell you this: If we don't 
do something right now and get on with it, it is so likely to 
occur it scares the hell out of me. We need to take this 
seriously. We need to get this out of the gaming arena and get 
it into doing something to protect four hundred thousand 
people.
    Mr. Doolittle. I couldn't agree more. That is why we are 
holding this hearing.
    With that, I will recognize Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. The Federal Government 
sunk three hundred eighty million into Auburn Dam already.
    Mr. Countryman. I believe the--I don't know that number. 
That probably sounds close.
    Mr. Farr. Then the estimated cost of completing a dam is, 
someone told me, about eight hundred eighty more.
    Mr. Countryman. I use a billion-dollar number.
    Mr. Farr. A billion more. So it is--the total Federal 
investment will be about one point four billion, one and a half 
billion dollars?
    Mr. Countryman. Sounds about right.
    Mr. Farr. The stepped release plan is what you estimate for 
Folsom construction?
    Mr. Countryman. I don't have that number in mind. It is 
about five hundred million.
    Mr. Farr. That is including the levees or the dams?
    Mr. Countryman. That is everything.
    Mr. Farr. About a third. These two projects, one costs 
about one point five billion dollars. The other costs five 
hundred million, about one-third of the levee repair, and the 
stepped release plan is a third of that?
    Mr. Countryman. To be fair, the costs are sunk, and we 
probably ought to be looking at just the future expenditures. I 
use about half the cost of continuing on with Auburn.
    Mr. Farr. If I find myself in an awkward role, I am the tax 
and spend liberal, this is the fiscal conservative, and----
    Mr. Doolittle. Don't be penny wise and pound foolish.
    Mr. Farr. The question is--penny wise and pound foolish, 
that is a legitimate debate.
    I represent earthquake country. Big Sur Highway just fell 
into the sea. How do you build that highway?
    Nobody lost their lives, but business has been closed down 
from February 2nd to last Friday. I don't know where all this 
feedback is coming from. We are always--we as politicians, we 
have to play with this risk issue.
    I am just curious from a flood protection, this whole 
guesstimate of--because what your charts show is you have to 
have an incredible amount of rainfall. It has to occur within a 
very short period of time, and it has to create a runoff that 
is historical, and it all has to hit the same place in the same 
time in order to cause this disaster. Those are a lot of ifs.
    What I am also hearing about risk analysis, your analysis 
is we are much better off investing the money in the stepped 
release program and doing that now than waiting for this 
appropriation to finish the Auburn Dam, and that I think you 
also said that the Auburn Dam, if it ever was built, would be 
insurance, so essentially you need the stepped release plan 
anyway.
    Mr. Countryman. Well, I believe the Auburn Dam will be 
built some day, but it is probably 50 years from now when it is 
built.
    Mr. Farr. Those of us you will be buying water from us, 
salt-water conversion.
    Mr. Countryman. Maybe you are right, but I have lost the 
question. I am sorry.
    Mr. Farr. The question is sort of this penny wise/pound 
foolish on the risk issue. The insurance is the stepped release 
plan, which is 1 percent of the cost of the plan, that should 
be done anyway?
    Mr. Countryman. The benefit cost ratio is positive. It is 
something we can implement quickly. We can get those 
modifications to Folsom Dam done in 3 years. By the time you 
folks say go, we can get some real improvement to Sacramento's 
flood protection for the first time since 1975. We can do it 
quickly, and we should get on with it.
    Mr. Farr. No further questions. Thank you.
    Mr. Doolittle. Mr. Pombo?
    Mr. Pombo. Before we go on, Mr. Chairman, the question came 
up about the cost of the dam.
    Would you mind going through what the proposed cost was of 
the proposal that was before Congress last year?
    Mr. Doolittle. Well, the total cost--we wrote off the sunk 
cost pretty much. And the total cost of the dam, the Federal 
share, as I recall, was about five hundred and ninety million.
    I think the total cost was somewhat right around nine 
hundred million dollars, and again, it depends on the ultimate 
size of the dam. I believe that was for a dam that produced a 
one-point-two-million acre foot reservoir.
    Mr. Pombo. The Federal share was five hundred ninety 
million?
    Mr. Doolittle. Right.
    Mr. Pombo. What is that proposed share on this project?
    Mr. Doolittle. Well----
    Mr. Pombo. Mr. Matsui, what is the Federal share proposed 
of this project?
    Mr. Matsui. I think about two hundred ninety million 
dollars.
    Mr. Pombo. Let me just ask, Mr. Countryman, if you thought 
that this stepped release plan would definitely end the 
possibility of the Auburn Dam being built because we are 
dealing with limited resources, would you support it?
    Mr. Countryman. Absolutely. Because we cannot wait for the 
Holy Grail of Auburn anymore. We have too many people at risk 
here.
    Mr. Pombo. Even though you admit that the Auburn Dam is a 
better alternative, you would support it?
    Because it might end the possibility of Auburn being built.
    Mr. Countryman. Given your premises, yes, I support.
    Mr. Pombo. Mr. Pineda, in your testimony you talked about 
what some of the downstream impacts are, and you have heard Mr. 
Countryman's testimony as well.
    What, in your opinion, would be the increased costs?
    I know you have some concerns that maybe the plan that is 
been done so far doesn't have all of the downstream costs 
included.
    Can you share with the Committee what some of the increased 
costs are that you may be afraid of?
    Mr. Pineda. I think those can be broken into three 
categories. We put a lot of effort into developing the stepped 
release plan; the Corps staff, the Department of Water 
Resources, and the staff from the Sacramento Area Flood Control 
Agency, but we were developing three maps, so we did the best 
we could with the time that was available.
    And then, again, our experience of 1997/1998, I think, were 
taken a much more cautious approach to the repair of levees and 
the improvement of levees.
    So additional costs could be associated with which or how 
we go about strengthening the levees on the lower American 
River.
    We have certain elements already authorized: How much 
erosion protection do we need? What should be the final height 
construction of new levees? How we do deal with the right-of-
way issues upstream of Arden Way where it intersects the river 
east of here?
    There are homes that are kind of built on the waterside of 
the levee. Don't ask me how those got in there, but they are 
there, and we need to protect them. It would involve right-of-
way issues, maybe buyouts. I am not sure.
    The downstream work was done based upon certain assumptions 
and the R and U modeling and certain runs of frequency curves. 
At the time those change. The Sacramento Weir is where it can 
run a hundred eighty thousand down.
    As part of the stepped release plan, we have to make sure 
we are not dealing with that one hundred thirty thousand cfs 
between the one eighty and one forty-five.
    Mr. Pombo. Where would that go?
    Mr. Pineda. Some of that would--you have to compare it to 
the discharge that would occur if you didn't do the project, 
and if you did do the project, you'd be seeing one eighty. Also 
it is in a controlled fashion or uncontrolled fashion.
    There is a certain amount of how do you do the appropriate 
accounting, or what's the logic in what the impact would be as 
compared to what it is without condition. Some of that would 
have to go down the Sacramento River, and that has some of us 
concerned.
    Do we properly account for all the water? The stepped 
release plan, would it? What are your assumptions with and 
without conditions?
    We want to make sure the downstream levee, both on the 
Sacramento River and on the Yolo Bypass downstream and upstream 
is not made any worse, that we are not imposing that. We are 
not going to run in in one area due to the fact that we are 
trying to decrease, and we have struggled with--the Rec Board 
has struggled with this on various projects.
    We are looking at it on a project-by-project basis. The 
mitigation is something that is downright expensive now. It 
costs money, but it is a real part of the project, so we want 
to do some additional model runs and make sure we look at the 
project integrity as a whole.
    The third element would be the environmental impacts. Does 
the public really know that we are going to be putting this 
riprapping on the water slide slope of the levees and raising 
them on the American River, the Yolo Bypass, and through 
environmental accounting models called help analysis fish and 
wildlife--Fish and Game use that--have we properly accounted?
    We need to put some more focus time in before I would 
recommend approval of this project to the board. Not so much 
that we are against it, but that we feel we don't have the 
comfort level yet to make the recommendation.
    Mr. Pombo. After last year's floods, I got a list of 
problems with the levees in my district five pages long from 
the Army Corps, a very small percentage of those they were 
allowed to fix because of the nature of the funding that it 
could only go to fix what absolutely happened because of last 
year's flooding. They are fully aware that there are a number 
of problems with the levees.
    My concern is when you look at this hypothetical modeling 
that all of a sudden we start blowing levees downstream because 
we just can't handle it, and there is no provision made for 
fixing things that we know are wrong with the current levee 
system, and we are talking about putting a considerable amount 
of water through there, and it is my concern that all of a 
sudden this land that is out in the Delta becomes the 
mitigation for not being able to handle it.
    Mr. Doolittle. Thank you. Mr. Matsui is recognized.
    Mr. Matsui. Thank you, Mr. Chairman.
    Mr. Countryman, I want to thank all three of you for your 
testimony today. You were saying that Mr. Herger--if the 
Feather River had not broken last--in 1997 January when we had 
that occurrence, that was a memory of a hundred thirty year.
    Well, we haven't seen such a flood or rainfall in a hundred 
and thirty years that could have created problems for 
Sacramento County because that could have gone downstream 
through the Sacramento River; is that my understanding?
    Mr. Countryman. Yolo County more than Sacramento County 
because the Fremont Weir essentially siphons the greater bulk 
of the water off coming down from the Feather.
    Mr. Matsui. And that authorization doesn't take into 
accounting Yolo County, Mr. Fazio's district?
    Mr. Countryman. I am not familiar about the authorization, 
what the status is right now. They just have a feasibility 
report that is being published.
    Mr. Matsui. I appreciate what you are saying, what we are 
attempting to deal with.
    Mr. Pineda, do you have a problem with that?
    I know you don't feel comfortable with my plan, but you are 
comfortable or uncomfortable with what Mr. Herger is trying to 
do.
    How are you going to handle that?
    Mr. Pineda. The feasibility study, which has a recommended 
plan along the Yuba River and the Feather River to provide 
improvements to the Marysville area, we did jointly come to the 
conclusion with Corps of Engineers there were not significant 
downstream hydraulic impacts.
    Mr. Matsui. Sounds like Mr. Countryman may have a little 
difference of opinion there, and obviously the Corps with you 
in terms of my plan because they can mitigate. Obviously, that 
is why it is political, intentional----
    Why is your comfort level OK with what might happen down in 
Yolo but not OK with what might happen in the Sacramento/
American River issue?
    I mean, that kind of comfort is always--it is important, I 
know, but we are talking about science, I hope, because that is 
what your job is, I assume, but you are comfortable with the 
one that Mr. Countryman has a problem with and you are not 
comfortable with the other that the Corps seems to be 
comfortable with, although they base it on fact. Maybe you can 
help me.
    Mr. Pineda. The Yuba River feasibility study, from an early 
on stage, I am not sure at what point levee raising was going, 
the plan that provided the highest the Yuba River feasibility 
study, and we focussed on one plan, the 1996 report, which 
gives me--which does not give me the comfort level relative to 
the hydraulic looked at three plans.
    Mr. Matsui. We are playing a dangerous game here. All of a 
sudden I am going to have to have a comfort level out in Yolo 
County. We can all play games with each other. We have five, 
six Members of Congress in this region. If all of a sudden we 
want to play comfort games, we can play these comfort games. 
You want two-hundred year protection in your----
    Mr. Pineda. The board has passed----
    Mr. Matsui. Can you tell me how we are going to get that? 
Explain it to me. Give me the numbers. Where is the financing 
coming from? How are you going to get the--explain this to me.
    You can wish as much as you want. Give me some facts. You 
are an expert. Make this thing work because I would like to 
walk out of here saying ``We are going to build the Auburn 
Dam,'' and get three hundred plus years of protection. You 
can't tell me this now explain it to me.
    Mr. Pineda. Sir, I don't think I ever mentioned comfort in 
my testimony.
    Mr. Matsui. You did talk about comfort, so let's----
    Mr. Pineda. The 1996 report, which I was a part of, along 
with other staff, ran detailed hydraulic runs using the R and U 
analysis.
    Mr. Matsui. How are we going to transfer the land? How much 
is it going to cost? Where are you going to get the financing?
    You said you want two hundred years. Tell me how you are 
going to protect the people of this community with six hundred 
thousand people. I mean, you are coming here testifying now as 
an expert. Tell me how you are going to protect these people.
    Mr. Pineda. For two hundred year----
    Mr. Matsui. Auburn Dam, tell me how we are going to get the 
Auburn Dam? Give me something factual----
    Mr. Pineda. There are means. There is a certain amount of 
cost it would take for it to be there. Could be assessments, 
Congressman.
    Mr. Matsui. How much is that going to cost per household? 
Yuba County, Sutter County, El Dorado, or Placer or Sacramento. 
How are you going to apportion the cost to get two-thirds vote? 
Tell me how much it is per unit.
    Mr. Pineda. One billion to build the project, assuming----
    Mr. Matsui. My house is in south Land Park. It is worth 
about a hundred ninety-two thousand dollars. How much is it 
going to cost me annually?
    You must have that number. You must have done all the 
studies, and you don't like my plan. Tell me. You must know 
this number.
    Mr. Pineda. I am trying to go through the mathematics. 
Assuming a hundred thousand homes--would take a hundred 
thousand homes to generate a billion dollars--I am trying to 
work out the zeroes here.
    Mr. Matsui. Is it just Sacramento County or Yuba, Sutter, 
Placer, don't they benefit?
    Mr. Pineda. I work for the Reclamation Board, and the 
Reclamation Board is to look at the state's role. It would be 
cost shared essentially with--there is no formula right now for 
building a project for the Reclamation Board to participate in 
a new flood control project without the assistance of the Corps 
of Engineers, so new legislation would have to be passed. That 
legislation would have certain cost sharing formulas.
    Mr. Matsui. Do you know what the infrastructure--do I have 
to remind you? Do you know what the vote was on Auburn Dam.
    Mr. Pineda. I know it did not pass.
    Mr. Matsui. Thirty-five to twenty-eight. When I want to get 
into details, you don't want to talk. About, individual 
members, a third or half of them said they would not support it 
in the House.
    Assume we are not going to get that. Tell me how we are 
going to get Auburn Dam, two-hundred year protection. I want 
that. Tell me. You are opposing one of the most feasible plans, 
practical plans. Tell me how we are going to get it.
    Mr. Pineda. We are not opposing the plan. We are saying 
that we do not have the comfort level, quote, to recommend this 
plan or the implementation. It is a matter of when you do the 
advance planning, do you do it as part of the feasibility 
study?
    Mr. Matsui. Once you are satisfied with the Corps.
    Mr. Pineda. The Corps, it is collective process. It is not 
just the Corps.
    Mr. Matsui. You might be satisfied once the studies----
    Mr. Pineda. I might be.
    Mr. Matsui. In other words, you are not opposed to it. You 
may support it.
    Mr. Pineda. We may.
    Mr. Matsui. Great. Thanks a lot.
    Mr. Doolittle. Mr. Fazio?
    Mr. Fazio. Thank you, Mr. Chairman. I think it is fair to 
say there is a lot of work that is been done by a lot of 
parties that would ultimately come together on whatever is 
authorized was done on the premise we were going to build an 
Auburn Dam. Now we are refocussed.
    A lot of work has to be done on the refocus, that would 
include the Rec Board, as well as others, would have not gone 
back and done the work it would be necessary if we authorize 
this project.
    We have authorized projects that didn't even have a Corps 
report. If somebody was powerful enough to do it, I think we 
can proceed on this basis and for the comfort levels of all the 
various entities of the region, including Yolo County and 
others that might be impacted.
    Joe, you made a good point about the Yuba/Sutter work--I 
represent Sutter. Wally represents Yuba. We have worked 
together to improve those levees on the Feather, on the 
Sacramento. There is no question that that would have an impact 
down here.
    It is a dynamic environment we are operating in, which 
would reduce flows down to the Sacramento with what we would be 
doing on the American. But the point is well taken, anytime we 
take action there will be a reaction elsewhere.
    I want to thank you for your testimony because it really 
does, I think, focus us on the practical problem we face and 
the practical solutions that are before you.
    And I realize in your prior analysis done, because you 
favor Auburn Dam, you made some points that we have to deal 
with or that are permanent liabilities for what we are offering 
as an alternative, but I appreciate the fact that you have come 
to a conclusion that I think is extremely practical and 
feasible.
    Let me ask you this question: John is opposed to or at 
least at this point opposes the levee fixes below Folsom. He 
has come a long way to a Folsom reop, and you are in the lead 
of how we do that.
    But the question is: Why would we oppose the levee fix now?
    There are obvious questions of public safety. I think we 
have to resolve those, but there are those that believe that 
opposition to the levee fix is predicated on the fact that it 
would permanently limit--this is the implication of a question 
you had a minute ago--the ultimate Auburn Dam.
    You have, I think, implied earlier it's a question of water 
supply and the ultimate need for additional water, not only in 
the region but the state.
    Tell us why you think doing the levee fix in addition to 
the Folsom reop would not preclude the ultimate Auburn Dam 50 
years, whatever out in the future?
    How do you see that being built, and why would you not 
believe that a fatal decision on these levees would preclude it 
from occurring in the future?
    Mr. Countryman. Well, I didn't bring my crystal ball with 
me today, but I guess my belief is that the dam will be 
constructed because as we see our population grow to fifty 
million, sixty million, seventy million people in the state of 
California and the water pie being sliced thinner and thinner 
and becoming more and more difficult to survive with the 
limited amount of water we have in this state, that there will 
come a time when the wisdom of constructing Auburn Dam will be 
seen and it will be constructed. I mean, but that is what is 
going to drive it is the water supply.
    We made a run at it with flood control, basically for flood 
control. We can't afford it only for flood control. It has to 
be justified on a multiple purpose basis, and I think the 
multiple purpose that will drive the construction will be the 
water supply.
    Mr. Fazio. I have forgotten what the annual yield would be, 
but it's not a great deal, would be justified simply because it 
would be that dear to the state of California, and probably, 
Southern California residents.
    Mr. Countryman. When you don't have water, you will pay any 
price.
    Mr. Fazio. But your premise is on the decision to protect 
Sacramento. A hundred forty-five year, a hundred sixty is not 
going to prevent John Doolittle and his ancestors from building 
a water supply facility that would not only supply the Delta 
but his local constituents' needs as well, but it does not go 
to water pricing?
    Mr. Countryman. Right.
    Mr. Fazio. So your suggestion is we proceed with the best 
flood control project we can get politically, and in doing so, 
we don't write off the future potential for this project, given 
all the rehashing and redebating, which I am sure will quote 
what happened in the eighties and nineties.
    Mr. Countryman. I don't believe so.
    Mr. Fazio. Thank you.
    Mr. Doolittle. Mr. Pineda, you are the chief engineer to 
the state Board of Reclamation.
    Do you feel that a plan which has a 40-percent failure 
rate, if we get to the hundred and eighty thousand cfs, the 
maximum design capacity, the Matsui plan, do you feel such a 
plan is wise to implement?
    Mr. Pineda. The question that you ask me, Congressman, may 
need to be slightly rephrased.
    The 40-percent failure rate refers to a flood with a one in 
one sixty chance of occurring. The hundred eighty thousand 
would be--could be a smaller flood than that and thus have a 
higher reliability, so I guess I will answer it.
    Mr. Doolittle. Answer it with a hundred sixty years in 
mind.
    Mr. Pineda. The question is?
    Mr. Doolittle. Is it wise, in your opinion?
    Mr. Pineda. My opinion is: If the water is going to come, 
something is better than nothing. But you don't want to build a 
plan that you don't have all the elements fully thought out or 
fully analyzed.
    It goes to the point that I am not against the stepped 
release plan. I don't have enough facts relative to its extent. 
What are all the different pieces to recommend approval at this 
time?
    Mr. Doolittle. Mr. Rabbon testified that raising levees to 
increase carrying capacity to the channel of the American is 
without precedent.
    Is that your belief to increase the carrying capacity of 
the channel was unprecedented on the American----
    Mr. Pineda. Mr. Rabbon also stated that was based upon 
changing the objective release of the reservoir. On the board, 
on a regular basis, I am involved with reviewing permits 
associated with levee raising.
    Mr. Doolittle. Let me rephrase it on the objective release. 
That is what I meant, how I meant to phrase that question.
    It would be unprecedented to raise the levees in order to 
accommodate an increase in the objective release from the 
reservoir.
    Is accommodating an objective release----
    Mr. Pineda. If there is a better alternative, I would go 
with an alternative that releases more on upstream storage.
    Mr. Doolittle. Is it your belief that there is a better 
alternative?
    Mr. Pineda. Technically there is a better alternative out 
there.
    Mr. Doolittle. That is what?
    Mr. Pineda. The detention dam at Auburn.
    Mr. Doolittle. I couldn't give the answer to Mr. Matsui's 
question which jurisdiction pays how much. It doesn't mean it 
can't be done. I was waiting for you to give him the answer. It 
would save me a lot of work.
    Mr. Pineda. The plan that provides the highest protection, 
the greatest amount of net benefits is well documented in 
various reports, and the last one being the 1996 Corps-State 
SAFCA report.
    Mr. Doolittle. Does the Galloway report, is that something 
you worry much about?
    Mr. Pineda. I have read portions of it, and I have heard 
General Galloway speak many times.
    Mr. Doolittle. He urged communities to seek a level of 
five-hundred-year protection.
    Mr. Pineda. That is correct.
    Mr. Doolittle. He indicated that communities in urban areas 
should not rely on levees as their primary means of flood 
protection. Mr. Matsui will argue that we are not doing this 
because we have a dam involved in this.
    It seems like most of the emphasis in terms of new 
improvements will be more if the flood controls will come, the 
added level of flood protection, meander belts, will be great. 
We will send notices to all the mayor's constituents in the 
city of Sacramento, see how they like that. Mr. Pombo doesn't 
like meandering belts, I apologize.
    Flood insurance: Do you think it's bad that people have to 
pay a vast increase in flood insurance now that the flood 
protection is under a hundred years?
    Mr. Pineda. My opinion relative to flood insurance is if 
you live behind the levee, you should have flood insurance 
because you may have greater than hundred years or somebody may 
have certified you have greater. If you live behind the levee, 
there is an increased chance of levees breaching. Flood 
insurance is a wise investment.
    Mr. Doolittle. You indicated that there are houses built on 
the waterside of the levee.
    Which jurisdiction would have approved that?
    Mr. Pineda. I shouldn't be embarrassed to admit it was 
probably the Reclamation Board, the group I work for. Through 
our encroachment permit process, up to twelve homes were built.
    That was based upon after the construction of Folsom Dam at 
the end of the sixties--or I am sorry--at the end of the 
fifties. They essentially thought the planners, the people at 
the time, that Folsom could control the outflow to the American 
River to a two-hundred-and-fifty-year event, and so the 
objective release was set at one fifteen. These homes are set 
significantly away from the one thousand.
    Now, if we change that to one hundred eighty thousand, 
water does encroach, and we need to relocate them or build 
flood walls. I think flood walls and new levees was part of the 
alternatives in the report.
    Mr. Doolittle. I will conclude my questioning with this: 
Forty-five years ago or so, all of you experts told us that we 
had a level of two-hundred-fifty-year protection, with the 
authorization of Congress, with the building of Auburn Dam.
    It's now seventy-seven years instead of two hundred and 
fifty. That is quite a dramatic reduction from what the experts 
thought it was, and I am not running down the expert, but it 
does strike me as a layperson involved in making this policy.
    I would like to have your reaction to this that sometimes 
we get so caught up in all of these numbers and theoretical 
models we forget it's a rather imprecise science, if, indeed, 
it is a science, and that based on past history, the outcome 
can be radically different than we think at any given time.
    Would you agree with that?
    Mr. Pineda. I would agree with that. We definitely did 
not--the 1997 event was a very scary one, as others have 
testified.
    If it was centered over the American River watershed, we 
would have seen significantly higher flows. That is why we 
strive for, whether it's ones we are building or get the levees 
as high as you can, if that is a feasible alternative.
    Mr. Doolittle. You should err on the side of caution, would 
that be your belief, based on what you know of this process?
    Mr. Pineda. Yes.
    Mr. Fazio. I just thought to say: Historically, there were 
a number of occasions when we inflated the value of flood 
protection to increase the Federal contribution.
    I don't want to say we were lying with statistics, but we 
were doing what we could do to make a project feasible.
    There were a lot of taxpayer groups that were critical of 
that over the years, and with the right to be so, and then we 
realized what our real benefits were, and we say ``Oh, my God. 
They were inflated.'' There wasn't total capriciousness 
involved here. This was an occasion, the way in which the 
Federal contribution was increased, so this is not unheard of.
    Mr. Doolittle. You mean politics was coloring all of this 
back then, not just now?
    Mr. Fazio. Probably a lot back then, but we should not be 
shocked nor dismayed.
    Mr. Doolittle. Mr. Farr, do you wish to ask further 
questions? Anybody else? OK. All right.
    Well, gentlemen, thank you very much. That wasn't too bad, 
was it?
    Mr. Countryman, thank you very much for appearing. We may 
have further questions, and we will submit them in writing if 
we do and ask them to respond.
    [A brief recess was taken.]
    Mr. Doolittle. Ladies and gentlemen, thank you for this 
change, of course, in midstream here.
    We invite panel three to come up: Mayor Serna, Mayor 
Miklos, Chairperson Johnson of SAFCA; Mr. Montemayor, 
Councilmember from West Sacramento; Mr. Barber, San Joaquin 
County Supervisor.
    Let me ask you gentlemen to stand up, and do you solemnly 
swear or affirm under the penalty of perjury the responses made 
and the statements given will be the truth, the whole truth, 
and nothing but the truth?
    Let the record reflect that each answered in the 
affirmative.
    We thank you for sticking with us through lunch, and we are 
glad you are here. We will begin our testimony with the 
Honorable Joe Serna, Mayor of Sacramento. Mr. Serna?

        STATEMENT OF HON. JOE SERNA, MAYOR OF SACRAMENTO

    Mr. Serna. Thank you, Mr. Chairman. Let me say that I 
represent the city that is probably more at risk anywhere in 
the United States regarding flooding.
    As you know, when the city was founded, it provided flood 
protection in an era where there was an effort that prevailed 
in the country. In order to protect yourself, you either 
incorporated, either as a municipality if you had an urban 
population, or you were a flood district if you were 
predominantly composed of farm land.
    We in the city no longer use a policy of pushing our water 
and making it somebody else's problem. That is why we have 
formed SAFCA, and our SAFCA chairman is here today.
    We know that the plan that Congressman Bob Matsui proposes 
is a plan that is wholeheartedly endorsed by the city council 
as a SAFCA plan.
    You have asked me to address several issues. I will 
summarize those. My testimony--you have the written testimony 
already before your Subcommittee.
    You raise the question of delays on the commute across 
Folsom Dam. The strategy advocated by Joe Countryman should 
avoid any delays in the daily commute across the bridge.
    You already questioned him, so I will refer you to him 
without me supplying any additional testimony. We rely pretty 
heavily on his testimony.
    The issue has been raised about water supply. We have 
sought to meet the legitimate water needs of local and regional 
water users, like my colleagues from San Joaquin, out of 
discussions organized by the Water Forum.
    By the way, the Water Forum, as you know, is the city of 
Sacramento's response to behaving like the regional leader; 
that is, we have water rights that are very extensive, and we 
are in the process of developing a regional water plan so we 
may all share the city's water rights, not only with the city 
of Sacramento, but we would do with Elk Grove for the last 17 
years.
    I know there are many that have pinned all their hopes in 
El Dorado and Placer Counties and upstream communities by the 
use of a multipurpose dam, but that is years away at best. As 
we have heard today, Congress has failed to support it.
    Like many of us have testified this morning and this 
afternoon, we believe that it is important to understand the 
interests of our upstream and downstream neighbors. We have 
made good faith efforts through the Water Forum to do so, so 
for us it's not just a concern. We have actually put up money 
from our general fund and that process continues.
    We hope that members of this Subcommittee will understand 
that we continue to make every reasonable effort to continue 
that sharing of water, but we must also separate the demand for 
water to support new growth in outlying areas for flood 
protection. It's unfair to hold four hundred thousand residents 
hostage for the dream of unlimited water for regional sprawl.
    The reliability of the proposal you have asked me to 
address as well, and no proposal is a 100 percent reliable. Let 
me instead focus on the greater hazards of doing nothing.
    As I mentioned, we have evidence that our level of flood 
protection is not as great as it should be. Let me also say if 
in the case of a catastrophe, flooding along Highway 50, the 
lowest parts of our levee system, or Highway 99 were to flood, 
that Mayor Miklos and his residents would be at risk here.
    Not so much from flooding, but it would put Intel at risk 
because they would not be able to receive their goods and 
supplies. They operate on a very, very short time line to 
receive material. They have a twenty-four-hour turnaround to 
receive material. A flood would shut all that down and have 
drastic effects on Folsom. It involves safety of all of our 
people.
    Currently the gate overflows that we have heard this 
morning on whether we should run the American River at a 
hundred and eighty cfs is really a capacity issue for me. I am 
not going to get into the detailed engineering issues because I 
am not an engineer, and the discussions that I have heard this 
morning regarding that capacity is important to understand.
    Here's an analogy regarding ambulance service: They don't 
want us to have ambulances that do 30 miles an hour. They want 
us to have ambulances that do 50, 60 miles an hour in order to 
be there to save lives. That is the capacity issue. That is 
what a hundred eighty cfs means to me.
    It's an apt description to say that capacity issue is flood 
protection in our city. We are a leveed city. As a leveed city, 
we have lived with floods since the foundation of the city of 
Sacramento.
    To you, Mr. Chairman, when you ask for my support in the 
last awarded legislation, both Mr. Matsui, myself, and others, 
especially in my case, I still had serious doubts about the 
Auburn Dam, and in order to create that regional consensus that 
you desperately were looking for, I gave you my support because 
I thought what's important is not a political opposition for me 
that ought to drive my thinking.
    What ought to drive my thinking is the lives of four 
hundred thousand people in my city, not some ecological public 
safety.
    Flood control continues to be the city of Sacramento's most 
important public safety infrastructure problems. The SAFCA plan 
that we support provides us with the short-term need of flood 
protection.
    I don't know if the state of California is going to pick up 
the cost for the Auburn Dam. Certainly when we testified before 
your Committees or committees in Congress last time the yes in 
a bipartisan way said Auburn dam's not in the making, so what's 
the price?
    Do we say then that we are not going to support Congressman 
Matsui's bill for some reason or another? If we do so, does the 
claim for the Auburn Dam goes away? I don't think so.
    Like Joe Countryman, I think we want it all. We want to fix 
up the gates and the modifications to Folsom Dam and we want 
the levee improvements and some day the Auburn Dam, but to hold 
us hostage for that thought or that dream is frankly not right 
and borders on irresponsibility. It's something like saying 
``Let's lay off the military and then pray for peace.'' That is 
not something that can happen.
    We are in an immediate danger. All of the flooding that we 
saw on television from cities across the country reminded me, 
and I hope reminded all of you, of the tremendous risk that our 
city faces in the very near future.
    While Congressman Matsui's bill may not solve all the 
problems, he admits that it's a legislation we need. If we 
don't have that legislation, we will have nothing. That is not 
acceptable to me.
    We are here as elected officials and as politicians, and I 
am reminded when we are criticized as politicians that we 
really do not address the public's needs. Because of politics 
we can sustain. We are not up here legitimate--I hope. Real 
lives are at stake. I am the mayor of a city that is most at 
risk anywhere in the United States.
    Like we supported you, Mr. Chairman, in 1992, I would hope 
that you would support me and Congressman Matsui. If the time 
came for the Auburn Dam, it would be possible we would be there 
if we talk about five hundred, but to say that we are not going 
to have anything, to say we are not going to support the Matsui 
bill is unfair to my city because the only conclusion that I 
can come to as the mayor is my city is being held hostage. And 
why can't I have reciprocity? Why can't I have the same kind of 
support I gave you, Mr. Chairman, very gladly, because it was a 
problem that needed to be solved?
    So today in the name of the people of the Sacramento, I am 
asking you for that support to get the Matsui legislation 
passed, to work with our Congressman. You worked with them 
before. We worked together before.
    SAFCA has made the right decision. Muriel Johnson, the 
chairperson, you will hear from SAFCA, had a difficult decision 
to make. I applaud her. We need her support, and we need your 
support.
    As for my colleagues here today with me in local 
government, the mayors that are here, Steve Miklos, if he was 
the mayor of Sacramento, I bet he'd be arguing the same points 
he argues today, that we need flood control as soon as 
possible.
    Let me close by saying that I hope that this issue will not 
devolve into a divisive debate over Auburn Dam or nothing. That 
would truly divide our community, and I am afraid that the 
issue would pit one community against another. That is wrong.
    We are leading in that area. We know that if we work 
together we can make our communities secure. We will not be 
able to do that if this debate is a debate over the Auburn Dam 
or nothing, and the people of Sacramento are put at ultimate 
risk.
    I hope, Mr. Chairman, that will not be the case. Thank you.
    [The prepared statement of Mr. Serna may be found at end of 
hearing.]
    Mr. Doolittle. Thank you. Our next witness is the Honorable 
Steve Miklos, Mayor of Folsom. Mayor Miklos?

        STATEMENT OF HON. STEVE MIKLOS, MAYOR OF FOLSOM

    Mr. Miklos. Thank you, Mr. Chairman. I am the mayor of the 
city of Folsom. I guess I should be pleased as much as I hear 
the name of Folsom being thrown. In fact, I am a little bit 
disappointed.
    I appreciate the opportunity to appear before you in the 
late hour, it's now this afternoon, and respect for your time 
limits, Mr. Chairman. I will try to keep my issue related to 
the proposed modification of Folsom Dam, which is very obvious, 
it has a profound consequence to the city of Folsom.
    As I said, I would like to thank, certainly, Congressman 
John Doolittle for his support and efforts, and he has 
definitely taken a good cause, such as the case was with the 
gate failure in July 1995.
    As I said before, any proposal to modify Folsom Dam 
obviously has serious and profound implications for my city and 
its forty-five thousand residents.
    Obviously, my concern in the 4 hours I have been sitting 
here, I have yet to hear anybody tell me what they are going to 
do to mitigate our concerns.
    I was pleased my message back in October 1995 was finally 
heard, that the Folsom Dam Road is a real concern. I am the 
only person who can sit in this chamber and say that we have a 
quantifiable effect that we had to live through when there is 
any work to be done on Folsom Dam. Nobody else can sit here and 
say that.
    We had to live every single day--as I was told when that 
gate broke, it took darn near 2 years to fix. That is a 2-year 
fix for one gate and some modifications to repair and/or check 
or grease up a few of the others.
    Obviously you can hear in my tone a little bit more than 
concern about not hearing what the mitigations for the city of 
Folsom are going to be.
    To kind of refresh: Currently there are only four lanes of 
traffic connecting the two halves of our city, and two of those 
lanes are obviously on top of Folsom Dam.
    To reiterate: Folsom suffered severe economic consequences 
in 1995 and 1996. I know that the Subcommittee's aware of it 
because I testified to that fact in 1996.
    Since that time, our traffic coming out of the foothill 
region has substantially increased and daily trip traffic, 
about twenty-five thousand a day, everyone knows those 
foothills and that traffic continues to grow from that region 
is the Folsom Dam Road.
    Therefore, I would suggest at a minimum, before serious 
consideration is given to modifying Folsom Dam, that a firm 
commitment be made to the city of Folsom that a replacement 
bridge be built across the American River just below the dam 
before--I want to say that--before any modification work 
begins.
    And quite frankly, my city is considering that to be the 
least of the solutions we will accept before you start 
modifying Folsom Dam.
    Having said that, I want to reiterate resolution in support 
of Auburn Dam as a most complete and best overall solution to 
the threat of flooding. No other modifications of Folsom Dam or 
improvements to the levees can come close to providing a level 
of flood protection as Auburn does.
    It appears to us that spending a hundred million dollars on 
what amounts to merely stopgap measure is not prudent.
    Our city, obviously, is concerned about recreational 
activity and its accompanying economic base. The lake levels at 
Folsom play a critical role in recreation activity. Again, I 
did not hear any mitigation levels to offset that impact.
    The best and most permanent way to stabilize our lake level 
is to build Auburn dam, not through a modification of Folsom, 
which allows more water to be evacuated faster.
    Any consideration of modification to Folsom Dam should also 
include consideration of public safety, particularly the 
effectiveness of police and fire access.
    When the dam road is impeded, there are additional 
pressures put on our fire department associated with having 
sufficient emergency equipment located on the other side of the 
river, or to provide specifically when one engine company or a 
paramedic company is out we have to--in this case we have to 
double up, which means the south side of the river, perhaps, 
should be short.
    We basically have to do this with our police in order to 
keep the regular presence necessary to cover that side or the 
south side of the city.
    Further, we belong to a mutual aid capacity to the 
Sacramento Fire Command Center, as well as police. By closing 
the dam road, it reduces our ability to provide and receive. I 
want to say that again: Provide and receive mutual aid from 
other jurisdictions.
    The city of Folsom is very mindful of the need for flood 
protection for our neighbors downstream in Sacramento. I have 
always gone on record that we have always supported a 
combination of plan and fixing the levees and strengthening of 
the levees.
    Currently we are aware that the entire region would suffer 
greatly, as Mayor Serna has reiterated, if Sacramento were 
flooded. We are strongly supportive of effective and permanent 
flood protection for the city of Sacramento.
    The city of Folsom commends the Chairman, members of the 
Committee, and particularly Congressman Matsui. Thank you for 
examining all aspects of flood control in our region. The 
issues involved in this hearing are of paramount concern to our 
community and everyone involved. Thank you.
    [The prepared statement of Mr. Miklos may be found at end 
of hearing.]
    Mr. Doolittle. Thank you. Our next witness is the Honorable 
Muriel Johnson, and she is accompanied by Butch Hodgkins.

        STATEMENT OF MURIEL JOHNSON, CHAIRPERSON, SAFCA

    Mrs. Johnson. Good afternoon, Chairman Doolittle and 
California Members of Congress. I am Muriel Johnson, Chair of 
the Sacramento Area Flood Control Agency, better known as 
SAFCA. I have preferred to call it SAFCA with the emphasis on 
``safe.''
    There are really nine members or were nine members of the 
board here today. Lots of them had to go back to work, but we 
had a full house today.
    We appreciate the opportunity to appear before your 
Committee in connection with the Water Resources Development 
Act of 1998. The Committee's invitation to testify asks for our 
views on the follows issues related to the proposed 
modifications:

    Traffic impacts caused by construction on the dam road; 
impact on local water; any other safety concerns of releasing a 
hundred and eighty thousand cubic square feet per second; the 
effects on downstreams and upstream communities; and 
environmental consequences of the proposal.
    Because of the importance for the Committee to appreciate 
the context of which these issues arise, I want to--some of it 
you have already heard today. When you come third, a lot of 
things bear repeating.
    No metropolitan area in America faces a graver threat of 
flooding than Sacramento where four hundred thousand residents, 
the state capitol, and one hundred sixty thousand occupy a vast 
floodplain.
    Economic losses from an uncontrolled flood are estimated to 
range from seven to sixteen billion dollars, depending on the 
magnitude of the flood event, and as has been stated many times 
today, without substantial improvement of the existing flood 
control system, there is approximately only one chance in 
seventy-seven that Sacramento will be flooded from the American 
River in any year.
    The bar keeps being lowered for us. This annual risks, 
cumulative risk, over the next thirty years of one chance in 
three a home in the floodplain more likely to be damaged by a 
flood than an earthquake.
    In response to the record floods of 1986 and 1997 and 
Congress' decision not to authorize a comprehensive flood risk 
reduction program for Sacramento involving the construction of 
a new onstream storage facility, SAFCA has concluded that it is 
incumbent to seek as much flood protection as possible through 
incremental improvements to the existing flood control system.
    During the past 8 years, SAFCA has spent a hundred million 
dollars in local funds for planning, administration, and 
construction of incremental flood control improvements, and 
increased space available in Folsom Reservoir are, again, 
incremental.
    And I stress that structural modifications to Folsom Dam 
designed to improve the efficiency of flood control operations 
and levee improvements designed to increase the capacity of the 
American River channel so as to allow dam operators to step up 
in the event of a very, very large flood.
    These modifications are generally described in the Corps of 
Engineers American River Watershed Project 1996 report, which 
provides a comprehensive analysis of flood control options 
along the American River, which was prepared to assist Congress 
in an American River flood control program and is the report 
with which the administration, in recommending authorization of 
the next step plan----
    With regard to the specific issues of concern to the 
Committee, we believe that with some adjustments in the design 
of the improvements described by the Corps of Engineers, they 
can be implemented in a manner which minimizes impacts.
    These modifications, which are outlined in the SAFCA 
Information Report which we issued last February, the proposed 
dam and levee modifications can be implemented in a manner 
which minimizes traffic impacts on the dam road, Mr. Mayor, 
during construction. This would avoid most of the adverse water 
supply and environmental impacts.
    I am also a member of the Joe Countryman fan club for his 
looking at new ways to add water protection at Folsom Dam.
    Once these new outlets were completed, the amount of flood 
control, which in turn would further long-term impacts on water 
supply. Joe Countryman has discussed all of the increased 
releases through downstream levees; however, I think it is 
important to understand that these increased releases will 
occur whether or not the levees are modified. The water is 
going to come down, controlled or uncontrolled.
    SAFCA's goal is to improve the levees so that the dam 
operators can increase flows to a hundred and forty-five 
thousand cfs, and that is for most storms, and a maximum of a 
hundred eighty thousand for severe storms through emergency 
releases, if you will, not to be run every day of the week.
    With respect to the impacts on other communities, SAFCA has 
long realized it could not and would not want to higher 
necessities mitigating for impacts on other communities. SAFCA 
began discussing this in Yolo and Solano Counties in 1994. We 
have had several agreements in the past, and we are committed 
that we will incorporate into any proposal those improvements 
with no increase in flood risk to other communities. That 
simply would not be the right thing to do.
    Now, it's nearly time for you and Congress to make a 
decision, and it truly will be in your hands, not ours. A 
comprehensive analysis of available flood control options for 
Sacramento was presented in the 1996 Chief's report.
    I know that could be controversial, and we will answer 
questions later, and it was not free from technical 
uncertainties or organized opposition to some of the options 
presented, nor are the lands today free of the very same 
objections.
    I wanted to mention too, when I heard so many people 
talking about consensus, I needed to say some of the consensus 
I know and I see is when I walk through the district I 
represent along the American River and watch the people on 
those levees and when they say ``Why can we not have flood 
protection? Get out there and work for it,'' I under consensus. 
I understand consensus of constituents that live in the 
floodplain. There is a consensus there.
    And I also wanted to say that we have talked so much about 
whether or not--and in fact, the only negatives I have heard 
today are people more hesitant to commit to what is happening 
before we actually tackle the levee repair and the raising of 
the levees. It's because people don't know exactly what's going 
to happen.
    But the fact is being a little bit part of government now, 
and I am sure all of you agree, is there anything government 
hasn't studied to death?
    There will be studies, studies of the studies. There will 
be research. Nothing could happen until we were terribly well 
prepared, and all the studies have been approved by all 
authorities.
    The issues to be decided in this instance are not unique to 
the American River basin, and I wanted to point this out, other 
urban areas in the Central Valley are moving forward with 
incremental improvements which are in principle 
indistinguishable from those proposed for Sacramento, and I 
wanted to give an example.
    I note in Stockton, but I hear there will be fifty-one 
miles of levees being built by the city, paid for probably, and 
West Sacramento will have levees providing some two-hundred-
fifty year protection. We have heard about the Yuba basin 
seeking flood protection from levees. I just want to know: If 
levees are so unsafe, why are we building them in so many other 
counties and cities?
    With that, the red light is on.
    I wanted to conclude by saying we really are a community at 
high risk, high risk of losing lives. We would like to have had 
four-hundred-year protection of the Auburn Dam, but the votes 
were not in Congress, and it appears from all the information 
we get from all of you that that project is not in the 
foreseeable future way down the line.
    SAFCA still believes we need two-hundred-year protection, 
and we are asked that frequently. These improvements bring us 
to a hundred and sixty years, but isn't that better than 
seventy-seven?
    Nevertheless, we understand that just as they have lowered 
us from two-hundred-year protection, which we thought we had, 
to one-hundred-year protection, now we have been lowered to 
seventy-seven-year protection.
    That means that we will continue to fight for whatever 
protection we need to have in this community, and we know that 
eventually they'll lower that too. We will get to a hundred and 
sixty, and before we know it, there will be--this truly is an 
interim step of great need.
    It's an enormously frightening fact to think that the plan 
we are talking about today could take up to ten or twelve years 
to be built, but it's far less frightening than taking no 
action to protect four hundred thousand Sacramento citizens. 
Thank you very much.
    [The prepared statement of Muriel Johnson may be found at 
end of hearing.]
    Mr. Doolittle. Thank you. The next witness is the Honorable 
Mark Montemayor, councilmember of the city of West Sacramento.

STATEMENT OF HON. MARK MONTEMAYOR, COUNCILMEMBER, CITY OF WEST 
                           SACRAMENTO

    Mr. Montemayor. I assure the Committee that after a very 
long and tedious and emotional testimony that I promise to 
conclude my statements before that green light thing turns 
yellow.
    My name is Mark--good afternoon, Chairman Doolittle and 
members of the Subcommittee. My name is Mark Montemayor. I am a 
city council member from the city of West Sacramento.
    The city of West Sacramento is downstream from the proposed 
improvements to both the Folsom Dam and American River levees. 
Since West Sacramento is completely encircled by water during 
periods of high water, increased flows in the American River 
will have a direct impact on our flood protection capabilities.
    Our levees on the Sacramento River as well as the levees in 
the Yolo Bypass will be additionally challenged to protect our 
citizens from the additional flows from the American River.
    City representatives from the city of West Sacramento have 
had several discussions with the Sacramento Area Flood Control 
Agency regarding the current proposals before Congress. We have 
expressed to them the same concerns that we wish to share with 
you today.
    The current maximum discharge from Folsom Dam to the 
American River is one hundred fifteen thousand cfs. In 1986 the 
actual discharge was about a hundred and thirty thousand cubic 
feet per second due to the high inflows which brought the 
reservoir to near capacity.
    The discharge at that time was very near the maximum 
carrying capacity of the levees along the American River. This 
SAFCA proposal would result in the American River levees being 
able to carry the release of as much as one hundred eighty cfs, 
if necessary.
    The improvements to Folsom Dam would improve to a degree 
our flooding protection, inasmuch as they would allow earlier 
release from the dam in the event of a major event. This could 
very well help to avoid at least a part of the problem that 
occurred in 1986 by allowing water to be released earlier.
    The first concern we have regarding this dramatic increase 
in flows down the American River is the lack of adequate 
engineering studies on upstream and downstream properties in 
Yolo County. There are many of us in West Sacramento and Yolo 
County that do not believe sufficient analysis of these impacts 
have been undertaken.
    A great deal of engineering analysis must be done to 
determine the ability of the downstream levees to withstand 
these additional flows. We would expect that such analysis 
would identify the work needed to mitigate downstream effects.
    It is our belief that such mitigation should be undertaken 
and completed prior to the upstream improvements. We also 
believe that these improvements should be part of the Federal 
project and the downstream users should not have to bear the 
costs of the mitigation created by these increased flows.
    The city of West Sacramento has taken great steps in being 
able to protect our city from the danger of flooding. We are in 
the final stages of levee improvement projects, in conjunction 
with the Federal Government, that will bring our community to a 
four-hundred-year flood protection level if the Auburn Dam is--
if and only if the Auburn Dam is constructed. If not, the city 
of West Sacramento will experience a two-hundred-fifty-year 
level of protection.
    It is not our city's intent to get involved in the debate 
as to what adequate flood protection is for the city of 
Sacramento. Those are the decisions for Sacramento and SAFCA to 
make. Our only intended involvement is relevant to how such 
measures may impact us.
    It is our intention to work with our neighbors to ensure 
that any increased flood protection they provide for themselves 
will not increase the risk to the people of West Sacramento.
    Thank you very much for your time and I look forward to 
answering your questions.
    [The prepared statement of Mr. Montemayor may be found at 
end of hearing.]
    Mr. Doolittle. Thank you. Our final witness in this panel 
is the Honorable George Barber, member of the San Joaquin Board 
of Supervisors. Mr. Barber?

       STATEMENT OF GEORGE BARBER, SAN JOAQUIN SUPERVISOR

    Mr. Barber. Members of the Subcommittee, it's my pleasure 
to join with you. I am chairman of the board of supervisors in 
San Joaquin County.
    San Joaquin County is immediately south of Sacramento 
County and includes 40 percent of the Sacramento/San Joaquin 
River Delta. All flood flows generated from waterways in the 
Sacramento and American River basins eventually flow through 
San Joaquin County on their way to the San Francisco Bay. We 
are very concerned for our safety and preservation of existing 
flood protection facilities.
    The proposed modifications to Folsom Dam currently being 
considered include increasing the maximum release from Folsom 
Dam to one hundred eighty cfs. This flow rate is substantially 
higher than flow rates for which the flood protection system 
was designed.
    It's extremely important that, in the analysis of higher 
flow rates, the analysis not end at the confluence of the 
American and Sacramento Rivers, but be carried out through the 
entire system. The analysis must include the determination of 
impacts on the Delta levees and provide mitigation for their 
impacts.
    The higher flow rates, longer flow durations, and higher 
flow elevations through the levees in northern San Joaquin 
County, and throughout the Delta, must be treated as an 
integral part of the project. The impacts must be clearly 
defined to the understanding of all, and these impacts must be 
mitigated as part of any proposed project.
    Previous considerations of a dam at Auburn on the American 
River would not require the significantly higher flood flow 
rates, and in fact, would probably allow them to be reduced, 
thus not only providing flood assurance for the Sacramento 
metropolitan area, but would also relieve our concern regarding 
higher maximum flow rates.
    Auburn Dam has historically been a key feature in providing 
an adequate water supply for San Joaquin County. The authorized 
project to construct both the Auburn Dam and the Folsom South 
Canal would have provided sufficient water supply to San 
Joaquin County to relieve the critical overdraft in the eastern 
San Joaquin groundwater basin.
    The development of this project was delayed for a number of 
reasons. The reasons include changing Federal positions 
regarding the support of the project, implementation of the 
National Environmental Policy Act, and disputes between 
environmental and water supply agencies concerning the 
diversion of American River water into the Folsom South Canal.
    The position of San Joaquin County has long been in support 
of the development of the Auburn Dam as a way to meet water 
needs in San Joaquin County. Yesterday, the San Joaquin County 
Board of Supervisors, at their regular meeting, adopted a 
resolution in opposition to H.R. 3698 and in support of 
transferring the Auburn Dam site to the state of California.
    This resolution expresses our concern regarding the flood 
control measures in this county, as well as continuing our 
support of proposals to develop a water storage project at 
Auburn. The resolution will be included as part of our 
testimony.
    In addition to meeting regional water supply needs, the 
Auburn Dam would also provide water for the management of flows 
in the lower American River, provide additional water to meet 
all of Californians' needs, and provide supplemental water for 
maintaining water quality in the Sacramento-San Joaquin River 
Delta.
    I would like to thank you for the opportunity to present 
these remarks, and we appreciate the Committee's support in not 
decreasing the flood protection in San Joaquin County, and for 
the support in developing an adequate water supply to meet our 
future needs.
    [The prepared statement of Mr. Barber may be found at end 
of hearing.]
    Mr. Doolittle. Mayor Serna, let me assure you I have no 
intention to holding the city hostage, but there is a 
legitimate soundness of this man.
    You heard the testimony, I believe earlier, from the Corps 
of Engineers indicating that if we had a hundred sixty year 
event with a hundred and eighty cfs going through the American 
River, that the Corps believed, using their formula, that there 
is a 40 percent chance of levee failure.
    Do you consider that safe?
    Mr. Serna. Let me say this: As I think I was hearing the 
debate over statistics, I had the strange feeling that you were 
comparing apples and oranges here.
    What I heard was that the Army Corps of Engineers builds 
safe levees, whether we--as statistical debate is one that I 
know.
    I know what the alternate purpose is my faith, Congressman, 
is when the Army Corps tells me, as mayor of this city, that 
they have built hundreds of safe levees in this city. I believe 
they can do this. If they can't build safe levees, they ought 
not be in the business at all.
    Mr. Doolittle. They did both testify after we got through 
of all the nuances of what it meant under their formula, which 
did challenge their formula, on what they think is the best way 
to examine it, that there is a 40 percent chance of failure.
    Mr. Serna. As Joe Countryman stated, it's also a 100 
percent reliability as well if you look at the statistics the 
correct way. The way you are interpreting them will lead to 
your conclusions. The way Countryman and others see the same 
status say their reliability is a lot greater than you suggest.
    Mr. Doolittle. Mr. Countryman doesn't----
    Mr. Serna. Which makes me very, very leery of this 
discussion at all in terms how meaningful it really is.
    Mr. Doolittle. They are the so-called flood control experts 
for the country. They believe it has a 40 percent failure. I 
wonder if this concerns you.
    Mr. Serna. What concerns me is if this bill of Mr. Matsui's 
doesn't pass, it will be moot because we won't get nothing.
    Mr. Doolittle. That is really not the tradeoff. There is 
something that, at least theoretically, all of us can agree to, 
that would be the Folsom modification without the levees.
    Mr. Serna. I understand that is a very strange debate for 
me, as well--and you also suggest we have run the American 
River at a hundred thirty-four thousand cfs. On one hand you 
say you can't run it that high, but those running Folsom Dam 
says you can run it.
    Mr. Doolittle. It wouldn't be a hundred eighty cfs. It 
would be substantially less than that. Nevertheless, it is an 
improvement substantially over what it is now because you have 
heard your fellow colleagues here. There are severe problems 
with this plan with other jurisdictions, and none of them 
really, other than Mr. Miklos, has raised an objection to 
Folsom modification, and he wouldn't necessarily object to that 
if he gets his bridge first.
    Mr. Serna. Let me suggest to the mayor that the economic 
loss to Folsom would be greater because would you not be able 
to support that wonderful manufacturing computer system you 
have at Intel at Folsom, but all of us, by the way, as regional 
leaders support it.
    The bill by Mr. Matsui is a package. You can't do one 
without the other. In fact, it makes no sense to do one piece 
and not all parts along the levee. Likewise, we have spoken 
about making sure we don't point the fire hose at West 
Sacramento and make sure if we are not doing that, working out 
the details of the bill.
    Mr. Doolittle. Since we are on my time, Mr. Montemayor, do 
you consider 40 percent failure to be safe?
    Mr. Montemayor. Well, Congressman, I consider being on the 
other side of a fire hose not being very comfortable, but 
indeed 40 percent, you can't disagree with the concept. I 
wouldn't drive my car if I had a 40 percent chance of going 
into the river. I might as well take off my seat belt and start 
walking along.
    Mr. Doolittle. Let me ask Mrs. Johnson: With the fact that 
the state won't be a cost-sharing partner this would actually--
the SAFCA plan would result in local homeowners paying more 
than three million dollars more than they would pay building 
the Auburn Dam.
    Mrs. Johnson. I think it would be very, very hard to raise 
all of this money in this community, but I did not hear that 
they would not, and perhaps I am hearing what I want to hear.
    But in talks with the state Board of Reclamation, I think 
they stopped short of saying that they are saying the same: 
They want to see the analysis first. They want to see all of 
the studies continue, and then they have not said they would 
consider it after those studies are done, and if they are 
appropriate, my take is those studies would be done and that 
time would come back to the Board of Reclamation, state of 
California, and they would participate, since they are, indeed, 
at great risk of losing that.
    Mr. Doolittle. What about the 40 percent failure? That 
thing is----
    Mrs. Johnson. I heard Dr. Klasse say that they could build 
levees that would be safe enough for a hundred eighty cfs.
    Did I not hear that? Am I the only one?
    Mr. Doolittle. Of course the Corps is going to tell you 
they build safe levees, but they had two to fail at Paradise 
Cut. One was at design capacity, and they do occasionally 
fill----
    Mrs. Johnson. Again, you look at the risk, which are right 
now at seventy-seven-year protection.
    Is that any greater risk than having something that might 
fail once in a lifetime? Where we can fail every year without 
anything?
    Mr. Doolittle. Let me ask you this: Suppose we do transfer 
the land to the state and the state goes ahead and supports 
Auburn.
    Would you be willing to create assessment districts and 
assess the districts for your share of Auburn?
    Mrs. Johnson. I think we would all have to take this to the 
ballot box and try it out.
    Mr. Doolittle. Would you be willing to put it on the 
ballot?
    Mrs. Johnson. They also like Auburn Dam, and they are 
saying we have to have protection now, and I think those folks 
would like to see it on the ballot and would like a chance to 
vote.
    Mr. Doolittle. Let me ask the mayor: Would you be----
    Mr. Serna. On the condition that you support the Matsui 
vote first.
    Mr. Doolittle. The answer is no?
    Mr. Serna. The answer is I need help.
    Mr. Doolittle. My time is up. Mr. Matsui?
    Mr. Matsui. Thank you, Mr. Chairman. One thing I forgot to 
do, if I beg the Chairman's indulgence here, I would like to 
introduce a letter dated April 29, 1998, to Chairman Bud 
Shuster.
    May I enter this into the record?
    Mr. Doolittle. Certainly.
    Mr. Matsui. In terms of this methodology, I have 
essentially--what we are talking about here, the Corps says it 
can make safe levees. They are talking about a hundred-sixty-
year level. That is because of hydrology. It's not a question 
of construction. It's a question of fate.
    In fact, this book that I have referred to earlier deals 
with this issue, and it's Flood Risk Management, American River 
Basin, was published in 1998--academic and practical in the 
engineering area.
    Talking about this particular issue in chapter four, they 
basically say here the Committee at this time doesn't believe 
the process of economic--ecological to be applied--the problems 
of flood control for the American River Basin.
    This is still a raging debate in the Corps of Engineers, 
but the reality is there is a lot of debate right now going on 
in the Corps on this thing.
    Let me ask, if I may, Mr. Montemayor from West Sacramento: 
You talked about you wouldn't want to risk yourself at a 40-
percent failure rate. Mr. Doolittle talked about it. I wouldn't 
either, but if I proposed to you an 82 percent failure rate, 
what would you rather have? An 82 percent failure rate or a 40 
percent failure rate?
    Because that is what we have currently. You have one in a 
hundred sixty the possibility of a failure, the 82 percent.
    Mr. Montemayor. Not seeing the mathematicals.
    Mr. Matsui. Assume I am telling the truth.
    Mr. Montemayor. Assuming politicians speak the truth, 
assuming the 82 percent failure rate, the first thing I would 
actually do is, first of all, ask my city manager to start 
putting together some serious evacuation plans for the city of 
Sacramento.
    Second, I would be arrested for assault and battery----
    Mr. Matsui. You are not really going to respond?
    Do you know how many people live in Yolo County that work 
in Sacramento?
    Mr. Montemayor. I guess I need to understand your question 
because----
    Mr. Matsui. How many people live that in Yolo County 
commute and work in Sacramento County in the floodplains?
    You don't know that answer then?
    Mr. Montemayor. We are talking a significant number.
    Mr. Matsui. Twenty-one thousand a day come from Yolo County 
to Sacramento County and work here, and we have an 82 percent 
failure rate if we have a hundred-and-sixty-year occurrence.
    Are you concerned about that for your community, Yolo 
County? You must be.
    Mr. Montemayor. As a citizen of West Sacramento and a 
citizen of Yolo County, I am concerned with what happens in the 
city of Sacramento for the primary reason is that the city of 
Sacramento, the city that is known as the head of the region 
for the entire----
    Mr. Matsui. I hope it's just not because we have the 
Sacramento Kings. It's because we have thirty billion dollars' 
worth of assets.
    Mr. Montemayor. You made my point.
    Mr. Matsui. Thank you. I said what we need. Let me say 
this: Mayor Miklos, how many hospitals, regional hospitals, do 
you have in the city of Folsom?
    Mr. Miklos. One.
    Mr. Matsui. What's the size, number of beds?
    Mr. Miklos. Three fifty.
    [Multiple speakers, exchange inaudible.]
    Mr. Matsui. Do you know what the capacity is?
    Mr. Miklos. If I had to guess off the top of my head, it's 
probably six hundred units.
    Mr. Matsui. And so you have some citizens that may be 
inundated by a flood.
    You are going to say now, on the record, for prosperity, 
that you don't want to support our project? You are going to 
wait for Auburn Dam?
    Mr. Miklos. I don't believe I said that, Congressman 
Matsui. I am saying that look at--all I am asking, there is 
some groups out there in Sacramento County which take positions 
on issues but they don't come up for reelection.
    All I want to do is hold people accountable. I want to hold 
myself accountable. I think you should be held accountable, but 
we are not going to be able to do it unless you are an elected 
official.
    Mr. Matsui. I want to hear you say on the record what I 
thought you did say, so that we can at least--if we should have 
this horrible catastrophe, we can hold. There has to be some 
accountability in the system. That is what this system is 
about.
    Mr. Miklos. With the information I see in this bill, I 
can't say I support your bill. I said our city prefers and 
supports Auburn Dam as being the best.
    [Multiple speakers, exchange inaudible.]
    Mr. Miklos. The stepped release plan is a problem. You have 
thirteen months of partial closure.
    Mr. Matsui. I agree with you that Folsom Dam Road is a 
problem, and I agree with you that there will be a partial 
closure in the entire 3-year period and a hundred--and ten 
partial closures in which there will be at least a single 
reversible lane going back. At least it will be a mitigating 
factor.
    Mr. Miklos. The history--we were told the type of plan they 
were going to use when they fixed the gates and a similar plan 
which you referred to is so many days closure.
    In reality it took quite a number of trips to your office, 
Mr. Fazio's office, Mr. Pombo, Mr. Doolittle pounding on a 
table.
    In fact, I testified in front of Committee explaining our 
concerns, so my confidence level with something that did occur, 
regardless of what plan, I am not willing to bet the total 
closure is going to be 10 days. We have lived that experience. 
It's not reality.
    [Question inaudible.]
    Mr. Miklos. I didn't say that either.
    Mr. Matsui. I know, I am just trying to understand your 
position.
    Mr. Miklos. I agree with you there.
    Mr. Doolittle. Mr. Pombo?
    Mr. Pombo. Thank you, Mr. Chairman.
    Mr. Barber, how long have you been on the Board of 
Supervisors in San Joaquin County?
    Mr. Barber. I have been an elected official for thirty-
eight years, twenty-four of them as a member of the Board of 
Supervisors. The very first here was in support of Auburn Dam 
in 1975. A little more information than you asked for.
    Mr. Pombo. Will appreciate it. I know that representing San 
Joaquin County you are widely known as one of the experts on 
water policy, not just in San Joaquin County but in Northern 
California. You have spent a great deal of your public life, as 
well as your personal life, learning and working on water 
issues in Northern California.
    How deeply were you consulted in terms of this particular 
plan that we are talking about today?
    How much input did San Joaquin County have into the 
formation of this plan?
    Mr. Barber. None whatsoever.
    Mr. Pombo. You said in your written testimony that 40 
percent of the Delta is well within San Joaquin County. I also 
represent the Sacramento portion of the Delta as well. Most of 
the water flows through San Joaquin County.
    You are well aware of the flooding problems that we had 
last year, particularly early January, and what the impact was 
on San Joaquin County.
    Do you feel that the proposal that is been put forth today, 
the testimony of the Army Corps and Board of Reclamation, do 
you feel comfortable with the safety level of the Delta and the 
areas we now have?
    Mr. Barber. No. No, I don't. I think that in the most 
recent flooding in 1986 and last year and the year before, we 
have had several levee failures, major ones in the area that 
you represent, particularly in the south county, and I don't 
feel that the level is satisfactory.
    Mr. Pombo. Do you have any idea how much it would cost to 
fix all of the levees to a hundred-year level of protection in 
the Delta?
    So not the hundred and sixty years that it's proposed in 
this, but just to reach a level of a hundred years, do you have 
any idea what that would cost?
    Mr. Barber. No. I can just tell you in the reclamation 
district where I live, they are doing a partial fix to a 
hundred years. It was something like five million dollars. The 
remaining portion is estimated at fifty million, just in the 
one reclamation district.
    Mr. Pombo. Do you think it is sufficient enough to carry 
the level of capacity all the way through the Delta that they 
are talking about sending through to the American River?
    Mr. Barber. Well, I don't know enough about it, but I would 
suggest we have serious reservation that it would be sufficient 
enough. There is a lot of impact in the Delta area, his as well 
as some of the north portions of the county where some of the 
levee setbacks and so forth would have to have levee setbacks 
to let the water get out faster.
    Mr. Pombo. We have heard testimony today that the Auburn 
Dam would be the most economical and technically the best 
method of correcting flood control for this region.
    I would like to ask all members of the panel: Do you 
disagree with that? Do you believe that the Auburn Dam is not 
technically or economically the best answer?
    Mr. Serna. Let me respond first, Congressman Pombo. I think 
that is one of the better answers. It's simply not before us. 
There is not a bill up. It's not on the agenda. It's not before 
your House. It's not before the administration. It's not 
anywhere.
    Mr. Pombo. But you agree technically?
    Mr. Serna. If I had my druthers, we would have the Matsui 
legislation and ultimately the Auburn Dam so we were really at 
five-hundred-year flood protection. But simply put, the Auburn 
Dam is not before the people of California.
    Mr. Pombo. Mr. Miklos?
    Mr. Miklos. Yes, without a doubt. It's obvious in my mind 
that it is economic to the benefit ratio and all the other 
benefits that come with it.
    Mr. Pombo. Mrs. Johnson?
    Mrs. Johnson. SAFCA has not taken it off their list from 2 
years prior. It's still listed as one of our goals, as well as 
two-hundred-year protection. We have never taken those things 
off.
    I believe that. I personally believe that. I believe it is 
technically the strongest and best solution we have in the long 
run. That is a personal perspective.
    And I believe that the SAFCA will be split on this, but 
they have not moved or tried, in any way, to take that off 
table as an ultimate solution. They are simply just very much 
in getting some protection when we are down to seventy-seven 
year protection.
    Mr. Pombo. Mr. Montemayor?
    Mr. Montemayor. Yes. Especially in conjunction with the 
uses one can get from a storage facility with this magnitude.
    Mr. Pombo. Mr. Barber?
    Mr. Barber. My position is Auburn will be ultimately built 
at some point in time. It will be built as a multiuse facility. 
The driving force behind it will be for the water and benefit. 
The shortage is going to occur, and that water, although 
expensive, will be a source that will not go unchallenged or 
untapped.
    Mr. Pombo. Mrs. Johnson, you and I had the opportunity to 
discuss this in great detail a few weeks ago, and at that time 
I told you that I didn't believe any plan that did not take 
into account all regional issues would ever make it through 
Congress, that I believed that if the plan is not truly a 
regional plan, you will never gain the support to get it 
through.
    And I think by the testimony you have heard today, you can 
understand why I hold that position in that your neighbors are 
very concerned about this plan. They don't feel that their 
interests are being taken at heart, and in this particular 
plan,--and it causes them great concern that that is happening.
    It was a year ago, and it was a bill that was on the House 
floor that allowed the maintenance, rehabilitation, repair, and 
replacement of a Federal or nonFederal flood control processor 
facility. It exempted that work from consultations under the 
Endangered Species Act.
    Where necessary to protect human life or to prevent the 
substantial risk of serious property damage, and let me repeat 
that: When necessary to protect human life or to prevent the 
substantial risk of serious property damage. That was the 
language that we vote on a majority two hundred, and we have 
members of the House voted to kill that legislation.
    So we have previous votes in the House against fixing 
levees that are falling apart because of flood damage and not 
just, you know, in raising your level of flood protection so we 
run a risk. No matter what legislation gets put up there is a 
chance we can lose that.
    I feel like what we ought to do is pick a regional plan 
that best represents what this region needs in terms of flood 
protection and water availability, lay that out.
    We are not going to get the Auburn Dam all at once. I think 
we all know that, but I think we have to come up with a plan 
that says this is step one, this is step two, and this is the 
ultimate level of flood protection, which is Auburn Dam.
    Unless you put that plan together, you are going to have a 
fractured region where you have--where it's almost impossible 
for those of us that represent this region to come together 
with a unified voice because we have different problems in our 
respective districts.
    Even though I represent two-thirds of Sacramento County--I 
know Mr. Matsui represents the majority of the population, but 
I represent the majority of the county, and I represent all of 
the American River all the way to the San Joaquin River, so I 
have a lot of problems when it comes to flood protection and 
water availability, and unless we have that kind of a regional 
plan put together, that I have San Joaquin saying ``Yes, this 
is what we need,'' as well as Sacramento County, it makes it 
impossible for us to put together a consensus plan.
    Mrs. Johnson. Well, you have my absolute promise to try in 
every way we can to get that kind of feeling of real support 
from surrounding counties. There is nothing that SAFCA wants to 
do that has to do with--that will give everybody some 
satisfaction and security about what this would mean.
    I also want to say I very much agree with Supervisor Barber 
about when that Auburn Dam gets built, I, too, believe it's 
going to be for the need of water. Water in California is gold. 
It always has been our need----
    Mr. Matsui. Not with the weight of city and the mayor 
behind you.
    Mr. Montemayor. Do you want to know the position of the 
city of West Sacramento?
    Mr. Matsui. Do they have a position?
    Mr. Montemayor. The position of the city of West Sacramento 
is to remain neutral between----
    Mr. Matsui. You are here on your own?
    Mr. Montemayor. I am here on behalf of the city of West 
Sacramento.
    Mr. Matsui. I thought you said the city of West Sacramento.
    Mr. Montemayor. The position is we have not come to a 
formalized position because we are still studying. There is a 
lot of analysis before we can even possibly do----
    Mr. Matsui. Your position is neutral.
    Mr. Montemayor. Neutral and supportive of more studies.
    Mr. Matsui. Thank you.
    Mr. Farr. I feel like I am back in this room sitting here 
looking at two supervisors, mayors, and a city councilmember, 
and I really appreciate this panel because you all have to make 
tough choices. You also have to balance----
    My question goes--you are the last of the witnesses.
    I haven't heard one of the witnesses oppose the building of 
the Auburn Dam, including the two Members of Congress that were 
here before you. I also heard people say they don't think it's 
going to get built and the new Congress has not been supporting 
it. I don't know. You know what's going to change in Congress 
to change that?
    My question to you is: If you don't get the Auburn Dam 
right now, obviously a lot of this is being used as leverage. 
You don't want to build to step down. If you don't get the 
Auburn Dam, would each of you support the stepped release plan?
    I think--why don't we go down the line.
    Mr. Serna. Clearly the bill that Congressman Matsui is 
carrying include all the elements that include the step plan. 
Let me piggyback. SAFCA is our regional flood control body, so 
the region has spoken through that agency, so I am not sure 
what more you want of us.
    The city of Sacramento and the sponsorship and in pain and 
part the Water Forums--the Congressman deals with the issue of 
water supply. When people tell us--I get disturbed when I hear 
from members that the region has to get its act together.
    Mr. Farr. I have never heard anybody here oppose the SAFCA 
plan either, but if you don't get the dam, the question comes 
back: These are the choices you have to make every day. You 
don't always get what you want. Politics is about the art of 
compromise.
    The question I have: Would you support the plan, the step 
plan or the SAFCA plan?
    Mr. Miklos. First, I want to clarify something. SAFCA 
represents--we are in the county of Sacramento. We were asked 
by SAFCA what our opinion was, and our opinion was not at that 
time the plan that was presented to us. I would like to 
clarify. I get concerned, as he does, when people say the 
region has spoken. The region is not just the city and county 
of Sacramento.
    Now, in direct response to your question, if I had to 
absolutely just pick which plan I was supposed to take back to 
my city and say ``This is it,'' I am going to get in there, 
again, that is the measures I have spoken about early, if there 
is proper mitigation.
    And you may not be aware of it, but when that lake level is 
at its maximum, we receive more visitors than Yosemite does.
    [Question inaudible.]
    Mr. Miklos. Now, as he did last year; however, is that, you 
know, I would have been working with Congressman Doolittle's 
office.
    Mr. Farr. You got power of mitigation, you do that in CEQA. 
Your city council takes it to court, stalls this whole thing 
out. Obviously mitigation you get your cake, so with that, 
would you support it?
    Mr. Miklos. The Auburn Dam is the only plan I can support, 
given the information that is in front of me.
    Mr. Farr. The Matsui bill asks for a----
    Mr. Miklos. I don't feel there is enough.
    Mrs. Johnson. As the proposer of this main support it, our 
board is very, very supportive and involved. Obviously we 
haven't done a good enough job when I hear the people around 
me. Clearly I need to get busy and get to these places more 
often, and we really need to do the kind of analysis that would 
give them some real feelings of security that this thing can 
help their needs and help the entire region and not hurt them. 
That is what seems to me SAFCA needs to do.
    Mr. Montemayor. Again, I have to echo a little: West 
Sacramento is not a member of SAFCA. When SAFCA speaks for the 
region, they are not speaking for the city of West Sacramento.
    Mr. Farr. The alternative is to do nothing.
    Mr. Montemayor. Assuming that the mitigation is followed 
through as it is outlined currently and assuming that the 
studies have no adverse impacts on the county of Yolo and the 
city of West Sacramento, which we don't quite know yet.
    We have to wait until these analyses come out. Assuming 
those things and assuming that all downstream communities are 
not adversely impacted, obviously the choice would be to 
support the alternative for a stepped release.
    Mr. Farr. Thank you.
    Mr. Barber. I think you were out of the room when I was 
doing most of the testimony. I indicated we have not had any 
real contact on the project at all; therefore, we are not in a 
position to be able to know what the adverse impacts may or may 
not be until we know that we are not in a position to support 
it. In fact, we took the opposite approach.
    [Question inaudible.]
    Mr. Barber. Well, somebody will have to do the study. I 
certainly am not objecting to that. It may well be the board 
may want to take a different position once they have had an 
opportunity to look at it.
    Mr. Farr. Well, my time has run out, Mr. Chairman, but I 
think--I don't know how you go there from here if we just get 
stuck trying to do the same old, same old.
    In Congress, it has been rejected twice. It seems to me 
what's on the table is a study, a bill, that says ``Let's do a 
study.''
    The study will have to show what the adverse impacts are. 
The adverse impacts have to be mitigated, that becomes part of 
the entire project. You don't know whether you support the 
project until you have the facts, which will be delivered by a 
study.
    It seems to me this bill is in order, and we should at 
least--going back to your opinion, Mr. Chairman, is that I 
don't think it is a penny wise/pound foolish. I don't see any 
pound foolishness in it at all. It's essential to protect the 
flood mitigation of the Sacramento area.
    Mr. Doolittle. This approach under the Matsui bill is 
something like the Queen of Hearts in Alice of Wonderland: 
Verdict now. Jury later.
    There is no Chief's reports. I have heard knowledgeable 
people speculate that the downstream is another billion 
dollars. We don't really know what that is going to be, and so 
there is a strong feeling that the alternative is either vote 
for the Matsui plan or do nothing. No one is advocating, doing 
nothing. There is another alternative, but we ought to be darn 
sure of what the ramifications are.
    Mayor, let me ask you: I don't remember if you were on the 
city council in those days, but it's my understanding the city 
of Sacramento was within just a few hours, maybe minutes, of 
breaching the levee intentionally in 1986 in order to avert a 
greater disaster in places.
    The disaster in 1997 we were too, so twice in eleven years 
we have come within a hair's breath of having a calamity 
occurred.
    All the dire consequences that have been portrayed here 
are--it does concern me when we talk about, in fact, the local 
cost share of the Matsui plan is like forty million dollars 
more than it would be for building the Auburn Dam.
    Is that something that seems appropriate to you?
    Mr. Serna. Congressman, for me that is debating the issue a 
bit. The point is that the Auburn Dam is not before the House.
    Mr. Doolittle. I will be happy to amend it into the Matsui 
bill.
    Mr. Serna. We want flood control now. The Matsui bill gives 
us the opportunity to perfect his vehicle to give us that flood 
protection as soon as possible. I would beg for your support. 
That is the only thing viable before us. I am fine.
    The thing that I would ask of you, Mr. Doolittle, is the 
following: To support the city of Sacramento like we support 
you in your efforts to support the Matsui bill. Let's work for 
this solution, and then if you want to go back and still build 
the Auburn Dam, get it to the state, put it on a ballot.
    We came within a half hour of evacuating River Park. I got 
a call at midnight from the city manager ``Be prepared to 
evacuate.''
    This is not about gamesmanship. This is really about the 
real lives of real people in a real city that is subject to 
flooding.
    Mr. Doolittle. Let me ask you more about that because I 
want to ask this, and I am talking to the right person: River 
Park, weren't they--because they were going to close those 
gates under the railroad trestle. They were going to dynamite 
the levee hoping that would take enough pressure off.
    Mr. Serna. Campus Commons was at great risk also.
    Mr. Doolittle. Mayor Miklos, I know that the Bureau, if we 
would have time to ask them, they are not happy about having 
the top of the dam have to be one of the main ways in and out 
or between the two halves of Folsom.
    I think you are quite reasonable in asking that that be put 
on the table as one of the mitigation measures for doing 
something with Folsom, and we will just have to, as this whole 
discussion con-

tinues, see where it all ends up, but I think it's good that 
you have raised the issue and you obviously have real safety 
concerns yourself that are different than the city of 
Sacramento's.
    I would like to ask--Mr. Hodgkins, I would like to ask you 
about that memo back there you wrote. This is a memo that ``To: 
File. From: F.I. Hodgkins dated April 1st, 1998.''
    Now, this isn't an April fools' joke, is it?
    Mr. Hodgkins. I don't joke about flood protection, 
Congressman.
    Mr. Doolittle. You say ``Given time and the unwillingness 
to embrace this SAFCA plan to secure support within the 
administration for authorizing the SAFCA plan this year would 
not be--Chief's report updating the technical analysis in the 
1996 report.''
    Can you comment on that?
    Mr. Hodgkins. I think I can. I think there are many members 
of the Corps who are strong engineers, as I am, who believe 
that the best project, from an economic technical standpoint is 
the dam at Auburn, and their belief in that, I think, causes 
them to be less than candid when you get down to what has 
become the political reality for me, and you know, that with 
exception of the four Congressman up there, nobody worked 
harder in 1996 to get that project authorized.
    Mr. Doolittle. I do know this, and I know that you believe 
in the Auburn Dam.
    Mr. Hodgkins. And we simply have come to a point where for 
this community, I think water--faced with the decision ``Should 
we proceed forward and try to get as much flood protection as 
we can?''
    And that is why I think we should proceed forward with this 
plan, and I think that the Corps, who is somewhat isolated from 
having to deal eyeball to eyeball with people, who are behind 
those levees especially during the flood of 1997----
    I mean, I saw the projections that the flood center 
produced of what the--as we watched that storm in I had the 
look those people in the eye, and I don't think the Corps has 
to do that, and they are able to be more engineering and 
dispassionate and less practical in terms of trying to figure 
out how to get improvement in flood protection.
    Mr. Doolittle. Is that what you meant when you said 
referring to the Chief's report ``Under no such circumstances 
could a document be helpful.''
    Mr. Hodgkins. The other part of it is the report that was 
transmitted to Congress in 1997, which was the basis for the 
1996 Chief's report, took the Corps 3 years to prepare.
    They assembled a team who became very knowledgeable on 
issues of the American River Watershed, and then we had the 
flood of 1997, huge disaster. That team was scattered to the 
winds, not available to--and do additional technical work on 
this.
    Trying to put together a knowledgeable team to do the work 
was another problem that was a concern to the Corps and myself 
as well.
    Mr. Doolittle. When you wrote ``It would harm the--and yet, 
you know, we have done this before in 1986. We went through the 
preparation of the recommendations and so forth, all the 
studies and hearings''----
    Mr. Hodgkins. I believe that the document you have--that 
that was prepared in 1996, and I haven't heard anybody disagree 
with that--is a document that basically looked at all of the 
alternatives that are available in the American River. That 
information was prepared to assist Congress in making that 
decision.
    Your own scientific advisory panel, the National Research 
Council, looked at that document and said ``Yeah, there is 
uncertainties. Uncertainties are unavoidable,'' risking 
uncertainties as the engineer's trying to learn to communicate 
with the people that make the policy decisions about the fact 
that there are risks here and there is uncertainty here.
    And what the National Research Council concluded, 
basically, is we can't use the uncertainties as an uncertainty.
    Now is the time to decide and move forward with flood 
protection so you have, I think, a report that provides a good 
analysis of the alternatives that are available.
    Mr. Doolittle. Let me: Do you support raising constituents' 
taxes forty million more dollars than it would cost to build an 
Auburn Dam?
    Mr. Serna. Do I support raising their taxes?
    Mr. Doolittle. In essence it would be taxes or assessments.
    Mr. Serna. Not if there is a solution before us that is 
cheaper.
    Mr. Doolittle. Mrs. Johnson?
    Mrs. Johnson. I am not quite sure I understand the forty or 
how you got the----
    Mr. Doolittle. It gets to be forty because the state won't 
be a cost-sharing partner in the SAFCA plan, so you have to 
pick up their share.
    Mrs. Johnson. I haven't given--I am----
    Mr. Doolittle. Let's assume for the sake of this answer 
that it's not going to be a cost-sharing partner.
    Mrs. Johnson. Then I think we have a very tough time.
    Mr. Doolittle. Then it would be no?
    Mrs. Johnson. Please let me just say I believe we can get 
the state, then I am willing and I believe the SAFCA board 
stands ready to put forth an assessment for the reasonable part 
that we feel we would need to pay as the local entity.
    Mr. Doolittle. If you get the state, it's not going to be 
forty million more. It's only more if you don't get the state. 
Then I understand your answer to be no.
    Mrs. Johnson. I doubt that we can do it.
    Mr. Doolittle. Additional questions?
    Mr. Pombo. I have one question for the mayor of Folsom.
    You had an interesting statement. You said that Folsom does 
best when the lake is full.
    Mr. Miklos. Obviously, when you look at a tourist area, and 
Folsom Lake, based on the amount of revenues that are 
calculated, that is a dramatic difference between a full 
reservoir versus 50 percent or the years that that picture 
represents it is severe on very specific times of the year.
    Mr. Farr. Would filling the Auburn Dam lower the Folsom 
Dam?
    Mr. Miklos. No. Because the way I understood Auburn Dam to 
be done all the way to Auburn.
    Mr. Farr. You have an upstream control?
    Mr. Miklos. That is correct.
    Mr. Farr. If more water was released, you lower the Folsom 
Dam.
    Is that an adverse impact?
    Mr. Miklos. Depending on which plan.
    Mr. Farr. You said when the lake is full, that is when you 
are best off.
    Mr. Miklos. Now I understand your question.
    Not very much.
    Mr. Farr. So you are not worried about flooding?
    Mr. Miklos. To be honest with you, we don't have the 
problem of the city and county of Sacramento, but however, I 
did say we are trying to do our part with as little impact to 
the city of Folsom and helping to share the concern and find a 
solution.
    That is why I said I have been working with Congressman 
Doolittle's office. To say the city of Folsom does not 
recognize they have flood control needs is incorrect. We are 
acutely aware of that and have been working to find out what's 
the least impact to our city.
    [Multiple speakers, exchange inaudible.]
    Mr. Miklos. The only thing I want to bring up, if you give 
me the indulgence, the water supply issue has catastrophic--it 
is surface water actually. We are still waiting for the other 
CVP water, Congressman Fazio.
    The reason I bring that up with the stepped release plan is 
if there is an evacuation of lake level, that again has a 
devastating effect on the city of Folsom. We have a particular 
water to draw from, but to voluntarily say we are going to 
modify the dam without mitigating effects for the city of 
Folsom, I have to be accountable to my citizens.
    Mr. Farr. What I am trying to get at, seems to me there is 
a selfish opinion by Folsom ``We benefit best because this dam 
has been built'' but you don't want to share in the 
responsibility for downstream flood control.
    We want the economic value, recreational value, and we are 
willing to take the sales tax and things that come to the 
cities for that bed tax, and things like that, that you can 
share when the lake is full, but you don't want to share the 
largess, the windfall in protecting downstream mitigation in 
the same proportion share?
    Mr. Matsui. Let me followup on that.
    We are talking about the Countryman plan actually. Now, I 
think there is a consensus developing among those that support 
the levee improvements and also the reoperation of Folsom that 
we do have Mr. Countryman, and I would like you to look at the 
most recent at that time and then----
    [Multiple speakers, exchange inaudible.]
    Mr. Matsui. But you have said earlier that you didn't 
support the reop of Folsom.
    Did I misunderstand that?
    Mr. Miklos. No. What I said is----
    Mr. Matsui. In other words, the auxiliary, the Countryman 
plan, in other words, you are open to that?
    Mr. Miklos. Yes, sir.
    Mr. Matsui. I appreciate that. Now I understand it.
    Mr. Miklos. [continuing] and our responsibilities and our 
minds as regional partners in the region. I can't say enough of 
Mayor Serna's support.
    And if we were steadfast in saying absolutely nothing, 
which of the modification plans, with least impact to the city 
but still has some kind of level, we have with preponderance, 
seriously considered supporting, with the proper mitigation 
effects, the Countryman plan.
    Mr. Matsui. Obviously they will not impact you because that 
is downstream. You'd want to make sure they are.
    Mr. Miklos. That is correct. And Congressman, if I may: Two 
years ago I said the city of Folsom has to support 
strengthening the levees.
    Mr. Matsui. I remember that. I really appreciate this, and 
thank you again.
    Mr. Doolittle. Let me just clarify: When you said ``the 
Countryman plan,'' you mean the plan that pertains to the 
modification of Folsom Dam, the additional modification of 
outlet, rather than lowering the spillways?
    Mr. Miklos. That is correct.
    Mr. Doolittle. The strengthening of levees we all support, 
and that is embraced in the common elements which has finally 
commenced construction.
    But with reference to the enlargement of the levees 
downstream and upstream, I am just trying to understand: What 
you are saying here is that something that--Folsom, what is 
their position on that?
    Mr. Miklos. We have not seen the information. The 
information is out there. It's not been shared with our city 
and our elected officials.
    Mr. Doolittle. You are not endorsing that today?
    Mr. Miklos. No, I am not.
    Mr. Doolittle. That was my understanding. I want to throw 
this out before the panel goes.
    I would like to give us the flood protection we need 
because if Sacramento floods, almost everybody that I represent 
anywhere around here is going to suffer tremendously because of 
it, whether or not they are in the floodplain.
    And I would just throw out for your consideration: Let's 
transfer this land to the state. I believe we can do this in 
less than 5 year's time. We can do it in 1 year, if the 
Republican and Democrat decided to transfer it, do the 
modification to Folsom Dam, move with the mitigation, that is 
appropriate, and that we create the assessment districts within 
Sacramento County, figure out what's the best apportionment of 
costs, and let's just do it.
    Let's not wait for some force we have little control over. 
I think we can do it. I really don't believe that I am talking 
about something that can never be accomplished in my lifetime. 
Great things can be accomplished if we decided to put our minds 
to it.
    We shouldn't delude ourselves in believing Auburn Dam is 
some far distance, you know. It's like achieving perfection on 
earth. I certainly don't see it that way. I don't think you 
should.
    The reality is it would cost less for local taxpayers to 
pay for that than it would for the SAFCA plan, assuming the 
present cir-

cumstance that the state's not a participant in it. Then you 
would get your flood control and you get all the other benefits 
that the region needs, and not to mention, all the 
environmental enhancements.
    I won't go through the litany of benefits we get from it. 
Maybe you think I am totally wrong on this, but I believe this 
is much more achievable than I have picked up from comments 
made today.
    With that, is there further questions?
    Mr. Miklos. Congressman, if I may----
    Mr. Fazio. You know what, Steve, that is not a bad idea. We 
did go on record saying we would support that.
    Mr. Doolittle. Mr. Farr?
    Mr. Farr. Is the question requirement dependent on whether 
the assessment districts be set up for building the dam, or is 
it just transferring real estate to the state and let the state 
make the decision?
    Mr. Doolittle. Well, I would like to do both. The reality 
is until we have a new Governor, whoever it is. As soon as we 
have them, we need to sit down and see if we can get that 
administration support for that to.
    Mr. Farr. Requires a two-third's vote.
    Mr. Doolittle. Interestingly enough, there really is very 
little support among the populace in the region for anything 
other than the Auburn Dam. SAFCA knows that itself when it 
tried to do that the last go around.
    But something that does pretty much unify anything we will 
have to work hard to get it. It's close to that. I think it 
would be worth the effort.
    You look at the great things in the past the forefathers 
have done from the state water project or the Central Valley 
project freeway system, all of those things. Those weren't easy 
things to accomplish in that day.
    Mr. Farr. The question is whether you want to. You can't 
transfer the land until you set up this mechanism for assessing 
people to pay for the dam or whether you just transferred the 
land.
    Mr. Doolittle. Let me answer that: It would be a joint--
obviously it would be between the state and local government.
    Mr. Farr. You get it done.
    Mr. Doolittle. We have closed all our bases. We can't use 
these.
    Mr. Pombo. My suggestion is you transfer it to the 
Department of Forestry, if there is any national forest around 
there, and you and I sit on the Ag Committee, and we have 
jurisdiction on it.
    Mr. Doolittle. We do have the jurisdiction. The Department 
of Forestry is in bad shape. I throw that out. Think about it. 
We will think about it.
    We will excuse the members of this panel. Thank you, and 
please we will hold the record open for further responses to 
questions we may have in the next few days.
    We will take another 10-minute break, and then we will come 
back.
    [A brief recess was taken.]
    Mr. Doolittle. Ladies and gentlemen, the fourth and final 
panel is ready to begin. Provide--or invite our three panel 
members to come up.
    Let me ask you, gentlemen, please, to stand and raise your 
right hands.
    Do you solemnly swear or affirm under the penalty of 
perjury the responses made and the statements given will be the 
truth, the whole truth, and nothing but the truth?
    Let the record reflect that each answered in the 
affirmative.
    This has been an extraordinary long hearing, good hearing, 
guild with good information and tiring. You have been patient 
until the end here.
    You have as your first witness Mr. Lew Uhler, president of 
the National Tax Limitation Committee, Roseville, California.

  STATEMENT OF LEW UHLER, PRESIDENT, NATIONAL TAX LIMITATION 
                           COMMITTEE

    Mr. Uhler. Members of the Committee, I have to give you 
high marks for your staying power.
    One of the things asked of us in the materials was to 
answer the question as to whether our organization has ever 
taken a dime of Federal, state or local money to carry out its 
operations.
    I am proud to say we have not, and what I am going to have 
to say comes straight from the private sector and offers a 
solution that is different than I have heard today.
    While the focus of the hearing has been on proposed 
modifications to Folsom Dam and related water management 
implications, I think it's clear that no halfway measures are 
likely to provide a true solution to the area's flood and water 
challenges. Nothing short of construction of a multipurpose dam 
is really relevant.
    It's widely agreed that two-hundred-year or two-hundred-
fifty year, as we have heard today, flood protection is the 
minimum safety level for the Sacramento floodplain.
    Recent recalculations by the Corps of the flood potential 
of the American River watershed reveals that the flood threat 
is even greater than we had originally understood, and that 
only a dam can interdict major water flows and provide safety 
and effectiveness.
    All of the other alternatives that have been suggested, and 
with all due respect to Congressman Matsui, who I know is 
trying to do the right thing, are nevertheless makeshift and 
temporary and do not get the job done.
    By the same token, it appears that taxpayers nationwide 
have had a chance to say whether they want to help California 
and the local area by building a dam or voting for a dam, and 
that seems to be at best questionable at this point in time.
    Now, given this range of circumstances, may I suggest an 
alternative that we haven't discussed but I want to raise. I 
want to consider a private or privatization solution for the 
construction of the dam in Auburn?
    And the essential first step, of course, is the legislation 
which Congressman Doolittle has introduced to turn the dam site 
and inundation areas of the dam over to the state of California 
so that the process can move forward.
    Now, while too much water at one time is a threat to our 
safety, too little water, the inevitable droughts we 
experience, constitutes an equal and grave public risk.
    Water is then a precious commodity, and we ought to seek a 
solution which protects against too much water and too little.
    As a freer market in water it is now developing as farmers 
are selling some of their surface water rights, prices are 
firming up. The pursuit of assured water supplies, especially 
in urban areas, can provide solid cash-flows for financing dam 
construction.
    Equally important, electrical power can be generated from 
such a dam facility, and it is the cleanest and cheapest power 
available.
    I might add under electricity deregulation, the value of 
the inexpensively produced power goes to the highest marginal 
rate, and therefore, is more valuable on a hot August 
afternoon. The stack-rate structure that the regulated industry 
had experienced has changed, and now market rates will increase 
the level of hydro or cheaply produced power.
    If we add flood insurance premiums and other funding 
sources, I believe a private solution begins to make real 
sense, and we ought to pursue that.
    Some very rough calculations, whether it's government-
backed or not, you may have a range of a hundred and thirty to 
a hundred and fifty million dollars a year mortgage on a two 
billion plus dam.
    Now, if you spread that over thirty to fifty years, some 
very rough calculations on my part suggest that that hundred 
and thirty to a hundred and fifty billion dollars can be filled 
in by water sales, electricity sales, and some reasonable 
allocation of insurance premiums from the people who would 
derive the benefit of the existence of a big dam.
    The federally supported flood insurance covers only a part 
of the people who are at risk here, and the rest of them are 
covered by other kinds of insurance. I have not been able to 
get my hands on the numbers that are represented by those 
nonfederally insured businesses and homes.
    And if we have all those numbers, my thinking would be that 
what we ought to be talking to the government about at the 
Federal, the state, even local assessment areas is filling the 
gap.
    And I would suspect that filling of the gap might be less 
expensive than the solution that Congressman Matsui is 
supporting, although he prefers the full Auburn Dam anyway. If 
we get a less expensive solution, it seems to me we really have 
something.
    All we have to do with the environmentalists is discuss the 
inundation of portions of the North and Middle Fork of the 
American River with the resulting loss of whitewater rafting 
opportunities. I happen to be a whitewater rafter, and know we 
lose lots of lives in the area to be inundated.
    Look at the pluses we gain in terms of water, water 
conservation, flood protection, clean electricity, stable Lake 
Folsom, additional recreation benefits, water to flush the 
Delta.
    My bottom line is taxpayer interests will be well served if 
we quickly and thoroughly explore the privatization alternative 
for the ultimate solution: A multipurpose Auburn Dam, and our 
committee stands ready to assist, in any way, with these 
efforts.
    [The prepared statement of Mr. Uhler may be found at end of 
hearing.]
    Mr. Doolittle. Thank you. Our next witness is Mr. Ed 
Steffani, General Manager, Stockton East Water District.

STATEMENT OF ED STEFFANI, GENERAL MANAGER, STOCKTON EAST WATER 
                            DISTRICT

    Mr. Steffani. Thank you, Congressman Doolittle.
    I want, first, to endorse San Joaquin County Supervisor 
Barber's statement. about the county's concern about potential 
flood impacts.
    I want to address a potential water supply impact that 
could result from the H.R. 3698 proposal. We ask that water 
supply impacts be clearly defined and mitigated.
    H.R. 3698 would make permanent a decrease in water supply 
below that originally provided by Folsom. I presume everyone 
realizes that I have heard some people today say there would be 
no decrease in water supply. They are measuring that from 
today. You have got to go back to the pre reop condition as the 
baseline.
    We want Sacramento to get two-hundred-year protection, but 
we want you to get it in such a way that water supply is not 
decreased. We hope there is a way to do the flood control with 
an increase in water supply.
    We believe there are alternatives to what's on the table 
now. We believe you can get the two-hundred-year protection 
with a small Auburn and with Folsom reop.
    Joe Countryman tells me that Folsom reop will get you up to 
a hundred-ten-year protection. A two-hundred-thousand-acre foot 
reservoir at Auburn will get you another ninety, so there is 
your two: Small Auburn, Folsom reop, no levee raising.
    What do you do about water supply? The one I like, and I 
think my friend Jerry Meral sitting next to me likes, is 
groundwater recharge.
    Take the water that we would release from Folsom to get 
down to flood control space, take that water, and put it into 
the ground. Put it into southern Sacramento County where you 
have a severe overdraft, and put it into San Joaquin County.
    I think I will stop there and let Jerry pick up the ball. 
Thank you.
    Mr. Doolittle. Thank you. Our final witness on the final 
panel is Dr. Jerry Meral, Executive Director of the Planning 
and Conservation League, American river Coalition.
    Nice to see you again, Dr. Meral.

STATEMENT OF DR. JERRY MERAL, EXECUTIVE DIRECTOR, PLANNING AND 
         CONSERVATION LEAGUE, AMERICAN RIVER COALITION

    Dr. Meral. I am Jerry Meral. I was formerly the deputy 
director of the California Department of Water Resources on the 
American River for 8 years. I have been working on American 
River issues since 1968.
    The environmental opposition to the destruction of the 
American River canyons by the Auburn Dam goes back to that 
year, 1968, and I would predict would not go away in the 
future. They are used by half a million people a year or more. 
They should be preserved, well managed by the state.
    And I will say with some interest that we hear of 
Congressman Doolittle's--because we do believe as managed by 
state parks, once state parks has some of the restraints on the 
current use lifted, and the concept of an Auburn Dam has many 
problems.
    One, it's, as many of you know, to be constructed, if it is 
ever, on an earthquake fault. Failure of Auburn Dam is an 
unimaginable, far more serious problem, but I think the 
principal problem with Auburn Dam is one that Mr. Uhler pointed 
out, and that is economic problems: Federal subsidies, Federal 
cost sharing is going down, Federal water, financing the Auburn 
Dam.
    Congress is not putting money into these changes. There is 
not been a big new water project authorized in California since 
the 1970's.
    The environmental community is very interested in and 
willing to support reasonable flood control protection, such as 
Congressman Matsui's bill, and we applaud him for making a 
strong effort.
    I am a homeowner here in Sacramento, and subject to the 
inundation that is been discussed today, and those of us that 
live here think his bill is the right approach to providing 
flood control, we don't want that to happen. We want protection 
to come as soon as possible. We don't believe that the Auburn 
Dam is possible.
    Now, we don't believe it will be possible in the future, 
but that is a fight for a future day. We want to see Mr. 
Matsui's bill funded, and we will continue to oppose the Auburn 
Dam, but there are solutions to the problems you have heard 
discussed today, certainly flood control by enacting--Placer 
County has serious water supply problems.
    We endorse a permanent pumping station in the North Fork of 
the American River, and opening up the American River in the 
North Fork for recreation and other purposes.
    I think one of the other problems that we see with the idea 
of doing anything upstream on one fork of the river or another 
is the problem that occurred with Pectola Dam in North Dakota 
in the 1970's.
    It would protect Rapid City from a flood, if that flood had 
occurred upstream of Pectola Dam, and Rapid City was destroyed 
in the downtown area. We don't want that to happen to 
Sacramento.
        <bullet> Projected to take place throughout the entire 
        watershed of the American River to be centered on the 
        south fork and have that fork provide the flood water 
        that Auburn Dam could not mitigate. We believe 
        Congressman Matsui's is the most careful plan.
        <bullet> Department of Water Resources in 1982, and it 
        shows that those kinds of ideas have staying power, so 
        we endorse that bill and encourage the Committee to 
        rapidly support that idea, and Congress should approve 
        it. Thank you very much.
    Mr. Doolittle. While I take it, Dr. Meral, you don't like 
Dr. Steffani's idea----
    Dr. Meral. We very much like to see an overdraft problem. 
We would like to see the development of water resources that 
would make it possible to provide that recharge. We do the 
resource of the water.
    Mr. Doolittle. Let's speak clear. You do not support it.
    Assume because the source of the water was a small dam at 
Auburn.
    Dr. Meral. We would not support a small dam at Auburn.
    Mr. Doolittle. Mr. Uhler, your ideas are intriguing. I 
would love to see such a thing get established, and I believe 
the economics are there to do it, in terms of the water and the 
power, and then we can go, once it was built, to seek the 
reimbursement for the flood control portion of the dam, which 
amounts to about half the cost, half the total cost, I believe.
    So I would welcome your active involvement in identifying a 
potential contributors to such an effort.
    Mr. Uhler. We have already spoken with some folks at Morgan 
Stanley. They do this every day. Two-billion-dollar deals are 
rolling out of bed, and I am really surprised that the private 
alternative--the private funding alternative has not been 
explored previous to this.
    Privatization has been taking place worldwide, the sale of 
government-owned businesses--a petroleum preserve recently 
sold. This is the alternative. There really is no justification 
to ask somebody in Texas or North Dakota or New Hampshire to 
solve the water problem or the flood problem for the people in 
California.
    We can do it ourselves. We can raise the money locally and 
do it in a proper and rapid fashion. We can get the area 
controlled here.
    And the business of environmentalists, self-styled 
environmentalists, standing in the way of the only solution to 
Sacramento's flooding problem, acknowledged by everyone who has 
looked at this, is, in my judgment, terribly shortsighted and 
terribly selfish.
    Mr. Doolittle. Dr. Meral, do you support the level of two-
hundred-year protection for Sacramento?
    Dr. Meral. We would support it in content, the higher 
level--the highest level possible could be achieved, would be 
desirable, what's practical to achieve.
    We are not in support of the Auburn Dam and will not be, so 
to the extent we can approve changes necessary at Folsom and to 
the extent the levees can improve our flood protection, we 
support that, if that could be done in a better way through 
that kind of operations to get to two hundred years, without 
the construction of Auburn Dam.
    Mr. Doolittle. What if it meant the draining--the increase 
in the amount of that reservoir allocated to that flood-flow 
containment?
    Dr. Meral. We would not because of the economic impact in 
the area.
    Mr. Doolittle. So you are concerned about that?
    Dr. Meral. Yes, we are. If two-hundred-year protection has 
to be achieved and everyone is willing to pay for it, probably 
the best way to achieve it is to go beyond what Congressman 
Matsui is proposing to go for additional levee increases in 
heighth because you can pass a larger flow.
    We believe Matsui's plan provides protection against the 
largest flood we have ever experienced. We are not concerned a 
larger plan is necessary.
    Mr. Doolittle. Mr. Steffani, I understand that over the 
years San Joaquin County was induced by Sacramento and the 
Federal authorities not to develop its water supply in exchange 
for getting water from the Auburn Dam; is that your 
understanding?
    Mr. Steffani. Well, there has been an understanding that 
goes back thirty years, I guess, that San Joaquin County would 
be ultimately supplied from Auburn, yes.
    Mr. Doolittle. So if there were never to be an Auburn, then 
you would experience rather severe consequences of your own.
    Perhaps not only do you not impact on flooding but to the 
overdraft of your groundwater basin and shortage of available 
water?
    Mr. Steffani. There has got to be some supply from the 
American River to San Joaquin county. Ultimately we won't 
depend on it for the total answer, but it's an important part.
    May I continue for a moment?
    Folsom Dam and Folsom South Canal were authorized in the 
sixties, I guess or the----
    Mr. Doolittle. 1965 they were authorized.
    Mr. Steffani. [continuing] and public money was used to 
build these facilities that were--that had a very specific and 
defined purpose, and one of those purposes was water supply to 
San Joaquin County. We can't forget that. We don't just erase 
that. That is still on the books. People have depended upon 
that promise for thirty years. We have got to find a way to do 
it.
    Mr. Doolittle. Thank you.
    Mr. Farr, you are recognized.
    Mr. Farr. Sorry. I missed the testimony again.
    I was very interested in Mr. Uhler being on the panel. I am 
just--you have been here all day and heard the debate, have you 
not?
    Mr. Uhler. And I heard you say same old, same old, and you 
were right on.
    Mr. Farr. The point from a taxpayer's standpoint having to 
make these choices, nobody is against the Auburn Dam, but they 
want to do the best effort flood mitigation and environmental--
--
    Do you support, essentially, the Matsui approach?
    Mr. Uhler. No, as I have said in my testimony. While the 
Congressman has the absolute best of intentions in proposing 
this and is doing so from his sense of the reality of what the 
Congress is going to vote for, he has acknowledged many times 
that he too supports the dam.
    So the alternative that I presented was a privately funded 
dam. I believe a preliminary analysis of the value of water to 
be stored and sold with a high dam would be sizable? We have a 
couple of million acre feet of stored water at capacity, and in 
Folsom we have about a million one, something like that.
    We could add the sale of at least a half a million, maybe 
seven-hundred-thousand-acre feet of water out of an Auburn 
storage facility. The water markets around the state are 
firming up, especially with farmers selling their surface water 
rights now, so it won't be too long before we can make firm 
contracts with water districts north and south. The electricity 
is the cleanest produced and very valuable commodity.
    Mr. Farr. I understand putting hydro on Auburn would not be 
cost effective with rates coming down, that the costs of just 
the infrastructure building, the facility there, wouldn't pan 
out.
    Mr. Uhler. That is not my understanding, and as I explained 
in my testimony, here's the way the rate structure seems to 
work under regulated electricity. The way in which the Public 
Utility Commission and the rest figure the rates is that the 
cheapest comes on first. You get a stacking of the rate 
structures. So your cheapest, of which hydro is one, comes on 
first.
    Nuclear is also inexpensive and always bore a very small 
per kilowatt hour cost in the marketplace but is still going to 
sell at the market rate.
    So on a hot August afternoon, the fella who has the hydro 
plant is going to sell at whatever the marginal price is of the 
highest coal-fired plant.
    Mr. Farr. Your point here, what you are representing is you 
believe that the reason Congress is supporting the building of 
the Auburn Dam is strictly fiscal, and if you made that 
private, then it would sail through, regardless of the concerns 
of people like Dr. Meral, who----
    Mr. Uhler. Look, look. I am a sportsman. I am an outdoors 
man. I whitewater raft and all the rest, and these 
environmentalists do not speak for me, and they don't speak for 
an awful lot of people.
    Mr. Farr. But they elect me, and I try to speak for them.
    Mr. Uhler. That is fine. And I know common sense has to 
override preexisting notions of how the world works when you 
have a flood threat and water needs like you have in your 
district. This area could provide the water you need for your 
people. I think you are going to have to think twice about the 
environmentalist viewpoint.
    Mr. Farr. I would like to share with you the taxpayers' 
viewpoint. I think we reflect that as well. I don't think you 
have the total say-so on that.
    The voters in my district were given that option of 
building a dam, and they turned it down. They don't want to 
build a new dam. You know why? These are people in Pebble 
Beach.
    They are conservative groups; right?
    Mr. Uhler. When their taps go dry, Congressman, they might 
give it a second thought, and that is what's going to have to 
happen, sometimes, for us to get our thinking back to some 
common sense.
    Mr. Farr. Let me point out there is a market rate common 
sense. You know what happens when the cost of water goes up? 
The cost goes down.
    We have had a water shortage since 1975. We have not 
stopped taking baths, irrigating golf courses, although we do 
it with reclaimed water. This whole fear here, the fear is the 
worst case example of a flood.
    The other side of the argument is the worst case scenario 
of a drought. We begin to learn Americanisms to cope, and we 
usually--best management practices are the most cost effective, 
and I don't think the jury is still out.
    We know we can get better water utilization from 
agricultural, and frankly, the last part of the question here: 
If you are going to--if we were going to use this water for 
agricultural, don't you think there agriculture is quid pro 
quo? That the subsidized rate, with some kind of commitment, 
low cost, and turn it into urban sales.
    Mr. Uhler. Clearly what's going on around the state, from 
what I observe and read, we are moving from a controlled 
government-subsidized world into one in which markets play a 
part, and you are absolutely right: Supply/demand curves in 
basic economics produce prices and produce the consumption 
levels.
    All I am suggesting--and I have listened all day to 
taxpayer-provided dollar solutions to this problem--is an 
alternative which considers the value of commodities of water, 
hydropower, and flood protection, which can be translated into 
dollars and cents. If there is a gap between that and the 
payoff of the borrowed funds on a thirty- or fifty-year 
mortgage program, then the governmental levels ought to step in 
and say ``All right, Congress, we want three hundred million 
and the state of California. We want a hundred million to fill 
the gap, but you own part of that dam, and you will have an 
asset interest.''
    And after twenty-five years or twenty years of the 
operation, and the pay down of the debt, we will refinance, pay 
off the asset value to the state and the government too, the 
taxpayer never misses a beat, never misses a dime, and we have 
what we need for flood protection, for hydro, and for water.
    Mr. Farr. Does that process require a vote for assessment?
    Mr. Uhler. It will require some people in the legislature, 
I assume. Should the Congress vote to turn the property over to 
the state?
    It will take some people with some guts to withstand the 
environmental implications in this body right here in order to 
get this thing done. Yes, it will take that.
    Mr. Farr. And that will take a two-thirds vote of this 
body, won't it?
    Mr. Uhler. I don't think so.
    Mr. Farr. You are not supporting a two-thirds vote for----
    Mr. Uhler. It's premature. You are talking the method of 
financing. The budget of this state has always required a two-
thirds vote, and I would assume, given all we have, a seventy-
five-billion-dollar budget in this state, I am sure pocket 
money of a couple hundred million bucks could be found 
someplace to fill the gap to protect the capital city of 
California.
    Mr. Farr. It's all being sent back to the automobile 
owners.
    Mr. Doolittle. Mr. Pombo?
    Mr. Pombo. Thank you, Mr. Chairman. You have heard the 
testimony we had earlier today, everybody from the Army Corps 
to the Bureau of Reclamation to the local elected officials 
have stated that the best economic and technical method of 
dealing with the flood control problem in Sacramento in this 
region would be the Auburn Dam.
    I would like to ask the panel: Do you agree with that 
statement in terms of your knowledge of the technical and 
economic benefit. Mr. Uhler?
    Mr. Uhler. Restate it for me, if you would, Congressman?
    Mr. Pombo. The testimony we had earlier today was that the 
best economic method and best technical method for supplying 
flood control for this region was the Auburn Dam.
    Do you agree with that?
    Mr. Uhler. It's obvious everything I read tells me that we 
have got to have more than two hundred years to two fifty to 
meet the newly calculated American River watershed problem, and 
there is only one solution that everybody acknowledges. There 
is only one solution that meets that need, and that is the high 
dam at Auburn.
    And while you are at it, what's the purpose of simply 
building a flood control when if we throw in a few more bucks 
you can have water, you can have the water sales, you can have 
hydro, and you know, why not go the final step and do it the 
right way.
    Mr. Pombo. I believe in their calculations that they are 
considering that in terms of economics of it, that the 
economics of it will not work unless we provide a water source 
as well.
    Mr. Steffani?
    Mr. Steffani. A dam at Auburn, as I stated in my 
presentation, I think a small dam at Auburn plus reop at Folsom 
will give you the two-hundred-year protection.
    What I don't know today is what the cost of that 
combination might be or if there are other environmental 
impacts. I don't know. I don't think anybody has looked at that 
alternative. I would ask that we do that so we are sure we 
covered all the bases.
    Mr. Pombo. Dr. Meral?
    Dr. Meral. Having spent thirty years on this and supervised 
multimillion dollars on this study, Auburn Dam won't meet the 
test that Mr. Uhler proposes. I would like to see it tried, but 
my concern is whether the private sector really wants to invest 
it in. That is the best test in the----
    I would be interested in seeing if a private company would 
want to try to invest in the Auburn Dam. It's not economically 
feasible, not understand the types of studies or under private 
sector, if the private sector wants to come in and look at it, 
that would be interesting.
    Based on my own experience it is not technology--earthquake 
problem, and the problem it doesn't control the South Fork, 
which hasn't come up today. I don't believe it has the positive 
benefit cost ratio.
    Mr. Pombo. One direct question I would have for you is from 
your testimony, you are familiar with the Matsui plan. You are 
familiar with a similar plan in the early 1980's.
    What we are talking about is raising the levees and 
riprapping. You support doing that?
    Dr. Meral. Yes.
    Mr. Pombo. That is coming from your vantage point that 
surprises me. Riprapping the levees down in my part of my 
district down in the Delta where I am from, we would love to be 
able to fix our levees and riprap them, and we run into 
opposition from the environmentalists every time we bring it 
up.
    Dr. Meral. As distinguished from Calaveras River, the real 
difference is the American River Parkway, which is essentially 
the floodplain of the American River today, is by and large, 
pretty much in a natural state except for the levees. The 
levees are, by and large, sanitized today because of 
engineering concerns and flood control concerns.
    The habitat that you have in some extent is not present on 
the American River levees. They are maintained in a highly 
engineered state during boils, things like that, so the changes 
that would have to be done to the levee, such as the slurry 
wall, things like that, would not be serious degradation, which 
it might be. The levees work in our area along the American 
River. Why Congressman Matsui that you referred to.
    Mr. Pombo. I find that really interesting because I have 
been through these battles all my adult life, and having grown 
up out in the Delta, having had the opportunity to see what 
happens with our particular levee system, and I am very 
familiar with the American River system because I represent a 
good part of it, and I know what's there, and there is not a 
lot there that is natural.
    I am saying you stated that it was pretty much in its 
natural state. Quite frankly, it's not. It's in a man-made, 
manufactured state, that, in some ways, replicates a natural 
state, but there is nothing there managed for a hundred years, 
and it's not really natural nor are the levee systems in the 
Delta in a natural state.
    Dr. Meral. What I meant: Not the levees are a natural 
state. The area below the levees inside along the river are 
still more or less in a natural state. They are certainly not 
like they were. But I mean, the area--the land that is not 
protected by the levees inside the floodplain channel. That is 
what I was referring to.
    Mr. Pombo. I realize that is what you are referring to. I 
think you would have a real difficult time making a case that 
that is natural.
    Dr. Meral. We have a lot of nonnative plants, I agree with 
that.
    Mr. Pombo. Bypass and a lot of other things I don't think 
nature created.
    Just for the sake of argument, I am a little bit surprised 
to hear you support that plan because I know what kind of 
opposition we have gotten from trying to maintain our levee 
systems down in the Delta, and it has been fierce opposition to 
maintaining the levee system, and it has taken years to do 
routine maintenance on a system because of lawsuits that have 
been filed and everything else.
    I find it interesting that we have gone from that to 
supporting this particular plan, and it's very interesting that 
we have gotten to that point.
    Dr. Meral. In my normal role at this table as a state 
lobbyist, we have strongly supported--we work with George, 
basically, and many others in the Delta to come up with money 
in 204, which many Members of Congress support as well too. 
That is a very high priority. We are concerned about the 
natural protecting of those levees, and a lot of money has been 
spent to do that. I used to be in charge of that program, and 
it's got to be done.
    Mr. Pombo. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you. Mr. Matsui?
    Mr. Matsui. I don't have any questions.
    I would like to thank you, Mr. Uhler, Mr. Steffani, Dr. 
Meral, for testifying here today.
    Mr. Chairman, if would you indulge me, I would like to 
thank the members that came from outside of the Sacramento 
area, including yourself, today to be part of this hearing.
    I would like to conclude by saying I really appreciate your 
judiciousness and evenhandedness, whatever side we have to be 
on. We had every opportunity to ask any question we wanted to, 
and the witnesses had every opportunity to respond.
    I want to thank you very much. I thought it was a very 
fair, very open, and very even hearing, and so I appreciate it, 
and I wanted to extend my appreciation to you.
    Mr. Doolittle. Thank you. I do appreciate that, and I thank 
all of our witnesses. And I want to especially thank our court 
reporter. If I realized this would have dragged on for this 
long--Keli Rutherdale has done an outstanding job. This hearing 
has gone on for six and a half hours.
    I guess we will learn from this. I think a great deal of 
the valuable information has been induced from the hearing. I 
think understanding has been increased to the State Assembly.
    I acknowledge their assistance in providing the hearing 
room, to the State Senate for assisting us with security, and 
specifically to our Senate sergeant-at-arms and his staff. We 
are grateful for the help you have given us and to the State 
Police, as well, with helping for security. And to our 
Committee staff who have worked a great deal to make this 
hearing possible.
    We no doubt will have further questions for you and will 
try to get those to you soon and ask for you to respond 
expeditiously and hold the record open for that purpose.
    And with that, we will excuse this panel and this hearing 
is adjourned.
    [Whereupon, at 4:31 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
 Statement of Roger Patterson, Regional Director, Mid-Pacific Region, 
           Bureau of Reclamation, Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for 
the invitation to attend today's oversight hearing on proposals 
to modify Folsom Dam. I appreciate the opportunity to discuss 
the technical and operational aspects of this issue.
    The Bureau of Reclamation believes flood protection for the 
Sacramento area, and efforts to protect Folsom Dam during a 
flood emergency are extremely important. In response to our 
concern, Reclamation entered into an interim reoperation 
agreement with the Sacramento Area Flood Control Agency (SAFCA) 
in an effort to provide 100 year flood protection until the 
flood control solution for Sacramento was determined. However, 
our hydrological analysis to date has shown, based on the 1997 
flood, that 100 year protection may not be provided by 
reoperation alone.
    For this reason, the Administration in the Water Resources 
Development Act of 1998 sent to Congress last month a provision 
to address flood control concerns in Sacramento. Section 3 
authorizes the construction of the Folsom Stepped Release Plan 
identified in the U.S. Army Corps Engineers Supplemental 
Information Report dated March 1996. Section 3 authorizes the 
Secretary of the Army with full participation of the Secretary 
of the Interior to modify Folsom Dam. Prior to making any 
changes at Folsom, the Secretary of the Army must review the 
design plans to determine if modifications are necessary to 
account for changed hydrological conditions and any other 
changed conditions in the project area, including operational 
and construction impacts.
    The Bureau of Reclamation believes there are engineering 
and logistical issues associated with the Stepped Release Plan 
developed by the Corps. We will be pleased to work with the 
Army Corps of Engineers and local flood control officials to 
evaluate the flood capabilities of the various proposals for 
modifying Folsom Dam. For example, we believe a design that 
incorporated new and/or enlarged outlets may be more workable 
but could result in a slight reduction in flood control 
benefits.
    Reclamation's recent experience constructing emergency 
repairs at Folsom Gate number 3 sheds some light on potential 
problems. Totally sealing and leak-proofing the construction 
zone was difficult. If modifications to Folsom Dam are 
approved, we will make every attempt to ensure that the work 
area can be leak-proofed so that work will proceed with minimal 
disruptions.
    We also recognize the importance of working closely with 
state and local officials to minimize the disruption of 
commuter traffic and area businesses. Closures of Folsom Dam 
Road would be kept to a minimum.
    These considerations, notwithstanding, it is clear to us 
from flood operations in 1997 that modifications to Folsom Dam 
are necessary. The limited ability to make adequate releases 
from the reservoir in advance of oncoming storms is a serious 
concern to Reclamation and it is a situation that should be 
addressed.
    In summary Mr. Chairman, we agree that modifications to 
Folsom Dam are critical to providing flood control for 
Sacramento. We will fully cooperate with the Corps and local 
officials should Congress authorize the modifications.
    Thank you for the opportunity to testify. I would be 
pleased to answer any questions you may have.
                                ------                                


             Statement of The California Reclamation Board

    The Reclamation Board has State responsibility for flood 
control in the drainage areas in the Sacramento and San Joaquin 
rivers and tributaries. This includes the American River. In 
that role the Board is responsible to either, (1) act as 
nonFederal sponsor and provide State portion of cost sharing 
and act as lead agency under the California Environmental 
Quality Act, or (2) review the project and grant or deny a 
permit if the Reclamation Board is not acting as nonFederal 
sponsor.
    The Reclamation Board has stated its position for providing 
the greater Sacramento area improved flood protection on three 
different occasions. March 20, 1998, they passed Resolution 98-
04; April 20, 1998, a letter to congressional representatives 
restating the Resolution 98-04 position, implying that there 
was a substantial difference between raising levees and fixing 
levees and that raising any hydraulic structure is a serious 
issue and creates many concerns that must be addressed; and May 
22, 1998, a second letter to congressional representatives 
restating in more definitive terms our position and concerns.
    The Board's position is to ultimately provide the 
Sacramento area with a minimum two-hundred year level of 
protection. The next incremental step that appears prudent to 
obtain that goal is to modify Folsom Dam and further study the 
levee raising to answer numerous technical issues. The Board is 
prepared to act as local sponsor and seek State funding for 
modifying Folsom. At this point in time, the Board is not 
prepared to act as local sponsor nor provide State funding for 
raising the levees.
    The Board strongly supports repairing levees as has been 
demonstrated in their participation as nonFederal sponsor and 
funding on projects throughout the Sacramento Valley. However, 
the Board has serious concerns on raising levees to routinely 
pass increased flows and have higher stages on the American 
River system. Concerns exist in four categories:

        <bullet> Dependability--
        <bullet> The Stepped Release Plan must be proven to be a 
        dependable and fiscally prudent incremental step for improved 
        flood protection. Also note that the Corps requires a waiver to 
        their 90 percent reliability policy in order to certify the 
        Stepped Release Plan or Folsom Modification Plan for FEMA 100-
        year protection.
        <bullet> Engineering--
        <bullet> The Stepped Release Plan must be thoroughly developed 
        to the technical level normally provided by the Corps prior to 
        considering State authorization. This requires further detailed 
        studies on many issues, such as bank and levee erosion 
        protection or levee and foundation stability and seepage 
        concerns.
        <bullet> Cost--
        <bullet> Based upon the levee problems encountered in recent 
        floods and the additional engineering and environmental studies 
        that are needed, we seriously question the accuracy of the 
        project scope and estimated cost. In fact, the Stepped Release 
        Plan does not appear to meet Corps policy for cost 
        effectiveness and Federal cost sharing.
        <bullet> Mitigation--
        <bullet> The Stepped Release Plan will create hydraulic effects 
        downstream and upstream in the Sacramento River and the Yolo 
        Bypass that require further analysis for determining the 
        impacts and mitigation. Additionally the environmental impacts 
        have not been evaluated in detail nor have the hydraulic and 
        environmental impacts and mitigation been fully presented to 
        the public for full disclosure and comment as a recommended 
        plan for flood control.
                                 ______
                                 

   Statement of Carl F. Enson, Director of Engineering and Technical 
 Services, U.S. Army Corps of Engineers, Department of the Army, South 
                            Pacific Division

INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, I am Carl F. 
Enson, Director of Engineering and Technical Services for the 
South Pacific Division of the U.S. Army Corps of Engineers. 
Accompanying me are Colonel Dorothy F. Klasse, Commander of the 
Sacramento District of Army Corps of Engineers, and Mr. Robert 
D. Childs, Project Manager in the Sacramento District. We are 
here today representing Dr. John H. Zirschky, the Acting 
Assistant Secretary of the Army for Civil Works, to respond to 
the issues raised in your letter of invitation concerning 
impacts and effects of the proposed modifications to Folsom 
Dam.

ISSUES AND CONCERNS

    The following comments are intended to respond to each of 
the five issues and concerns identified your letter.

    ``the traffic impacts caused by construction on the dam 
road''

    Alternative flood control plans for the American River, 
including the Stepped Release Plan, were formulated and 
evaluated in the Supplemental Information Report (SIR) produced 
by the Corps of Engineers in 1996. The Stepped Release Plan as 
deemed in the SIR includes lowering the spillway to allow a 
greater amount of water to be released sooner, thus increasing 
the effectiveness of the flood storage space behind the Folsom 
Dam. Although the SIR reported no major impacts to traffic 
through closure of Folsom Dam Road, we now believe lowering the 
spillway would result in regular closing of Folsom Dam Road 
during construction. An alternative to spillway lowering is to 
increase the number of low level outlets through the dam. This 
outlets option is slightly less effective at reducing flood 
risk than spillway lowering, but would result in only 
occasional closure of Folsom Dam Road during construction. The 
Corps is working closely with the Bureau of Reclamation on this 
and other dam modification issues. This issue would be 
addressed during the design of the Folsom Dam modifications.
    ``the impact of the proposal on local water supply''

    The Stepped Release Plan would not adversely affect water 
supply. The Folsom Dam is currently operated using a variable 
maximum flood control space between 400,000 and 670,000 acre 
feet. The flood control space is set depending on flood control 
storage space available at five other reservoirs upstream of 
Folsom. Folsom Reservoir originally had a fixed flood control 
storage pool of 400,000 acre feet. The current operation 
reduces the space available for water supply compared with the 
original operation. The current operation was initially the 
result of an agreement between the Sacramento Area Flood 
Control Agency and the Bureau of Reclamation to increase flood 
control storage available in Folsom Dam. Continuation of this 
operation was authorized in the Water Resources Development Act 
of 1996. The Stepped Release Plan is based on continuation of 
this operation for variable flood control storage in Folsom 
Dam.

    ``the reliability of the proposal, including the safety 
concerns caused by releasing 180,000 cfs from Folsom Dam''

    The Stepped Release Plan includes modifications to the 
flood control outlet facilities at Folsom Dam, increased use of 
surcharge storage space in Folsom Reservoir, and increasing the 
objective release to the lower American River from 115,000 
cubic feet per second (cfs) to a maximum of 180,000 cfs. The 
higher objective release requires significant modifications to 
the existing levee and channel system along the lower American 
River and Sacramento and Yolo Bypasses. The plan would result 
in a decrease in the likelihood of flooding in the greater 
Sacramento area from about 1 in 77 to about 1 in 160 in any 
year.
    Based on information known to the Corps today, we believe 
the existing system can be modified to reliably pass an 
objective release of 180,000 cfs. Certainly, additional studies 
are required to design specific project features. We will have 
to consider factors such as hydrology, river stage, estimated 
levee stability, and operation of facilities.

    ``the effects of the proposal on downstream and upstream 
communities''

    As mentioned, the Stepped Release Plan includes increasing 
the objective release for flood control from Folsom Dam to a 
maximum of 180,000 cfs. A fundamental conclusion regarding this 
plan in the 1996 SIR was that without increasing the flow 
capacity at the Sacramento Weir and Bypass and modifying some 
of the levees along the Yolo Bypass, the increased flows 
exiting the American River would reduce the existing level of 
flood protection along the lower Sacramento River and 
elsewhere. Accordingly, to mitigate this impact, the Stepped 
Release Plan included widening the Sacramento Weir and Bypass 
by about 1,000 feet and constructing improvements to about 52 
miles of existing levees along the Yolo Bypass and downstream 
sloughs. It is the intent of these modifications to not 
increase the water surface elevations during design events 
upstream along American River or Sacramento River. Whether or 
not these features would ultimately be defined as all those 
necessary to fully mitigate for any increased river stages and/
or flows will need to be determined in more detailed 
evaluations conducted prior to project construction. It is our 
intent to fully mitigate for any effects the Stepped Release 
Plan would have on downstream areas.

    ``the environmental consequences of the proposal''

    The levee work in the Stepped Release Plan as described in 
the 1996 SIR would have impacts including the expected loss of 
about 40 acres of riparian vegetation and oak woodland along 
the lower American River and approximately 120 acres of 
riparian and oak woodland cover and wetlands would be lost due 
to construction in the Sacramento and Yolo Bypass areas 
downstream of the American River. These losses would be 
mitigated as a project activity at sites in the project area. 
As with the other elements of this plan, environmental impacts 
and potential mitigation features would need to be reevaluated 
as part of any future studies. The Folsom Dam modifications 
primary impacts during the construction period would be to air 
quality, local traffic patterns and noise levels. Dam operation 
with the modifications would result in occasional changes to 
flows in the lower American River and changes to the reservoir 
water surface elevations. These changes would have little 
effect on environmental resources.

CONCLUSION

    Mr. Chairman, that concludes my testimony. I can assure you 
that the Corps of Engineers will work with our Federal, state 
and local partners and affected parties to address the issues 
raised and undertake expedited efforts to assure reliable flood 
protection along the American River and in the Sacramento area.
                                ------                                


 Statement of Raymond Costa, Jr., Principal Engineer, Kleinfelder, Inc.

LEVEE IMPACTS

    Flood control solutions generally involve storage, 
diversion, and/or conveyance. Storage is achieved by 
constructing dams, diversion is accomplished with bypasses, and 
conveyance is usually facilitated with levees. Many local flood 
control experts believe that increased storage (in the form of 
a structure along the North Fork of the American River) is the 
most efficient means to increase the flood protection for 
Sacramento. However, recent attempts to obtain authorization 
and funding for such a structure have not been successful. As a 
result, a proposal has been put forth to increase flood 
protection through modification to levees along the American 
River, portions of the Sacramento River, Sacramento Bypass, and 
Yolo Bypass. These levee modifications include raising, 
strengthening, and armoring in order to safely convey an 
objective release of 180,000 cubic feet per second (cfs) from 
Folsom Dam.
    The role of a geotechnical engineer in this decision making 
process is to provide input to the decision makers concerning 
the relative risks associated with levee modifications. Once a 
decision is made, it becomes the geotechnical engineers role to 
design a system that is both safe and meets the expectations of 
the public.
    This increased discharge from the current objective release 
of 115,000 cfs relates to two principal geotechnical impacts to 
the existing levee system. The first is a raising of the 
maximum water surface level (stage) and the second is an 
increase in flow velocity along the levees.
    The resultant effects of these two potential impacts are as 
follows:

    Increased Stage

        <bullet> Reduction in safe height (freeboard) above the maximum 
        water surface
        <bullet> Increased water pressure against the levee embankments

Increased Flow Velocity

        <bullet> Increased erosional forces on the levees

    Each of these impacts can be mitigated using conventional 
engineering design and construction techniques. These techniques are 
not unique to this application having been utilized successfully within 
other portions of the Sacramento River Flood Control System.
    Some of these techniques are as follows:

Increased Stage

        <bullet> The levees can be raised with either earthen materials 
        or where access is limited, concrete floodwalls. For every one 
        foot in levee vertical height increase, the levee embankment 
        increases five feet in width. A normal freeboard amount of 
        three feet can be provided.
        <bullet> Earthen buttresses and/or seepage relief improvements 
        can be constructed to provide enhanced stability against 
        greater water pressure. The current program of slurry wall 
        construction within the levees should enhance the seepage/
        stability of the earthen embankments. In other areas, land side 
        earthen buttresses can be provided to increase the levee slope 
        stability.

Increased Flow Velocity

        <bullet> Rock slope protection can be provided to armor slopes 
        where flow velocities would increase and threaten to erode the 
        levee surface.
    In summary, due to increased objective releases, potential impacts 
to levee integrity can be mitigated by conventional engineering design 
and construction techniques. Existing factors of safety can be 
maintained or improved under conditions of increased water surface 
elevations and flow velocities.
    It is important to also note that all flood control improvements 
require continued monitoring and maintenance. This will be especially 
important for a system designed to convey an objective release of 
180,000 cfs.

Raymond Costa, Jr.,
Principal Engineer

Summary of Experience

    Mr. Costa is both a California licensed civil and geotechnical 
engineer with more than 22 years of project management experience. He 
has provided design, evaluation, and construction recommendations for 
more than 200km of levee projects involving bank stability, erosion, 
seepage, and settlement analyses. Mr. Costa is also knowledgeable in 
coordinating design and construction projects with various flood 
control agencies and districts including the Sacramento District Corps 
of Engineers, State Reclamation Board, and Sacramento Area Flood 
Control Agency.

Education

    BS Civil Engineering, University of California, Davis, California, 
1976

Registrations

    Civil Engineer, 29078, California, 1978
    Geotechnical Engineer, 241, California, 1987

Professional Affiliations

    American Society of Civil Engineers
    American Public Works Association
    Society of American Military Engineers
    Structural Engineers Association of Central California
    Association of Drilled Shaft Contractors

Select Project Experience

    A representative selection of Mr. Costa's project experience is 
included below:

    Geotechnical Investigations, Emergency Levee Repairs, U.S. Army 
Corps of Engineers, Sacramento River Valley, California. Project 
manager for emergency response assessment of levee damage associated 
with January 1997 flooding in accordance with Public Law 84-99. Four 
separate basins were investigated for inclusion within the emergency 
levee repair program. Scope of work involved levee stability and 
seepage evaluation, erosion analyses, geotechnical investigations, cost 
benefit economic determinations and preparation of cost estimates, 
plans and specifications. All work was completed on an accelerated time 
schedule in order that construction could be completed prior to the 
following flood season.

    Geotechnical Engineering, Natomas Area Flood Control Improvements 
(SAFCA), Sacramento and Sutter Counties, California. Provided 
geotechnical engineering services for the Sacramento Area Flood Control 
Agency for flood control improvements. Project manager in responsible 
charge of the design and construction monitoring of over 30km of levee 
strengthening and raising. Coordinated all work with Sacramento 
District COE, State Reclamation Board, and local levee maintenance 
districts. Verified work was completed in accordance with COE design 
and construction methods.
    Geotechnical Engineering, Feather River Levee, Sutter County, 
California. Completed a geotechnical investigation for a major 
groundwater water collection system constructed south of Yuba City. 
Project manager in responsible charge of the firm's analysis and design 
of a seepage collection system at the location of 1955 levee break. 
Coordinated all work with Sacramento District COE, State Reclamation 
Board, Levee District 1, and project civil engineer. Responsible for 
design of relief wells, relief trench drains, and seepage interceptor 
trenches. Performed slope stability analyses of adjacent levee.

    Slope Stability Analysis, Marysville Levee System, Marysville, 
California. Project manager for slope stability analysis of over 7 
miles of levee which surrounds Marysville. Explored, instrumented, and 
currently monitoring area of possible levee movement. Instrumentation 
as a suspected soil creep area performed after 1986 floods.

    Slope Stability Design, Beach Lake Levee Repair, Sacramento, 
California. Project engineer in charge of repair of damaged section of 
levee during 1986 flood. Slope failure area was removed and entire 2 
miles levee alignment was buttressed with an earthen fill to enhance 
levee stability.

    Evaluation Studies, Lower American River Levees, Sacramento, 
California. Project manager for local agency review of Corps of 
Engineers preliminary levee evaluation studies. Scope included 
stability, seepage, and erosion analysis of 26 miles of levees.

    Geotechnical Investigation, Laguna Creek Levees, Sacramento, 
California. Principal-in-charge of investigation for 4.3 miles of new 
levees surrounding Laguna Creek subdivision. FEMA approval was 
accomplished.

    Earth Fill Design, Harvey Place Dam, Alpine County, California. 
Project manager and senior engineer during dam construction of 3,900 
acre foot treated wastewater storage reservoir. Main dam included an 80 
ft. high earth embankment. Provided earth fill dam design, supervised 
borrow pit explorations, laboratory testing, and dam instrumentation. 
Worked with geologists to assess foundation shear zones and develop 
seismic ``crack supper'' mitigation measures. DSOD permitting required 
for project.

    Geotechnical Investigation, Anderson Ranch Dam, Nevada City, 
California. Project manager for geotechnical investigation and 
construction monitoring services for this 30-foot dam located in Nevada 
City, California. Project included earth fill dam de-

sign and investigation of borrow sources which included the use of 
decomposed granitic rock. DSOD permitting required for project.

    Photogeologic Lineament Analysis, Pine Flat Reservoir, Fresno and 
Tulare Counties, California. Conducted a photogeologic lineament 
analysis and fault capability study of an area approximately 32km in 
radius around Pine Flat Dam and Reservoir in Fresno and Tulare 
Counties, CA. Project manager in responsible charge of coordinating and 
conducting geologic analyses and identification of lineaments by 
overseeing detailed photolineament analysis of the study area. Made 
recommendations for subsurface exploration at locations within the 
study areas to assess the origin of mapped lineaments.

    California State Prison Ione, Amador County, California. Project 
engineer for siting study for wastewater storage reservoir constructed 
for new prison. DSOD review required.

    California State Prison Coalinga, Fresno County, California. 
Project manager for geotechnical siting study and design of 250 acre 
effluent storage and treatment ponds. The project was configured with 
intermediate dikes such that DSOD jurisdiction and approval was not 
required.
                                 ______
                                 

    Statement of Ricardo S. Pineda, Chief Engineer, The California 
                           Reclamation Board

    My name is Ricardo Pineda and I am the Chief Engineer for 
the Reclamation Board of the State of California. I am here 
today to present my views as a professional engineer on the 
various technical concerns the Reclamation Board has regarding 
the proposed Stepped Release Plan (SRP).
    My comments on the SRP focus on four specific areas:

        1. Reliability of the project to pass the design discharge
        2. Hydraulic impacts
        3. Environmental impacts
        4. Cost of the project

Reliability

    The Stepped Release Plan will be designed to pass a controlled 
discharge from Folsom Dam of up to 180,000 cubic feet per second. This 
discharge is about 50,000 cfs greater than the maximum flow ever 
released from Folsom Dam. To safely pass this flow, levees along the 
American River will need to be raised and new levees and floodwalls 
will need to be built. The new and existing levees will need to be 
protected against erosion by the placement of rock on the waterside 
levee slope. Existing riverbank protection may need to be modified to 
account for the higher flow velocities associated with the increased 
objective release. The 180,000 cfs objective release will strain the 
downstream levee system and require it to work flawlessly in order to 
safely convey the flows through narrow parts of the levee system. There 
cannot be a single weak link throughout the complete length of the 
levee system.
    Damage to Federal and State levees caused by the floods of 1997 and 
1998 highlight the need to take a very cautious approach relative to 
increased dependence on levees for flood control. Elements of the SRP 
associated with levee stability, foundation seepage, and erosion 
protection will need to be carefully planned, analyzed and designed to 
ensure that there will be no failure, expected or unexpected.
    The Reclamation Board in four different resolutions has stated its 
intent to support at a minimum, a 200-year level of flood protection. 
The safest and most reliable way to provide protection at this level, 
is through additional flood control storage upstream of Folsom Dam. The 
Corps reliability analysis show that flood control storage upstream of 
Folsom Dam is the only option that provides a minimum 200-year level of 
flood protection with a high reliability (90 percent).

Hydraulic Impacts

    The SRP increases the objective release from Folsom Dam from the 
current 115,000 cfs to a stepped 145,000 cfs/180,000 cfs level. To 
account for the additional flows, the downstream Sacramento River and 
Yolo Bypass flood control system must be modified to safely convey the 
increased discharge from the American River to the Yolo Bypass. To 
accomplish this transfer without adverse impacts to the system, the 
1996 report estimated that the Sacramento Weir would need to be widened 
about 1,000 feet, a new Sacramento Weir north levee would be 
constructed, approximately 26 miles of Yolo Bypass levees would be 
raised and 38 miles of Yolo Bypass levee strengthened.
    The widened Sacramento Bypass would encompass an abandoned landfill 
located in Yolo County. Dependent upon modeling assumptions and 
criteria for determining the need for hydraulic mitigation, additional 
downstream levee improvements may be necessary.
    The Reclamation Board plays a vital role as the caretaker of the 
Sacramento River Flood Control Project. Levee maintenance districts 
both large and small depend on the Board acting through the Department 
of Water Resources to ensure that the system is operated safely, 
maintained properly and that modifications to project facilities that 
decrease the potential for flood damages in one community does not 
increase the risk of flooding in another. The Board takes this role 
very seriously and will need to fully evaluate project impacts and 
proposed mitigation before taking any action to recommend approval of a 
levee based American River flood control project.

Environmental Impacts

    According to the 1996 report, the SRP requires about 13.5 miles of 
American River levee raising, 5.8 miles of levee erosion protection, 
new levees and floodwalls, modifications of three bridges, extensive 
modification to city and county pump and drainage facilities, and 
extensive levee work along the Sacramento Bypass and Yolo Bypass. While 
environmental restoration is proposed for the lower American River, a 
detailed accounting of environmental impacts associated with the 
project, especially along the lower American River has not been fully 
documented or publicized relative to a project of this magnitude or 
scope. For the Reclamation Board to act as lead agency under the 
California Environmental Quality Act, additional environmental analyses 
and public outreach will be necessary.

Cost of the Project

    The 1996 Chief of Engineers report estimated the cost of the 
downstream levee improvements at approximately $313 million. Based upon 
the Board's experience in the 1997 and 1998 floods, I firmly believe 
that levee improvements in addition to those described in the 1996 
report would be necessary if considering a levee based plan for the 
American River. In addition, dependent upon the criteria used for 
computing hydraulic impacts and the policy for hydraulic mitigation, we 
may be underestimating the amount of work associated with impacts to 
the downstream system. Current court cases indicate this to be the 
case. Dependent upon the final amount of structural levee, bridge, and 
pump/drainage facility work necessary for the project to safely convey 
180,000 cfs, the project cost may increase significantly above that 
which is estimated in the Chief's report.
                                 ______
                                 

 Statement of Joseph D. Countryman, PE, (Engineer Consultant to SAFCA)

INTRODUCTION

    I am Joseph D. Countryman, a resident in the American River 
flood plain. The issues before us today are more than just a 
technical curiosity to me since I will join 40O,000 other 
people in the Sacramento area as a flood victim should the 
American River breach its levees. I have worked as a civil 
engineer in California for over 30 years planning, designing 
and operating flood control facilities. The first 21 years of 
my career were with the U.S. Army Corps of Engineers. During 
that period I was chief of Reservoir Operations, and I ended my 
career with the Corps as Chief of Civil Design. The last 11 
years I have been in private practice with the firm of Murray, 
Burns and Kienlen (MBK), a civil engineering company. I am a 
principal at MBK. Our company works exclusively on flood 
control and water resources issues.
    I have reviewed the statement provided to your Committee by 
SAFCA, and I concur with both the technical presentation 
therein and the logic presented supporting the construction of 
the Folsom Dam modifications and the improvements in downstream 
levees. I will not reiterate the descriptions provided in that 
testimony. I will provide specific technical data in my 
testimony pertinent to the issues on which you have requested 
additional information. As I understand the purpose of this 
hearing, it is to explore questions on construction impacts at 
Folsom Dam relative to traffic, water supply and recreation. In 
addition, the impact raising American River levees and the 
consequent higher objective flood releases in the lower 
American River would have on the overall flood control system 
reliability will be reviewed.

FOLSOM MODIFICATION IMPACTS

    Traffic. The modification of Folsom Dam to improve its 
outlet capacity under the original plan proposed by the Corps 
would have a substantial impact on traffic that uses the top of 
the dam as a highway. My report, prepared for SAFCA in March 
1998, indicated that the lowering of the spillways at Folsom 
Dam would cause the road to be closed for a substantial period 
over nine years. Construction of new river outlets or the 
enlarging of the existing outlets will have minimal impacts on 
traffic and no impacts during peak travel periods. In our 
report we recommended that the lowering of the spillway bays be 
replaced with the addition of five new river outlets because it 
would be less costly, it would essentially eliminate traffic 
impacts, and could be constructed in two years. I believe once 
the Folsom Dam modifications are authorized by Congress, the 
Corps will confirm my findings in their Preconstruction 
Engineering and Design (PED) studies.
    Separate from the issue of modifications to Folsom Dam, the 
use of the top-of-dam road by the public should be addressed. 
The public highway interferes with the operation and 
maintenance of the dam. If possible, a bridge should be 
constructed downstream of the dam to move the traffic off of 
the dam to improve safety for the personnel at the dam and to 
facilitate Reclamation's ability to operate and maintain the 
structure. If future emergency operations are required, then 
this critical transportation link across the American River 
would not be lost during the emergency.
    Water Supply Impacts. The proposed modifications to Folsom 
Dam and the time extension of the reoperation for flood control 
would not have any impact on local water supply. Construction 
of improved pumping capacity at Folsom Dam is currently 
underway and will be finished this year. This new water supply 
pumping capability will assure Roseville, Folsom, San Juan 
Water District and Placer County Water Agency that they will be 
able to obtain their water from Folsom Lake.
    The addition of the new outlets will allow a reduction in 
the existing reoperation flood space due to the increased 
efficiency of the flood control operation. The reoperation 
flood space could be reduced from 270,000 acre-feet to 200,000 
acre-feet, a 25 percent reduction once the Folsom Dam outlets 
are modified. Therefore the adoption of this plan would 
substantially reduce the chance that the CVP water supply or 
other uses of Folsom Dam would be impacted by the revised flood 
operations plan. In addition, I am now working with the Corps, 
Reclamation, National Weather Service and the State Flood 
Center to determine if the utilization of currently available 
flood forecasting technology can be implemented that would 
improve flood operations and water supply performance at the 
dam. If we are successful in developing a new operation 
schedule based on the use of this technology, flood control, 
recreation and water supply will all benefit. I would be happy 
to keep you informed of progress we make in this area.

AMERICAN RIVER LEVEE RELIABILITY

    Would the American River levees be more or less reliable if 
they were designed to pass 180,000 cfs? The existing Federal 
levees along the American River were designed to pass 152,000 
cfs with 3 feet of freeboard under emergency conditions or 
115,000 cfs under ``normal'' flood operations. During the 1986 
flood, a 134,000 cfs was safely passed down the American River. 
The ``Stepped Release Plan'' envisions a ``normal'' flood 
operations flow of 145,000 cfs and an extreme event release of 
180,000 cfs. From a flood control perspective, the design of a 
flood system can be made more reliable with lower flows than 
for higher flows. This is because the higher a levee is the 
greater the forces are working against that levee. The height 
of the water and the erosive force of the water against the 
levee are factors. When a reservoir is involved in the flood 
control design, higher controlled flood releases actually 
reduce the maximum flows that the downstream levees must carry. 
I have attached Chart 1 to this presentation which illustrates 
this point with the 150-year flood under three operating 
conditions; (1) existing Folsom Dam facilities and operation 
plan, (2) modify Folsom Dam (new outlets + enlarge existing 
outlets) with 115,000 cfs objective flood release, and (3) 
modify Folsom Dam with ``stepped'' 145,000 cfs--180,000 cfs 
objective flood release. The chart shows that the flow will be 
nearly 350,000 cfs in the American River with the existing 
Folsom Dam facilities and operation plan. I can assure you that 
the American River levees will not pass flows of this magnitude 
without breaching, and I have no doubt that Sacramento River 
levees and Yolo Bypass levees will also be severely impacted. 
Modifying Folsom Dam while keeping the objective flood release 
of 115,000 cfs would reduce the American River flows to about 
230,000 cfs. Again, the American River levees will be 
overwhelmed by a flow of this magnitude. Finally, by adopting 
the ``stepped'' objective flood release schedule, flows in the 
American River can be controlled to 180,000 cts. Hydraulic 
modeling studies by the Corps indicate flows of this magnitude 
can be safely accommodated within the American River levees. 
Therefore, the system will be much safer with the increased 
objective flows than if the current objective flow of 115,000 
cfs is maintained.
    I reviewed the existing Sacramento River Flood Control 
System levees to determine if either the flow magnitudes or 
levee heights required along the American River by the 
``Stepped Release Plan'' were consistent with the rest of the 
system; Chart 2 summarizes my research. The American River 
levees, after modification to pass the emergency release of 
180,000 cfs, compare favorably with the Feather River, 
Sacramento River and Yolo Bypass levees. Another factor to 
consider is the extensive bank protection currently underway 
along the American River that is significantly improving the 
protection of the levees from lateral erosion.
    Another issue relating to flood protection reliability is 
the size of the flood that can be controlled by the dam and 
levees. I have prepared an illustration, Chart 3, showing the 
relative performance of the proposed flood system alternatives. 
This chart compares the size of the flood that can be 
controlled by Auburn Dam, Folsom Dam and Levee Modifications, 
and Folsom Dam Modifications to the 1997 Flood (the largest 
flood recorded on the American River since 1860). The Dam and 
Levee Plan will safely control a flood nearly 70 percent larger 
than the record 1997 flood.
    My conclusion is that the American River levee system will 
be much more reliable with the proposed dam and levee 
modifications than the existing condition levee and dam system.

DOWNSTREAM AND UPSTREAM AFFECTS OF THE PROPOSED PROJECT

    The hydraulic impacts of the Dam and Levee Plan have been 
documented by the Corps. The Dam & Levee Plan includes widening 
the Sacramento Weir to accommodate the increased objective 
releases from the American River. Because of this weir 
widening, the river stages in the Sacramento River will be 
reduced since additional water will be transferred to the Yolo 
Bypass. The Corps hydraulic modeling indicates that the limit 
of the upstream hydraulic impacts of the project is near Verona 
on the Sacramento River and downstream of the Fremont Weir in 
the Yolo Bypass. I have attached a map that shows the Corps' 
proposed hydraulic mitigation work in the Yolo Bypass to offset 
the increased flows in the Yolo Bypass. Although the Corps 
studies did not identify any impacts downstream of the Yolo 
Bypass due to increased flows in the bypass, this conclusion 
was partially based on engineering judgment. I understand 
detailed design studies will be completed by the Corps 
following Federal authorization of the project to quantify 
their findings. They will expand their hydraulic modeling 
effort to assure that downstream concerns about impacts of the 
project are evaluated in detail. Additional impacts are not 
expected to be identified but if new impacts are identified, 
the project will mitigate the impacts. The existing Corps 
studies show that the maximum water level difference in the 
Yolo Bypass will be about 6" for the 200-year flood, and the 
levee system will maintain about 3 feet of freeboard for this 
rare flood.
    It is important to note that any improvements to the 
Sacramento River Flood Control Project levees upstream of the 
Yolo Bypass that increase the carrying capacity of the levees 
could increase flows in the Yolo Bypass. Certainly, the Feather 
River levee failure in 1997 reduced downstream flows in the 
Yolo Bypass. I know of no flood control project in California, 
other than the American River project, that recognizes this 
potential and is recommending hydraulic mitigation. I strongly 
recommend that the Corps' current Sacramento River Watershed 
Investigation recognize the critical importance of the 
downstream levee systems and make recommendations to assure 
that downstream levees can carry increased flows that result 
from upstream levee improvements.

CONCLUSIONS

    Sacramento is facing an extreme flood risk. No area in this 
country has either the number of people or value of improved 
property at risk as does Sacramento. The Federal, state and 
local flood agencies have made significant progress since 1986 
to improve the flood control system. I believe that without 
these heroic efforts, Sacramento would have flooded in January 
1997.
    I have supported Auburn Dam as the ultimate solution for 
American River flood protection. I have twice traveled to 
Washington to testify in support of the construction of the 
Auburn Dam, and twice the Congress has refused to support the 
construction of the dam. I have become convinced that the 
Federal Government will not support construction of the dam in 
the near term. This is because there is determined opposition 
to the dam from national environmental organizations and 
because of the cost of the project (nearly $1 billion). The dam 
will eventually be built because California will need the water 
supply (regardless of cost) and the added flood protection will 
accrue.
    We need flood protection NOW. The Dam and Levee 
Modification Plan provides the most flood protection that we 
can obtain without constructing an upstream dam or severely 
impacting Folsom Dam's multiple purpose functionality. The 
improvements under the Dam & Levee Improvement Plan will 
provide even greater reliability to the flood system as a whole 
when the upstream dam is finally constructed. I strongly 
endorse moving forward with the Folsom Dam and Levee System 
Improvements to provide Sacramento and the surrounding area 
with a very sig-

nificant improvement in flood protection. If we move 
expeditiously, within three flood seasons we can have new 
Folsom Dam outlets in place and the remainder of dam and levee 
improvements well underway. The high probability of flooding 
that Sacramento now faces will finally see a substantial 
reduction.

[GRAPHIC] [TIFF OMITTED] T9739.001

[GRAPHIC] [TIFF OMITTED] T9739.002

[GRAPHIC] [TIFF OMITTED] T9739.003

             Statement of Mayor Joe Serna, Jr., Sacramento

    Representatives Doolittle, Fazio, Matsui, Parr, and other 
members of the Subcommittee on Water and Power:
    Welcome to Sacramento. I'm the Mayor of the major U.S. city 
with the unfortunate distinction of having the lowest level of 
flood protection. The building you are meeting in sits in a 
flood plain that is statistically expected to be flooded every 
77 years.
    The City was formed to provide flood protection in an era 
when forms of extreme Jeffersonian democracy prevailed. In 
order to protect yourself, you incorporated, either as a 
municipality if you had an urban population, or as a flood 
district if you were predominantly composed of farm lands. The 
technical solution in those days was simple: build your levee 
higher than the agency on the other side of the river, and push 
the water your way.
    We in the City, at least, no longer seek to protect 
ourselves at the expense of our downstream neighbors. That is 
why we have reached out to form regional agencies such as 
SAFCA.
    And that is why SAFCA, and the City, and the County of 
Sacramento all endorsed a package of features that are included 
in Representative Robert Matsui's legislation. Mr. Chair, 
you've asked a number of questions about how Mr. Matsui's 
legislation will avoid creating hazards or nuisances for our 
downstream and upstream neighbors. Let me attempt to lay out 
our thinking:

        <bullet> Delays in the commute across the Folsom Dam.
    The strategy for fixing Folsom Dam advocated by Joe 
Countryman should avoid any delays to the daily commute across 
the bridge. I will refer you to him for any specifics.
    But I will point out that if we fail to make these needed 
improvements, and should the Dam overtop in a significant storm 
or downstream levees fail because we take steps to protect the 
dam by raising flows along the lower American, Highway 50 may 
close. If that happens, Intel, for example, will suffer greatly 
from the loss of a regional infrastructure. Intel, like most 
electronics manufacturers, employs just-in-time manufacturing. 
These high tech companies generally only have 24 hours of raw 
materials and parts on hand. If Highways 50 and the downtown 
interchanges are inundated, many of the region's high tech 
firms will shut down for the duration.
        <bullet> Local water supply:
    We have sought to meet the legitimate water needs of local 
and regional water users, like my colleague from San Joaquin, 
out of the discussions organized by the Water Forum. We believe 
that there are ways to help. The Water Forum has developed 
plans that will likely serve portions of the County of 
Sacramento (as we already serve the needs of Elk Grove in 
Representative Pombo's district), and perhaps EBMUD.
    I know that there are many that have pinned all their hopes 
for continued suburban growth in El Dorado and Placer Counties 
on an upstream multi-purpose dam. But that is years away at 
best. Congress has failed to support it, and I see no hope of 
statewide funding in the near future.
    We believe that is important to understand the interests of 
our upstream and downstream neighbors. We have made good faith 
efforts through the Water Forum to do so. We hope that members 
of the Subcommittee will understand that we continue to make 
every reasonable effort to do so. But we must separate the 
demand for water to support new growth in the outlying areas 
from flood protection. It is unfair to hold 400,000 city and 
county residents hostage to a will-of-the wisp, or to dreams of 
unlimited water for regional sprawl.
        <bullet> Reliability of proposal:
    No proposal is 100 percent reliable. Let me instead focus 
on the greater hazards of doing nothing.
    As I mentioned, we have evidence that our level of flood 
protection is not as great as earlier believed. There is danger 
that Folsom Dam might overtop in a major storm, and fail. 
Therefore, we must increase the Dam's ability to control and 
release water in greater volumes than now possible. Then what 
happens downstream? Currently, flood planning calls for 
allowing levels of up to 160,000 cfs down the lower American 
River. If we fail to make repairs to the levees, and upgrade 
them to handle Folsom's new release capacity, they may fail. 
I've already described what that might mean to the region's 
high tech economy if the levees fail and Highways 50 and 99 are 
inundated.
    If we don't take action to improve our levees, we can be 
even more concerned about a failure. One of my constituents has 
responded to this matter with this simile: The speed limit is 
only 30 miles per hour in my neighborhood. But I want the City 
to buy ambulances that can go 50 miles per hour in an 
emergency. I don't ex-

pect them to drive at 50 all the time; just for the limited 
duration that they need to do so to save lives.
    I think that's apt. No one in their right mind believes 
that the releases will reach design capacity for any longer 
than necessary. But we must have that capacity if we need it. 
All the signs are that we will. So, we turn the question 
around, and view it properly. What are the likely consequences 
if we don't improve our levees?
    I supported the Chair in his efforts for an upstream 
structure during the last WRDA debate. And I saw the will of 
Congress. So, we firmly believe that well managed levees are 
our best and most feasible opportunity for increased flood 
protection.
        <bullet> Impacts on downstream and upstream communities.
    We oppose any efforts to divide the region by pitting community 
against community.
    That's why we're supporting Bob Matsui's bill. The Matsui 
legislation will upgrade levees in Yolo and make improvements to the 
Yolo Bypass to accommodate incremental flows. Because there is 
agreement from all parties to make improvements allowing increased 
releases from Folsom, those incremental flows are coming.
    We responded to the needs of our neighbors in last year's floods, 
dispatching our City personnel to these other communities, staffing 
evacuation centers in the City for victims of the flooding, and sending 
police patrols into Sacramento County to allow them to redeploy into 
the Cosumnes flood plain. We are seeking reciprocity.
    Again, the loss of the downtown and the Highway 50 and 99 corridors 
is from catastrophic flooding upstream is a serious regional blow. 
Representative Matsui has included funds in his bill for improving 
those levees impacted by the incremental flows from Folsom. Improving 
our levees to handle those flows has no bearing on the marginal 
increases downstream.
    We support the efforts of other communities to improve their levees 
as well. I commend the wisdom of Yuba City and Marysville to seek 
funding to increase the capacity of the Feather River to carry flows 
levels up to 70,000 cfs greater than current capacity. That would bring 
the flood capacity of the Feather to around 200,000 cfs in an 
emergency. I applaud the City of Stockton, which has upgraded their 
levees as a means of increasing flood protections from major storms. In 
the past, Congress has supported their requests. In light of broad 
regional support for increased protections along the lower American, we 
ask for Congressional assistance for our citizens.
        <bullet> Environmental impact:
    Flood flows from any of our historic major storms have impacted the 
American River Parkway. Levee improvements in and of themselves will 
not likely create new problems. But upgraded levees will prevent sheet 
flooding across Rancho Cordova and areas south of American River 
affecting 400,000 County and City residents. Forty percent of these 
residents, according to census figures are ethnic minorities. 
Protecting them is a matter of environmental justice.
    Furthermore, failure to take action to improve Folsom and upgrade 
levees along the lower American produces other environmental hazards. 
These hazards are very familiar to health officers who have coped with 
cleanup from the flooding in the Cosumnes and San Joaquin drainage. 
During a catastrophic, hazardous materials from hundreds of underground 
tanks and businesses are released. Contamination then spreads across 
the entire Delta. We regularly heard reports, for example, of propane 
tanks from the flooding in Wilton ending up in downstream Delta 
communities.
    Having said all this, I must point to a number of issues with this 
hearing itself.
        <bullet> This Subcommittee has no jurisdiction over 
        Congressmember Matsui's bill.
        <bullet> Chair holding in a rump hearing in another member's 
        district.
        <bullet> The location and time of hearing are inaccessible to 
        the community most affected--400,000 working folks. Many of 
        them only heard about this hearing from us and are very 
        concerned about the outcome. Some of them wanted to speak.
    I hope that I have been a voice for those who did not have a chance 
to speak. I feel clear that while many of my constituents may very well 
support a dam at Auburn, very few of them feel that it is a solution 
that we will see in the near future. They have strongly spoken to me in 
favor of Congressmember Matsui's legislation. I am joining with the 
Sacramento Association of Realtors, neighborhood groups, community 
based organizations and other business groups to mobilize community 
support for Mr. Matsui's bill.
    I hope that the issue will not devolve into a divisive debate over 
Auburn or nothing. That would truly divide our community, and I am 
afraid that the issues would not be over what constitutes the best 
flood control policy, but instead on whether or not to hold up flood 
protection for a proposal that will also provide water for regional 
sprawl.

 Statement of Hon. Mark Montemayor, City Council Member, City of West 
                               Sacramento

    (Greetings) Chairman Doolittle and Members of the Subcommittee on 
Water and Power. My name is Mark Montemayor, Council Member, from the 
City of West Sacramento.
    The City of West Sacramento is downstream from the proposed 
improvements to both the Folsom Dam and the American River levees. 
Since West Sacramento is completely encircled by water during periods 
of high water, increased flows in the American River will have a direct 
impact on our flood protection capabilities. Our levees on the 
Sacramento River as well as our levees in the Yolo Bypass will be 
additionally challenged to protect our citizens from the additional 
flows from the American River. City representatives from the City of 
West Sacramento have had several discussions with the Sacramento Area 
Flood Control Agency regarding the current proposals before Congress. 
We have expressed to them the same concerns that we wish to share with 
you today.
    The current maximum discharge from Folsom Dam to the American River 
is 115,000 cfs. In 1986, the actual discharge was about 130,000 cfs. 
due to the high inflows which brought the reservoir to near capacity. 
The discharge at that time was very near the maximum carrying capacity 
of the levees along the American River. This SAFCA proposal would 
result in the American River levees being able to carry the release of 
as much as 180,000 cfs., if necessary. The improvements to Folsom Dam 
would improve to a degree our flooding protection, inasmuch as they 
would allow earlier release from the dam in the event of a major event. 
This could very well help to avoid at least a part of the problem that 
occurred in 1986 by allowing water to be released earlier.
    The first concern we have regarding this dramatic increase in flows 
down the American River is the lack of adequate engineering studies on 
upstream and downstream properties in Yolo County. There are many of us 
in West Sacramento and Yolo County that do not believe sufficient 
analysis of these impacts have been undertaken. A great deal of 
engineering analysis must be done to determine the ability of the 
downstream levees to withstand these additional flows. We would expect 
that such analysis would identify the work needed to mitigate 
downstream effects. It is our belief that such mitigation should be 
undertaken and completed prior to the upstream improvements. We also 
believe that these improvements should be a part of the Federal project 
and the downstream users should not have to bear the costs of the 
mitigation created by these increased flows.
    The City of West Sacramento has taken great steps in being able to 
protect our city from the danger of flooding. We are in the final 
stages of levee improvement projects, in conjunction with the Federal 
Government, that will bring our community to a 400-year flood 
protection level if the Auburn Dam is constructed, or to a 250-year 
level if it is not. It is not our city's intent to get involved in the 
debate as to what is adequate flood protection for the City of 
Sacramento. Those are the decisions for Sacramento to make. Our only 
intended involvement is relative to how such measures may impact us. It 
is our intention to work with our neighbors to ensure that any 
increased flood protection they provide for themselves will not 
increase risk to West Sacramento.

                           Supplemental Sheet

        <bullet> West Sacramento is extremely concerned about the level 
        of engineering analysis relative to the impacts on downstream 
        properties. Any work on Folsom Dam and the American River 
        levees should not degrade the level of protection of any 
        downstream users.
        <bullet> Funds to fully mitigate any impacts on downstream 
        users should proceed the work done on the American River 
        levees.
        <bullet> The improvements to Folsom Dam and the American River 
        levees should not impact downstream properties, both in terms 
        of flood protection or financial impacts.
                                 ______
                                 

Statement of George Barber, Chairman of the San Joaquin County Board of 
                              Supervisors

    Good morning. My name is George Barber. I am the Chairman 
of the Board of Supervisors in San Joaquin County.
    San Joaquin County is immediately south of Sacramento 
County and includes 40 percent of the Sacramento/San Joaquin 
River Delta. All flood flows generated from waterways in the 
Sacramento and American River Basins eventually flow through 
San Joaquin County on their way to the San Francisco Bay. We 
are very concerned for our safety and preservation of existing 
flood protection facilities.
    The proposed modifications to Folsom Dam currently being 
considered include increasing the maximum release from Folsom 
Dam to 180,000 cfs. This flow rate is substantially higher than 
flow rates for which the flood protection system was designed. 
It is extremely important that, in the analysis of the higher 
flow rates, the analysis not end at the confluence of the 
American and Sacramento Rivers, but be carried out through the 
entire system. The analysis must include the determination of 
impacts on the Delta levees and provide mitigation for their 
impacts.
    The higher flow rates, longer flow durations and higher 
flow elevations through the levees in Northern San Joaquin 
County and throughout the Delta, must be treated as an integral 
part of the project. The impacts must be clearly defined to the 
understanding of all, and these impacts must be mitigated as 
part of any proposed project.
    Previous considerations of a dam at Auburn, on the American 
River, would not require the significantly higher flood flow 
rates and, in fact, would probably allow them to be reduced, 
thus not only providing flood assurance for the Sacramento 
Metropolitan Area, but would also relieve our concern regarding 
higher maximum flow rates.
    Auburn Dam has historically been a key feature in providing 
an adequate water supply for San Joaquin County. The authorized 
project to construct both the Auburn Dam and the Folsom South 
Canal would have provided sufficient water supply to San 
Joaquin County to relieve the critical overdraft in the eastern 
San Joaquin groundwater basin. The development of this project 
was delayed for a number of reasons. These reasons include 
changing Federal positions regarding the support of the 
project, implementation of the National Environmental Policy 
Act and disputes between environmental and water supply 
agencies concerning the diversion of American River water into 
the Folsom South Canal.
    The position of San Joaquin County has long been in support 
of the development of the Auburn Dam as a way to meet water 
needs in San Joaquin County. Yesterday, the San Joaquin County 
Board of Supervisors, at their regular meeting, adopted a 
Resolution in opposition to H.R. 3698 and in support of 
transferring the Auburn Dam site to the State of California. 
This Resolution expresses our concern regarding the flood 
control measures in this County, as well as continuing our 
support of proposals to develop a water storage project at 
Auburn. The Resolution will be included as part of our 
testimony.
    In addition to meeting regional water supply needs, the 
Auburn Dam would also provide water for the management of flows 
in the lower American River, provide additional water to meet 
all of Californians' needs and provide supplemental water for 
maintaining water quality in the Sacramento-San Joaquin River 
Delta.
    Thank you for the opportunity to present these remarks and 
we appreciate the Committee's support in not decreasing the 
flood protection in San Joaquin County, and for the support in 
developing an adequate water supply to meet our future needs.

[GRAPHIC] [TIFF OMITTED] T9739.004

[GRAPHIC] [TIFF OMITTED] T9739.005

[GRAPHIC] [TIFF OMITTED] T9739.006

  Statement of Lewis K. Uhler, President, The National Tax Limitation 
                               Committee

    Dear Mr. Chairman:
    While the focus of the hearing is on proposed modifications 
to Folsom Dam and related water management implications, I 
believe it is clear that no half-way measures are likely to 
provide a true solution to the area's flood and water 
challenges short of construction of a full multi-purpose dam. 
(The State Reclamation Board's recent decision against 
providing funding to increase the height of American River 
levees supports this view.)
    It is widely agreed that 200+ year flood protection is the 
minimum acceptable safety level for the Sacramento flood plain. 
Recent recalculations by the Army Corps of Engineers of the 
flood potential of the American River watershed reveals that 
the flood threat is even greater than originally understood, 
and that only a dam that can interdict major water flows on the 
American River will prove safe and effective. All other 
alternatives are makeshift, temporary and dangerous.
    Taxpayers should not be asked to foot the bill for a 
jerrybuilt solution to Sacramento's flood challenges. By the 
same token, taxpayers nationwide do not seem anxious to pay for 
a project which has specific local benefits but not general 
national or multi-state implications.
    Given all these circumstances, it has become increasingly 
apparent that the people of California should consider private 
or, if you will, a privatization alternative in terms of the 
construction of a dam in the Auburn area. The essential first 
step is for the Federal Government to turn over the dam site 
property and inundation rights to the State of California so 
the process can move forward.
    While too much water at one time is a threat to our safety, 
too little water--the inevitable droughts which we experience 
in the area--constitutes a grave public risk as well. Water is 
then a very precious commodity. We should seek a solution which 
both protects us against too much water and too little. As a 
freer market in water develops, prices per acre foot are 
firming. The pursuit of assured water supplies by various water 
districts, especially those in urban areas, can provide solid 
cash flows for financing dam construction.
    Equally important, valuable electrical power can be 
generated from such a dam facility. It is the cleanest and 
cheapest power available.
    If we add flood insurance premium funds and other flood 
protection funding sources, a private solution begins to make 
real sense. I believe this is the route that should be pursued 
seriously and aggressively.
    Self-styled environmentalists have said they will oppose 
any multi-purpose dam solution. They ought to weigh carefully 
the conservation pluses and minuses attendant to such a 
project. On the down side is the inundation of portions of the 
North and Middle Forks of the American River, with the 
resulting loss of whitewater rafting opportunities (very 
dangerous in those areas, incidentally). On the plus side are 
at least the following benefits:
        <bullet> real protection against catastrophic floods, 
        preserving human life, property and a wide range of flora and 
        fauna that could not otherwise survive;
        <bullet> conservation of precious water to meet human needs, as 
        well as to provide constant flushing effects in the delta to 
        preserve various fish and aquatic species;
        <bullet> the cleanest electricity generation possible to meet 
        California's growing population needs;
        <bullet> maintenance of a stable level for Folsom Lake, 
        assuring the recreation and fishery benefits of that facility;
        <bullet> creation of a new recreation lake behind Auburn Dam 
        with enormous fish and other aquatic potential;
        <bullet> stabilized habitat for indigenous, as well as 
        migrating, water fowl at both Folsom Lake and Auburn Dam lake.
    Taxpayer interests will be well served if we quickly and thoroughly 
explore the privatization alternative for the ultimate solution: a 
multi-purpose Auburn Dam. The National Tax Limitation Committee stands 
ready to assist with this effort.
                 The National Tax-Limitation Committee
                             Lewis K. Uhler
    Lew Uhler is founder and President of the National Tax Limitation 
Committee, one of the Nation's leading grass roots taxpayer lobbies. He 
has been at the forefront of the national movements for a Tax 
Limitation/Balanced Budget Amendment to the United States Constitution 
and for term limits.
    Then-Governor Ronald Reagan selected Uhler to serve on the 
California Law Revision Commission in 1968 and appointed him to key 
positions in state government. In 1972, Governor Reagan asked Uhler to 
organize and serve as Chairman of the Governors Tax Reduction Task 
Force. With the assistance of a nationwide panel of advisors (including 
Nobel Laureates Milton Friedman and James Buchanan), the task force 
developed Californians landmark Revenue Control and Tax Limitation Act, 
which became a model for tax-expenditure limitation measures in many 
states across the Nation.
    Uhler founded the National Tax Limitation Committee in 1975 to 
carry California's message of controlled government to the Nation. With 
offices in Roseville (Sacramento), California, and Washington, DC, NTLC 
works with grass roots organizations to limit state and Federal 
spending through legal restrictions and constitutional changes. Uhler 
has recognized the need for an everexpanding base of intellectual and 
organizational resources in the battle for fiscal responsibility. He 
participated in the founding of the American Legislative Exchange 
Council and has worked closely with the State Policy Council movement 
nationwide.
    In 1990, Uhler was co-author of Proposition 140, Californians 
pioneering state term limit initiative. Under Uhler's leadership, NTLC 
has forged coalitions, including ``Americans for Responsible 
Privatization'' and the ``Council for Retirement Security,'' to return 
functions to the private sector and to downsize government. In March 
1996, Uhler participated in a symposium at the Vatican on ``The Family 
and the Economy in the Future of Society'' to explore private 
alternatives to welfare states worldwide.
    Uhler has written numerous articles and opinion pieces on taxes and 
spending. He is the author of the book, Setting Limits: Constitutional 
Control of Government, with foreword by Milton Friedman. Uhler speaks 
internationally on fiscal issues and has appeared on numerous national, 
regional and local television and radio programs and has been widely 
quoted in the print media.
    Uhler is a native Californian, a graduate of Yale University and of 
the Boalt Hall School of Law at the University of California at 
Berkeley. He is a member of the California Bar and has been active in 
the practice of law and in land development in California. He is 
married to the former Cynthia Ross, has four grown sons and resides in 
the Sacramento area.

[GRAPHIC] [TIFF OMITTED] T9739.007

[GRAPHIC] [TIFF OMITTED] T9739.008

[GRAPHIC] [TIFF OMITTED] T9739.009

[GRAPHIC] [TIFF OMITTED] T9739.010

[GRAPHIC] [TIFF OMITTED] T9739.011

[GRAPHIC] [TIFF OMITTED] T9739.012

[GRAPHIC] [TIFF OMITTED] T9739.013

[GRAPHIC] [TIFF OMITTED] T9739.014

[GRAPHIC] [TIFF OMITTED] T9739.015

[GRAPHIC] [TIFF OMITTED] T9739.016

[GRAPHIC] [TIFF OMITTED] T9739.017

[GRAPHIC] [TIFF OMITTED] T9739.018


</pre></body></html>
